<html>
<title> - NOMINATIONS TO THE U.S. DEPARTMENT OF COMMERCE, THE NATIONAL TRANSPORTATION SAFETY BOARD, THE CONSUMER PRODUCT SAFETY COMMISSION, THE FEDERAL MARITIME COMMISSION AND THE SAINT LAWRENCE SEAWAY DEVELOPMENT CORPORATION</title>
<body><pre>[Senate Hearing 108-1017]
[From the U.S. Government Publishing Office]





                                                       S. Hrg. 108-1017

                 NOMINATIONS TO THE U.S. DEPARTMENT OF
                 COMMERCE, THE NATIONAL TRANSPORTATION
                   SAFETY BOARD, THE CONSUMER PRODUCT
   SAFETY COMMISSION, THE FEDERAL MARITIME COMMISSION AND THE SAINT 
                                LAWRENCE
                     SEAWAY DEVELOPMENT CORPORATION

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 30, 2004

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                         U.S. GOVERNMENT PUBLISHING OFFICE 

00-000 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001




















       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South 
CONRAD BURNS, Montana                    Carolina, Ranking
TRENT LOTT, Mississippi              DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          JOHN D. ROCKEFELLER IV, West 
OLYMPIA J. SNOWE, Maine                  Virginia
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              JOHN B. BREAUX, Louisiana
PETER G. FITZGERALD, Illinois        BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  RON WYDEN, Oregon
GEORGE ALLEN, Virginia               BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
                                     MARIA CANTWELL, Washington
                                     FRANK R. LAUTENBERG, New Jersey
      Jeanne Bumpus, Republican Staff Director and General Counsel
             Robert W. Chamberlin, Republican Chief Counsel
      Kevin D. Kayes, Democratic Staff Director and Chief Counsel
                Gregg Elias, Democratic General Counsel
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 30, 2004...................................     1
Statement of Senator Breaux......................................     3
Statement of Senator Hollings....................................     2
Statement of Senator McCain......................................     1
Statement of Senator Nelson......................................     4
    Letter dated March 29, 2004 to Hon. John McCain and Hon. 
      Ernest Hollings from Senator Bob Graham, U.S. Senator from 
      Florida....................................................     4

                               Witnesses

Anderson, Hon. A. Paul, Nominated to be a Commissioner, Federal 
  Maritime Commission............................................    38
    Prepared statement...........................................    39
    Biographical information.....................................    40
Brennan, Hon. Joseph E., Nominated to be a Commissioner, Federal 
  Maritime Commission............................................    46
    Prepared statement...........................................    47
    Biographical information.....................................    48
Hersman, Deborah A. P., Nominated to be a Member, National 
  Transportation Safety Board....................................    17
    Prepared statement...........................................    18
    Biographical information.....................................    19
Kassinger, Hon. Theodore W., Nominated to be Deputy Secretary, 
  U.S. Department of Commerce....................................     7
    Prepared statement...........................................     8
    Biographical information.....................................     9
McGregor, Jack E., Nominated to be a Member of the Advisory 
  Board, Saint Lawrence Seaway Development Corporation...........    54
    Prepared statement...........................................    54
    Biographical information.....................................    55
Mica, Hon. John L., U.S. Representative from Florida.............     6
Moore, Hon. Thomas H., Nominated to be a Commissioner, U.S. 
  Consumer Product Safety Commission.............................    25
    Letter dated March 26, 2004 to Hon. John McCain from Hal 
      Stratton, Chairman, U.S. Consumer Product Safety Commission    26
    Prepared statement...........................................    28
    Biographical information.....................................    31
Shays, Hon. Christopher, U.S. Representative from Connecticut....     2

                                Appendix

Commercial Vehicle Safety Alliance, prepared statement...........    70
Rockefeller IV, Hon. John D., U.S. Senator from West Virginia, 
  prepared statement.............................................    69
Shaw, Jr., Hon. E. Clay, prepared statement......................    69
 
                           NOMINATIONS TO THE
                      U.S. DEPARTMENT OF COMMERCE,
                   THE NATIONAL TRANSPORTATION SAFETY
                   BOARD, THE CONSUMER PRODUCT SAFETY
                    COMMISSION, THE FEDERAL MARITIME
                   COMMISSION AND THE SAINT LAWRENCE
                     SEAWAY DEVELOPMENT CORPORATION

                              ----------                              


                        TUESDAY, MARCH 30, 2004

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:35 p.m. in room 
SR-253, Russell Senate Office Building, Hon. John McCain, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    The Chairman. Good afternoon. The Commerce Committee meets 
today to consider the nominations of six individuals who have 
been nominated by the President to serve our country in very 
important positions.
    This Committee takes its advice and consent role very 
seriously, and I will note that each of the nominees has 
responded in detail to the Committee's request for biographical 
and financial data. I've had the opportunity to review your 
responses to the Committee questionnaire, and I look forward to 
moving your nominations quickly.
    We have, appearing before the Committee today: Theodore 
Kassinger, to be Deputy Secretary of Commerce; Debbie Hersman, 
to be a Member of the National Transportation Safety Board; 
Thomas Moore, to be a Commissioner of the Consumer Product 
Safety Commission; Paul Anderson and Joseph Brennan, to be 
Federal Maritime Commissioners; and Jack McGregor, to be a 
Member of the Saint Lawrence Seaway Development Corporation.
    I thank the nominees for being here today. I know your 
nominations are a great honor and your families are very proud. 
Please feel free to introduce any family members who are 
present before we begin your remarks.
    And Senator Hollings?
    Senator Hollings. Thank you, Mr. Chairman. Let me yield to 
Congressman Shays. He's busier than I am.
    [Laughter.]
    The Chairman. Congressman Shays, we welcome----
    Mr. Shays. Senator, I'm----
    The Chairman. Well, could I just ask Senator Nelson, do you 
have any----
    Senator Nelson. No, I just----
    The Chairman. Thank you.
    Congressman Shays, welcome. Thank you for coming.

             STATEMENT OF HON. CHRISTOPHER SHAYS, 
              U.S. REPRESENTATIVE FROM CONNECTICUT

    Mr. Shays. Thank you. It's an honor to be here, Senators.
    Mr. Chairman, Senator Hollings, distinguished Senators from 
Louisiana and Florida, I am grateful for the opportunity to 
introduce my good friend and neighbor, Jack McGregor, who has 
been nominated by the President to the Advisory Board of the 
Saint Lawrence Seaway Development Corporation.
    Jack has been a corporate and civic leader in my home town 
of Bridgeport, Connecticut, for many years. In his varied and 
distinguished career, he has repeatedly broken new ground and 
made dreams realities. From founding the Pittsburg Penguins 
hockey team and the Bridgeport Bluefish baseball team, to 
leading both a major water utility and oil company, to helping 
Governor Rowland's transition in Connecticut when he was first 
elected, November 1994, to serving as an elected official in 
Pennsylvania for two four-year terms as a state senator, Jack 
has repeatedly shown himself to be both a skillful leader and 
effective team player. Jack McGregor always gets the job done, 
and I know he will continue to serve his country as he has 
served his community, with extraordinary distinction.
    I thank you for your consideration of this very worthy 
appointee and my friend, Jack McGregor.
    The Chairman. Thank you, Congressman Shays, for coming over 
to say some very nice comments about this fine American, and we 
thank you for being here. And you're always welcome here, 
Congressman Shays.
    Mr. Shays. Thank you all.
    The Chairman. Thank you.
    Could the other nominees join us at the table--which would 
be the Honorable Theodore Kassinger, Deborah Hersman, Thomas 
Moore, Paul Anderson, Joseph E. Brennan and--Mr. McGregor, if 
you would just stay where you are.
    And I think that Senator Hollings and then Senator Nelson 
would like to make some remarks.

             STATEMENT OF HON. ERNEST F. HOLLINGS, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator Hollings. Thank you very, very much, Mr. Chairman. 
I'd like to, of course, once again----
    The Chairman. Senator Breaux, also.
    Senator Hollings.--welcome our friend, Governor Brennan. 
I'm proud to support, and we all are proud to support his 
nomination.
    And let me say, an extended word, and not too extended, I 
ask that my full statement be included, Mr. Chairman.
    The Chairman. Without objection.
    Senator Hollings. But Debbie Hersman, she has a bachelor of 
arts, political science, and bachelor of arts, international 
studies at VPI, a master of science, conflict analysis and 
resolution at George Mason, and she has had a graduate degree 
in conflict analysis serving on this Committee for the past 5 
years.
    [Laughter.]
    Senator Hollings. She has really been a tremendous 
assistance to the Committee. She has taken over the oversight 
of truck and bus safety, pipeline safety, hazardous materials, 
transportation safety, even assisted on aviation matters, rail, 
ports, and trucking. And, most of all, she has led our thinking 
and progress on Amtrak. She has more or less been Mrs. Amtrak, 
we know, on the Committee, because she's not only advised both 
sides--and the distinguished Chairman, who's got a different 
view, supposedly, of Amtrak--but she's been objective, and she 
has been persistent, and she's stayed up long hours with her 
independent thinking, looking at all sides of the issue. And 
allowing she not only has got the technological points down 
fine, but she's got also the political points. She understands 
both, and that's a rare combination, and I couldn't be stronger 
in my recommendation for her confirmation.
    And I thank the Chairman.
    The Chairman. Thank you very much, Senator Hollings, and I 
share your very high opinion of Ms. Hersman. We may have had 
disagreements, but those disagreements were not uninformed, and 
I appreciate the great work she did.
    Senator Nelson--or Senator Breaux, would you like to make 
any remarks?

               STATEMENT OF HON. JOHN B. BREAUX, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Breaux. Well, thank you, Mr. Chairman. And I would 
make comments about two of our nominees that I've had the 
privilege of working with, Thomas Moore, who was on my staff as 
a legislative director a long time ago, and then moved on to 
government service on the Consumer Products Safety Commission, 
and has done a terrific job in that capacity, and in the sense 
that he was recognized and appointed, and then reappointed 
again, and that speaks of his ability and understanding of the 
process. He was appointed first in 1994, then renominated for a 
full term in 1996, and he's back with us again and brings a 
stability and intelligence to that very important commission 
that is so necessary and so needed. So I enthusiastically 
support his renomination to that position.
    And with regard to Debbie Hersman, I would just say that I 
think Senator Hollings has said it all very well. I mean, it's 
a person that has worked well with all members of the 
Commission--I mean, the Committee, and now will serve as a 
member of the Transportation Safety Board. And, you know, some 
would say, well, you need someone who's a mechanical engineer, 
who knows how to get into the crash site and determine what 
happened. And I think that there's more than just that. That's 
part of it. But serving on the National Transportation Services 
Safety Board also has a requirement that you can understand the 
law, understands the Congress, understands how we got where we 
are in all these areas. You can always hire engineers to look 
at the mechanical failures, but to know the whole total 
process, the big picture, if you will, how to interact and be 
responsible to the Congress, is something that is incredibly 
important, and Debbie obviously brings that ability to this 
position. And I enthusiastically support her nomination and 
look forward to working with her.
    The Chairman. Thank you very much.
    Senator Nelson?

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman.
    I'm here to speak for Paul Anderson. I know a number of 
you, and you certainly have our support. I had the privilege of 
serving in the House with then-Congressman Brennan. And Paul is 
a Floridian.
    I want to introduce his father. Mr. Anderson, why don't you 
stand up and--thank you for coming.
    Mr. Chairman, I give, to you and Senator Hollings, a letter 
from Senator Graham, also supporting the nominee.
    The Chairman. Without objection, it'll be made part of the 
record.
    Senator Nelson. Thank you.
    [The letter referred to follows:]

                                       United States Senate
                                      Washington DC, March 29, 2004

Hon. John McCain,
Chairman,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.
Hon. Earnest Hollings,
Ranking Member,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman McCain and Ranking Member Hollings:

    I am in full support of the nomination of Alan Paul Anderson to be 
a Federal Maritime Commissioner. I have known Paul Anderson for almost 
20 years and I am sure that he will be an outstanding asset to the 
Commission in its efforts to regulate transportation in the oceanborne 
commerce of our Nation.
    Paul Anderson's professional background, both in the maritime 
industry and elsewhere, qualify him to be an effective Commissioner. 
Paul worked in Port Everglades, Florida for nine years with Hvide 
Marine, a maritime support and transportation business. During his time 
with Hvide, Paul was actively involved in marketing and public affairs 
and maritime trade associations; he also served as Assistant to Hvide's 
Chairman and CEO. Paul's exposure to the business realities of the 
maritime industry will be of great value in helping the Commission 
execute its mission.
    Paul's background also includes significant experience with 
government. He gained valuable exposure to the local, state, and 
Federal levels of government through his service as the Vice President 
for Government Relations at JM Family Enterprises, a diversified 
automobile business headquartered in Deerfield Beach, Florida. Paul 
also served for several years as a Special Assistant to United States 
Senator Paula Hawkins.
    Paul has a long record of public service and leadership in the 
state of Florida, and has been actively involved in his community for 
many years. He has served on numerous boards, including the Broward 
Community College Board of Trustees, the Broward Education Foundation, 
the Florida Chamber, and the Junior Achievement of South Florida Board 
of Directors, as well as on the boards of other charitable 
organizations and maritime industry groups.
    The mission of the Federal Maritime Commission is to foster and 
protect an efficient and nondiscriminatory ocean transportation system. 
Alan Paul Anderson will ably fulfill that goal. I support his 
nomination without reservation.
            Sincerely,
                                                Bob Graham,
                                             Unites States Senator.

    Senator Nelson. Maritime issues are not anything new, not 
to Paul, going way back to the time that he had served in the 
employ of a major shipping company that is located in our 
state. And he has been extremely involved in public and 
community service, and I can name them all, from the Board of 
Governors of the Chamber, and so forth, Florida Tax Watch. It's 
been a rather stellar community service record. And that 
includes things like the Board of Trustees on one of our 
community colleges in Florida, and serving in a statewide 
capacity, the Florida Association of Community College 
Trustees. And then he gets involved in trying to help out kids 
through a statewide public-private partnership, offering 
mentoring to high-risk children, at-risk children in Florida.
    He's had quite a bit of government experience, formerly as 
an assistant to U.S. Senator Paula Hawkins, and then as press 
secretary to then Congressman Connie Mack. He is a devoted 
sports fan. We both had the privilege of serving on the Orange 
Bowl Committee.
    And so, Mr. Chairman, I'm very happy to be here and lend a 
word on behalf of his nomination.
    Thank you.
    The Chairman. Thank you very much.
    Before we begin our opening statements, I'd like to ask 
that each of the members, starting with you, Mr. Moore, would 
recognize your family members in the audience so we can thank 
them for being here in support of your nominations.
    Mr. Moore. Thank you very much, Mr. Chairman. Most of my 
family are out of town today, but I would like to thank my 
staff, who are here to support me, very much, and I also would 
like to thank Commissioner Mary Graul.
    The Chairman. Is she here?
    Mr. Moore. She's here, yes.
    The Chairman. Thank you very much.
    Mr. Moore. Yes.
    The Chairman. Thank you, Mr. Moore.
    Governor Brennan?
    Governor Brennan. Mr. Chairman, with me today is my wife 
Connie, if she may stand, with my son, Joe, and my young 
sister, Mary.
    The Chairman. Welcome, Mary. Welcome to the family. Thank 
you, sir.
    Mr. Kassinger?
    Mr. Kassinger. Senator McCain, I'm glad that I'm able to be 
joined by my wife Ruth and two of my three daughters, Anna----
    The Chairman. Would you stand, please, so we----
    Mr. Kassinger.--Anna and Austin.
    The Chairman. Congratulations.
    Mr. McGregor?
    Mr. McGregor. Mr. Chairman, my family is back home in 
Connecticut covering for me today.
    [Laughter.]
    The Chairman. They're not trying to get through that 
traffic jam. Ms. Hersman will take care of that for you.
    [Laughter.]
    The Chairman. Ms. Hersman?
    Ms. Hersman. Thank you, Senator McCain. As a staffer, this 
was always my favorite part of nomination hearings, and today 
is no different. My husband Neil is here with me today, and my 
two sons, Taylor----
    The Chairman. Would you stand, please?
    Ms. Hersman.--and Wilson is announcing himself.
    [Laughter.]
    Ms. Hersman. My father, Walt, and his wife, Inga Hersman.
    The Chairman. Welcome.
    Ms. Hersman. My sister, Valerie, and her husband, Cary, and 
my husband's family, the Plummers, my in-laws, and my sister- 
and brother-in-law.
    The Chairman. Would you all please stand? Welcome.
    Mr. Anderson?
    Mr. Anderson. Thank you, Mr. Chairman. And thank you, 
Senator Nelson. He has already introduced my dad, who's here, 
but I do want to reintroduce him again today. Perry Anderson, 
here from California, is a distinguished veteran and retired 
marine officer, and I'm glad to have my dad here for today.
    Thank you.
    The Chairman. Mr. Anderson, welcome twice----
    [Laughter.]
    The Chairman.--and thank you for your----
    Mr. Anderson. I'd also----
    The Chairman.--thank you for your service to our country.
    Mr. Anderson. Mr. Chairman, I also recognize my colleagues 
that are here, Chairman Steve West, Chairman of the FMC, and 
Commissioners Rebecca Dye and Hal Creel, who you all know so 
well, and I thank them and the rest of the staff that's here 
today.
    The Chairman. I thank them for being here.
    In no particular order, we'll begin with the Honorable 
Theodore Kassinger. And I would like the witnesses to know that 
their statements will be made part of the record.
    By the way, I saw Congressman Mica. Congressman Mica, would 
you like to just come up and sit here? I know you wanted to 
introduce one of the nominees. And thank you for coming over. 
Please go ahead.

                STATEMENT OF HON. JOHN L. MICA, 
                U.S. REPRESENTATIVE FROM FLORIDA

    Mr. Mica. Thank you, Mr. Chairman.
    I just came, actually, to speak either for or against Paul 
Anderson, whichever would help the most.
    [Laughter.]
    Mr. Mica. Mr. Chairman, Ranking Member, I've known Paul for 
over two decades, and I tell you, I'm so proud of him. He has a 
distinguished career, and it started over here as a Senate 
staffer, when I was Chief of Staff for Senator Hawkins from 
Florida. And he has had a great career in the private sector 
and the maritime industry. He's an absolute credit. And I tell 
you, if he was my own son today I wouldn't be any prouder. So I 
leave him in your good hands.
    Thank you.
    The Chairman. Thank you very much, Congressman Mica. And 
those were very kind words.
    Mr. Kassinger, welcome.

STATEMENT OF HON. THEODORE W. KASSINGER, NOMINATED TO BE DEPUTY 
             SECRETARY, U.S. DEPARTMENT OF COMMERCE

    Mr. Kassinger. Thank you, Mr. Chairman, Senator Hollings, 
Members of the Committee. I'm honored to appear before you 
today as the President's nominee to serve as the Deputy 
Secretary of the U.S. Department of Commerce.
    I'm grateful to President Bush for providing me this 
opportunity to serve the public, and I deeply appreciate the 
continued confidence and support shown to me by Secretary 
Evans. I wish to thank this Committee, as well, for the 
courtesy it has extended to me in my current position and with 
respect to this nomination.
    The Deputy Secretary of the Commerce Department effectively 
serves as the agency's Chief Operating Officer, overseeing the 
Department's some 40,000 employees and $6 billion budget. The 
Deputy Secretary also acts as the Secretary's advisor and 
surrogate, providing additional leadership for the Department's 
broad and complex responsibilities and activities. From 
internal administration to marine fisheries to international 
trade, the census, and various other scientific, technological, 
environmental, and economic areas, the Department, every day, 
addresses a multitude of important challenges an opportunities. 
With the support of the Committee, the talented management team 
of the Department, and the Department's hardworking employees, 
I am confident that I can continue the good work of former 
Deputy Secretary Bodman, and emulate Secretary Evans' 
commitment to excellence in our work in all of these areas.
    If confirmed by the Senate, I would bring substantial 
relevant experience and knowledge to the position of Deputy 
Secretary. For the past 3 years, I have been privileged to 
serve as the Department's General Counsel. As the agency's 
Chief Legal Officer, I have provided legal advice and guidance 
to the Secretary and other senior Department officials on the 
full range of issues entrusted to the Department. And I have 
regularly represented the Department in policymaking councils 
within the Administration.
    Prior to joining the Department, I practiced law for 16 
years, and also served as a staff member of the Senate 
Committee on Finance and with two Federal agencies.
    I think I, as a result, enjoy good familiarity with the 
Commerce Department's operations and programs. I also know that 
staying abreast of matters before the Department requires a 
willingness to learn something new every day about what we do.
    I welcome that challenge and will continue to work hard to 
satisfy the high standard of achievement expected by the 
President, the Secretary, and this Committee.
    During the remainder of this term, the Secretary and I will 
maintain the Department's focus on economic growth and job 
creation. We will continue, also, to strive to open foreign 
markets, to ensure compliance with trade agreements, and to 
foster technological innovation, intellectual property 
protection, effective export controls, wise stewardship of 
natural resources, and sound economic statistics. I look 
forward to working with this Committee on these and any other 
matters.
    Mr. Chairman, before closing, I would like to take this 
opportunity to thank you and other Members of this Committee, 
especially Senator Hollings, Senator Stevens, and Senator 
Snowe, for your help in enacting the NOAA Corps legislation. I 
understand the House passed H.R. 2584 last night, clearing the 
way for that bill to go to the President and, hopefully, for 
NOAA Corps appointments and promotions to resume in the normal 
course in the near future. I assure you that we have worked 
hard to fix what was a broken system, but I am confident that 
with the enactment of H.R. 2584, NOAA Corps will return to 
effective operations under much strengthened oversight and 
administrative processes.
    In conclusion, permit me to reiterate my gratitude for 
being asked to serve the public in this new role. I am 
especially fortunate to benefit in this endeavor from the 
support of my family and friends; most particularly, my family. 
Thank you for the opportunity to introduce them.
    That concludes my statement. I'd be happy to respond to any 
questions.
    [The prepared statement and biographical information of Mr. 
Kassinger follow:]

   Prepared Statement of Hon. Theodore W. Kassinger, Nominee for the 
       Position of Deputy Secretary, U.S. Department of Commerce
    Mr. Chairman, Senator Hollings, and Members of the Committee,

    I am honored to appear before you today as the President's nominee 
to serve as Deputy Secretary of the U.S. Department of Commerce. I am 
grateful to President Bush for providing me this opportunity to serve 
the public, and I deeply appreciate the continued confidence and 
support shown to me by Secretary Evans. I wish to thank this Committee 
as well for the courtesy it has extended to me in my current position 
and with respect to this nomination.
    The Deputy Secretary of the Department of Commerce effectively 
serves as the agency's chief operating officer, overseeing the 
Department's nearly 40,000 employees and $6 billion budget. The Deputy 
Secretary also acts as the Secretary's advisor and surrogate, providing 
additional leadership for the Department's broad and complex 
responsibilities and activities. From internal administration to marine 
fisheries to international trade, the Census, and various other 
scientific, environmental, technological, and economic areas, the 
Department addresses every day a multitude of important challenges and 
opportunities. With the support of the Committee, the talented 
management team at the Department, and the Department's hard-working 
employees, I am confident that I can continue the good work of former 
Commerce Deputy Secretary Bodman and emulate Secretary Evans' 
commitment to excellence in our work in all of these areas.
    If confirmed by the Senate, I would bring substantial relevant 
experience and knowledge to the position of Deputy Secretary. For the 
past three years, I have been privileged to serve as the Department's 
General Counsel. As the agency's chief legal officer, I have provided 
legal advice and guidance to the Secretary and other senior Commerce 
officials on the full range of issues entrusted to the Department, and 
I have regularly represented the Department in policy-making councils 
within the Administration.
    Before joining the Department, I practiced law in the private 
sector for nearly 16 years, representing and counseling clients engaged 
in a wide variety of international trade regulatory matters and 
proceedings, business transactions, litigation, and arbitrations. I 
have also had the privilege of serving on the staff of the Senate 
Committee on Finance and as an attorney at both the Department of State 
and the U.S. International Trade Commission. My public service and 
private practice have taught me much about the Department and its 
sister Federal agencies and their interactions with the private sector.
    While I now enjoy good familiarity with the Commerce Department's 
operations and programs, I also know that staying abreast of matters 
before the Department requires a willingness to learn something new 
every day about what we do. I welcome that challenge and opportunity, 
and will continue to work hard to satisfy the high standard of 
achievement expected by the President, the Secretary, and this 
Committee.
    During the remainder of this term, the Secretary and I will 
maintain the Department's focus on economic growth and job creation. We 
will also continue to strive to open foreign markets, to ensure 
compliance with trade agreements, and to foster technological 
innovation, intellectual property protection, effective export 
controls, wise stewardship of natural resources, and sound economic 
statistics. I look forward to working with this Committee on these and 
many other matters.
    In closing, permit me to reiterate my gratitude for being asked to 
serve the public in this new role. I am especially fortunate to benefit 
in this endeavor from the support of my family and friends, and most 
particularly my wife and my daughters.
    Thank you again for this opportunity to appear before you today, 
and for your consideration of my nomination.
    I would be pleased to respond to any questions you may have.
                                 ______
                                 
                      a. biographical information
    1. Name: (include any former names or nick names used.) Theodore 
William Kassinger (Ted).
    2. Position to which nominated: Deputy Secretary of the U. S. 
Department of Commerce.
    3. Date of nomination: February 26, 2004.
    4. Address: (List current place of residence and office addresses.)

        Residence: Information not released to the public.

        Office: Room 5870, U.S. Department of Commerce, 14th Street and 
        Constitution Ave. NW, Washington, DC 20230.

    5. Date and place of birth: January 26, 1953; Atlanta, GA.
    6. Marital status: (include maiden name of wife or husband's name.)
    Married--Ruth Good (wife's maiden name)
    7. Names and ages of children: (Include stepchildren and children 
from previous marriages.)

------------------------------------------------------------------------
                                Name                                 Age
------------------------------------------------------------------------
Anna L. Kassinger                                                     17
Austen Kassinger                                                      15
Alice C. Kassinger                                                    11
------------------------------------------------------------------------

    8. Education: (List secondary and higher education institutions, 
dates attended, degree received and date degree granted.)

------------------------------------------------------------------------
                                             Degree
    Name of School        Dates Attended      Date      Degree Granted
------------------------------------------------------------------------
University of Georgia   September 1975 to       J.D.          June 1978
                         June 1978
University of Georgia   June 1970-Jnne         B.L.A          June 1975
                         1975
Athens (GA) High        September 1968-    none (skipped senior year)
 School                  June 1970
------------------------------------------------------------------------

    9. Employment Record: (List all jobs held since college, including 
the title or description of job, name of employer, location of work, 
and dates of employment.)

------------------------------------------------------------------------
      Title         Name of Employer       Location     Dates Employment
------------------------------------------------------------------------
Law clerk         U.S. Dept of HEW      Atlanta, GA    June 1976-May
                                                        1977
 
Summer Associate  Smith, Currie &       Atlanta, GA    June 1977-August
                   Hancock                              1977
 
Instructor        UGA Business School   Athens, GA     September 1977-
                                                        June 1978
 
Attorney-Advisor  U.S. International    Washington,    August 1978-April
                   Trade                 DC             l980
                  Commission
 
Attorney-Advisor  U.S. Dept. of State   Washington,    April 1980-
                                         DC             October 1981
 
International     U.S. Senate           Washington,    October 1981-June
 Trade Counsel     Committee             DC             1985
                  on Finance
 
Associate (1985-  Vinson & Elkins LLP   Washington,    July 1985-
 1989)                                   DC             February 2001
Partner (1990-
 2001)
 
Instructor        Georgetown Law        Washington,    January 1987-
                   Center                DC             December 1987
 
Senior Advisor    U.S. Dept. of         Washington,    February 2001-May
 to the            Commerce              DC             2001
 Secretary
 
General Counsel   U.S. Dept. of         Washington,    May 2001 to
                   Commerce              DC             present
------------------------------------------------------------------------

    10. Government experience: (list any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.) None.
    11. Business relationships: (List all positions held as an officer, 
director, trustee, partner, proprieto1, agent, representative, or 
consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.)

        Vinson & Elkins LLP--Partner (1990-2001)

        Ford's Theatre Society--Trustee (1998-2001)

        The Concord Hill School--Trustee (1995-2001)

        University of Georgia School of Law Board of Visitors (1999-
        2001)

    12. Memberships: (List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.)

        District of Columbia Bar

        Georgia Bar

        American Bar Association

        The Nature Conservancy

    13. Political affiliations and activities:

        (a) List all offices with a political party which you have held 
        or any public office for which you have been a candidate.
                None.

        (b) List all memberships and offices held in and services 
        rendered to all political parties or election committees during 
        the last 10 years.

                Bush-Cheney 2000 Presidential Campaign: Assisted policy 
                staff of campaign.

                Bush/Cheney Presidential Transition: Served as 
                coordinator of Commerce Department Transition Team.

                Dole for President Campaign 1996: Volunteer.

        (c) Itemize all political contributions to any individual, 
        campaign organization, political party, political action 
        committee, or similar entity of $500 or more for the past 10 
        years.

------------------------------------------------------------------------
                              Name                                Amount
------------------------------------------------------------------------
National Good Government Fund                                       $546
National Good Government Fund                                       $525
Vinson & Elkins Texas PAC                                           $911
Vinson &Elkins Texas PAC                                          $1,000
Vinson & Elkins Texas PAC                                         $2,304
Vinson & Elkins Texas PAC                                           $970
Vinson & Elkins Texas PAC                                         $1,100
Vinson & Elkins Texas PAC                                         $1,465
Vinson & Elkins Texas PAC                                         $1,803
Vinson & Elkins Texas PAC                                         $1,520
Vinson & Elkins Texas PAC                                         $1,668
Dole for President                                                $1,000
George W. Bush Presidential Campaign                              $1,000
Republican National Committee                                     $1,000
Bush-Cheney Recount Fund                                            $500
------------------------------------------------------------------------

    14. Honors and awards: (List all scholarships, fellowships, 
honorary degrees, honorary society memberships, military medals and any 
other special recognitions for outstanding service or achievements.)

        College Honorary: Gridiron Secret Society, Blue Key, Omicron 
        Delta Kappa, Senior Superlative. Skipped senior year of high 
        school to join University Honors Program.

        Awarded Law School scholarship.

    15. Published writings: (List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.)

  <bullet> ``Antidumping Duty Investigations,'' in Law and Practice of 
        United States International Trade Regulation, Oceana 
        Publications (1987, 1989, 1996 update with Rosemary E. Gwynn)

  <bullet> Basic Documents of International Economic Law (chapters on 
        the GATT Antidumping Code, Subsidies Code, Standards Code, and 
        Procurement Code), CCH International and Westlaw (1990)

  <bullet> ``The Trade Agenda of the 98th Congress,'' Federal Bar News 
        and Journal (1983)

  <bullet> ``Recombinant DNA and Technology Assessment,'' 11 Ga. L. 
        Rev. 785 (1978) (co-author with Benna Solomon)

    16. Speeches: Provide the Committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of on topics relevant to the position for which you have been 
nominated.
    Copies attached. (Not available at time of printing.)
    17. Selection:
    (a) Do you know why you were chosen for this nomination by the 
President?
    I believe President Bush determined that my skills and experience 
would enable me to perform successfully the responsibilities of Deputy 
Secretary.

    (b) What do you believe in your background or employment experience 
affirmatively qualifies you for this particular appointment?
    For the past three years, I have served first as Senior Advisor to 
Secretary Evans and then as General Counsel to the Department of 
Commerce. In those positions I have worked closely with Secretary 
Evans, Deputy Secretary Bodman, and other senior agency officials on 
matters involving every part of the Department's varied 
responsibilities. I have regularly represented the Department in inter-
agency activities, including policy-making committees operating at the 
most senior levels of government. I have also worked successfully with 
Members of Congress and Congressional staff on matters involving the 
Department. This experience, combined with my prior experience in law 
practice and government, provides me with both broad and deep knowledge 
of a wide range of the Department's programs as well as public policy 
issues that come before the Department. With respect to the management 
responsibilities of the Deputy Secretary, I have worked closely with 
senior Department officials on management and administrative issues 
over the past three years. In addition to managing the Office of the 
General Counsel, I also handled substantial administrative 
responsibilities for my former law firm, itself a large business 
enterprise. I thus believe I have acquired the skills and experience 
necessary to carry out the duties of the Deputy Secretary.
                   b. future employment relationships
    1. Will you sever all connections with your present employers, 
business firms, business associations, or business organizations if you 
are confirmed by the Senate?
    Yes, I did so upon entering government service in 2001. As noted 
below, I have maintained assets in a 401(k) pension plan sponsored by 
Vinson & Elkins LLP.
    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain. No.
    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business firm, association or 
organization? No.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? No.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable? Yes.
                   c. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers.
    I have maintained assets in a 401(k:) pension plan sponsored by 
Vinson & Elkins LLP, consistent with the plan's standard option and the 
practice of other former partners.
    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    I have addressed potential conflicts of interests in an Ethics 
Agreement into which I have entered with the Department of Commerce 
(copy attached).
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated?
    The Commerce Department's ethics officials, together with the 
Office of Government Ethics, have advised me of the possible conflicts 
of interest that might arise from my prior business arrangements and 
current investments. Implementation of the Ethics Agreement will 
resolve the potential conflicts that those officials identified. I am 
unaware of any other such potential conflict of interest.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public policy.
    During the course of my law practice prior to 2001, I regularly 
represented clients in a variety of administrative proceedings and in 
connection with matters pending before or involving consideration by 
Federal agencies, including the Departments of Commerce, Treasury, 
Defense, and State; the International Trade Commission; and the Office 
of the U.S. Trade Representative. These matters included, for example, 
antidumping and countervailing duty investigations; other trade law 
investigations; export licenses and investigations; economic sanctions 
regulations; and regulation of foreign investments. I also participated 
in several matters for which my firm or I registered as lobbyists, or 
that indirectly related to legislative or rulemaking matters. These 
included advocacy concerning customs user fees, the sale of the Naval 
Petroleum Reserves, economic sanctions legislation, imports of ammonium 
nitrate from Russia, and financial aid to Russia.
    From time to time in my capacity as General Counsel, I have 
represented the Department of Commerce in testimony before and 
discussions with Members of Congress and their staffs concerning 
pending legislation and other public policy matters.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.)
    I have worked with government ethics counsel to identify potential 
conflicts and to address appropriately those conflicts through the 
Ethics Agreement (copy attached). I have no trust or other agreements 
relevant to these matters. I will continue to act upon the advice of 
the Department's ethics counsel to avoid conflicts of interest that 
might arise, recusing myself from matters as appropriate.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of the Government Ethics concerning 
potential conflicts of interest or any legal impediments to your 
serving in this position? Yes.
                            d. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a complaint to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details. No.
    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation or ordinance, 
other than a minor traffic offense? If so, provide details. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in an administrative agency 
proceeding or civil litigation? If so, provide details.
    I have not been an officer of any business. None of the non-profit 
corporations for which I previously served as trustee were involved in 
such proceedings during my tenure, to my knowledge. During my time as a 
partner in Vinson & Elkins LLP, the firm was occasionally involved as a 
party in interest in civil litigations, but I was not personally 
involved or implicated in any such proceedings.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination. None.
                     e. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines set by congressional committees for information?
    Yes, within the bounds of my authority.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, to include technical experts and career employees with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Please explain how you will review regulations issued by your 
department/agency, and work closely with Congress, to ensure that such 
regulations comply with the spirit of the laws passed by Congress.
    I will instruct the General Counsel and the heads of agencies 
within the Department of Commerce to advise me of all regulations that 
are economically significant or relate to matters of controversy. 
Within the Department of Commerce, the General Counsel serves as 
Regulatory Policy Officer and overseer of the Department's regulatory 
activities. Having served as the General Counsel, I am well situated to 
work with the General Counsel to ensure that the rules issued by the 
Department of Commerce comply with both the spirit and letter of the 
laws passed by Congress.
    5. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                  f. general qualifications and views
    1. How have your previous professional experience and education 
qualifies you for the position for which you have been nominated?
    In my position as the General Counsel of the Department of 
Commerce, a position I have held for over three years, I have managed 
over 250 lawyers who are charged with providing legal advice to all 
agencies and bureaus within the Department. This position has provided 
me the unusual opportunity to acquire an in-depth knowledge of the 
programs and issues of all components of the Department. I have 
provided both legal and policy advice to Secretary Evans, Deputy 
Secretary Bodman, and to all the various Under Secretaries and 
Assistant Secretaries, and have extensive knowledge of all the bureaus 
within the Department, including the management challenges faced by 
each. I have traveled with Secretary Evans both domestically and 
internationally, have engaged in discussions with foreign government 
representatives and private sector leaders on a wide variety of topics, 
and have assisted in the development of policy on a myriad of sensitive 
issues before the Department. Further, before assuming the position of 
General Counsel, I practiced law for 16 years with a major 
international law firm. That experience exposed me to a wide variety of 
transactional and public policy matters, particularly involving 
international trade and other commercial matters. I believe these 
previous professional experiences qualify me to be Deputy Secretary of 
Commerce.
    2. Why do you wish to serve in the position for which you have been 
nominated?
    I continue to support the ideas and vision articulated by President 
Bush and Secretary Evans for promoting U.S. commercial interests, for 
creating the conditions in which the American economy thrives, and for 
exercising wise stewardship of our Nation's natural resources. I wish 
to contribute to the success of the Department's mission by continuing 
to contribute the knowledge and experience I have gained to public 
service.
    3. What goals have you established for your first two years in this 
position, if confirmed?

  <bullet> Assist Secretary Evans to achieve the goals that he sets.

  <bullet> Continue the great strides made under former Deputy 
        Secretary Bodman in focusing attention on improving work place 
        safety and emergency operations plans.

  <bullet> Implement the President's Manufacturing Initiative.

  <bullet> Formulate the budget for Fiscal Year 2006, and work to 
        obtain enactment of the Fiscal Year 2005 budget.

  <bullet> Ensure prompt and effective implementation of the 
        reorganization plan for the International Trade Administration, 
        especially with respect to the new Assistant Secretary for 
        Manufacturing and Services.

  <bullet> Evaluate the forthcoming recommendations of the Oceans 
        Commission and initiate appropriate action on those 
        recommendations.

  <bullet> Continue progress in deploying information technologies to 
        improve internal Departmental operations and especially to 
        facilitate public participation in agency rulemaking and grant 
        issuance processes.

    4. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills?
    I believe that I generally possess the experience and skills that 
are necessary to carry out the responsibilities of the Deputy 
Secretary. I expect nevertheless to learn much from both my colleagues 
among the Department's personnel as well as other Deputy Secretaries 
throughout the Executive Branch. I expect to seek their advice and 
counsel, and I believe they will be helpful to me in learning my new 
job.
    5. Please discuss your philosophical views on the role of 
government. Include a discussion of when you believe the government 
should involve itself in the private sector, when should society's 
problems be left to the private sector, and what standards should be 
used to determine when a government program is no longer necessary.
    The Federal Government is entrusted with defending the national 
security and promoting economic security, conducting international 
trade and other diplomatic relations with foreign states, defending 
individual liberty including rights granted under the Constitution and 
Federal laws, and working with state and local governments and the 
private sector to provide for the common welfare, including wise 
stewardship of the Nation's natural resources. The government has an 
important role to play in working with the private sector where 
necessary to ensure competitive opportunity, to promote free 
enterprise, and to protect public health, safety, and the environment. 
Government programs should be established and continually evaluated 
based on need, cost effectiveness, and alternative means of 
accomplishing the same ends.
    6. Describe the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated.
    The Department of Commerce has a continuing commitment to creating 
conditions for both economic growth and employment opportunity by 
promoting innovation, entrepreneurship and competitiveness, and by 
serving as responsible stewards of our Nation's natural resources. The 
Commerce Department's major programs focus on its partnership with 
American businesses in maintaining a prosperous and productive America. 
The Department will continue to maintain its record of innovation in 
manufacturing, communications, and measurement that has helped sustain 
U.S. leadership in the international marketplace.
    7. What do you believe to be the top three challenges facing the 
department/agency and why?
    Three top challenges will be: (1) effecting continual improvement 
in the effectiveness and efficiency of the Department's programs in a 
time of constrained budgetary resources; (2) adapting the Department's 
programs and policy initiatives to address effectively current 
challenges posed by the international competitive environment, so that 
U.S. businesses and workers will continue to succeed; and (3) 
furthering oceans research and effective management of our marine 
environment backed by public consensus.
    The reasons why these three challenges are particularly important 
include, respectively:

    (1) Prosecuting the war on terror and providing adequately for the 
national defense and homeland security will require hard budgetary 
choices and particularly close attention to management of available 
funds over the next few years.

    (2) Negotiating and implementing effective trade agreements will 
continue to form a key part of maintaining U.S. export competitiveness. 
At the same time, the government can undertake numerous steps at home 
to ensure that U.S. workers and businesses remain the world's most 
productive and innovative. The Department has begun to reorganize to 
meet these challenges more effectively, but seeking continuous 
improvement in its own operations will be essential to meeting the 
needs of today's economy.

    (3) The forthcoming report of the Oceans Commission should provide 
new focus to what we know--and do not know about the oceans, including 
competition for uses of our coastal zones and marine resources. Few 
subjects are as important or contentious, and a critical task of the 
Department in the coming years will be to develop our knowledge of 
these issues and collaborative approaches to effective resource 
management. For example, the Department has made great strides in the 
past three years to move regulation of marine fisheries away from 
litigation into more positive, community-accepted, ecosystem-based 
management approaches, with tangible success. Nevertheless, pressures 
on fishing stocks arising from various natural and human sources 
require continued focus on scientific research, public outreach, and 
innovative solutions this critical aspect of our oceans resources is to 
be managed in a sustainable manner that meets the needs of diverse 
stakeholders.
    8. In reference to question number six, what factors in your 
opinion have kept the department/agency from achieving its missions 
over the past several years?
    The Department continually makes progress in pursuit of its 
missions, and by definition those missions are never completed. 
Individual programs within the agency face particular challenges, 
however. For example, the expiration of the Export Administration Act 
requires the Bureau of Industry and Security to operate under emergency 
authority while seeking new authorizing legislation. Expired and 
sometimes outdated statutory authorizations in other areas similarly 
inhibit optimal implementation of agency programs. Although the 
Department has made much progress over the past three years in reducing 
litigation, the National Marine Fisheries Service remains the target of 
recurrent legal challenges, sometimes resulting in conflicting judicial 
mandates.
    9. Who are the stakeholders in the work of this agency?
    The Commerce Department's mission and programs are directed to the 
benefit of all Americans. As a Department first established in 1903 
with broad authority to foster, to promote, and to develop the foreign 
and domestic commerce and the manufacturing and fishery industries of 
the United States, we work with a broad spectrum of commercial 
interests in a wide variety of contexts. We also have important 
responsibilities in connection with the census, environmental 
stewardship, and economic development, and work closely with the States 
and local governments on these and a host of other issues.
    10. What is the proper relationship between your position, if 
confirmed, and the stakeholders identified in question number nine?
    The Deputy Secretary is a public servant with the special 
responsibility of ensuring that the Department's programs are carried 
out and managed in a manner that provides the greatest benefits to the 
American public. This responsibility requires a relationship with the 
various stakeholders that always keeps the public interest as the 
primary guidepost.
    11. The Chief Financial Officers Act requires all government 
departments and agencies to develop sound financial management 
practices.
    (a) What do you believe are your responsibilities, if confirmed, to 
ensure that your agency has proper management and accounting controls?
    If I am confirmed as Deputy Secretary, it will be my ultimate 
responsibility on behalf of Secretary Evans to ensure that the 
Department's program managers have instituted robust management and 
accounting controls and to hold each manager accountable for his or her 
performance.

    (b) What experience do you have in managing a large organization?
    Prior to arriving at the Commerce Department in 2001, I was a 
partner in Vinson & Elkins LLP, a large, multinational law firm with 
over 700 lawyers and annual revenues exceeding $300 million. I chaired 
and participated in numerous management-related committees; carried out 
various individual assignments related to strategic analysis and 
planning; and supervised various lawyers and other personnel in the 
provision of legal services to clients.
    As General Counsel of the Commerce Department since 2001, I have 
administered a budget of approximately $30 million and managed over 250 
lawyers and 12 office heads covering the diverse legal disciplines 
involved in Commerce programs. I have also regularly participated in 
personnel, budgetary, and other management decisions involving the 
entire Department, working closely with the Secretary, Deputy 
Secretary, and Chief Financial Officer in that regard.
    12. The Government Performance and Results Act requires all 
government departments and agencies to identify measurable performance 
goals and to report to Congress on their success in achieving these 
goals.
    (a) What benefits, if any, do you see in identifying performance 
goals and reporting on your progress in achieving those goals?
    Identifying performance goals and reporting on the progress in 
achieving them ensures that public resources are devoted to 
appropriate, meaningful ends, with accountability for the outcome. At a 
time when the potential demand for budget resources often exceeds what 
is available, it is critical that we measure the performance of 
agencies to ensure that they are accomplishing their goals and that 
continued funding of their programs represents the best use of scarce 
Federal funds.

    (b) What steps could Congress consider taking when an agency fails 
to achieve its performance goals? Should these steps include the 
elimination, privatization, downsizing or consolidation of departments 
and/or programs?
    The steps should respond to the reasons why the agency has failed 
to achieve its goals. If experience shows that a particular program is 
no longer worthwhile or its purpose simply cannot be achieved in a 
cost-effective manner, then elimination or restructuring of the 
programs may well be warranted. In other cases, Departmental managers 
working in cooperation with auditors from the Office of the Inspector 
General may be able to devise less radical measures to raise the 
performance of a worthwhile program to an acceptable level.

    (c) What performance goals do you believe should be applicable to 
your personal performance, if confirmed?
    The Deputy Secretary's performance should be measured by the 
success of the Department in managing its resources in a way that 
provides the best opportunity for the Department to carry out its 
mission.
    13. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you?
    I believe in leading by example, and by encouraging employees to 
seek satisfaction in their jobs through learning and accepting 
responsibility for serving others well. I am unaware of any employee 
complaint ever having been brought against me.
    14. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with committees of 
Congress? If yes, please describe.
    Having spent four years on the staff of the Senate Finance 
Committee, I have an especially deep respect for the responsibilities 
of Members of Congress. I expect to have a professional working 
relationship with Congress that is expressed through regular, two way 
communication, backed by mutual desire to assist both the Members and 
the Department to fulfill their respective duties. During my tenure as 
General Counsel, I have made every effort to be responsive to requests 
from Members of Congress and their staff.
    15. Please explain what you believe to be the proper relationship 
between yourself, if confirmed, and the Inspector General of your 
department/agency.
    The Inspector General performs an invaluable service in helping to 
protect the American public's interests and investments in the 
Department of Commerce. He possesses an autonomous set of ``eyes and 
ears'' within Commerce, and I intend to listen carefully to his advice 
about what Commerce needs to do to detect and to prevent fraud, waste 
and abuse. As Deputy Secretary, if confirmed, I would also listen 
closely to his recommendations about what we need to do to promote 
economy, efficiency and effectiveness in the operations of the 
Department.
    16. In the areas under the department/agency's jurisdiction, what 
legislative action(s) should Congress consider as priorities? Please 
state your personal views.
    In addition to providing appropriations for the Department by the 
end of the Fiscal Year, I would urge Congress to reauthorize the 
Economic Development Administration and to renew the Export 
Administration Act, and to approve new fee legislation for the Patent 
and Trademark Office.
    17. Within your area of control, will you pledge to develop and 
implement a system that allocates discretionary spending in an open 
manner through a set affair and objective established criteria? If yes, 
please state what steps you intend to take and a time frame for their 
implementation. If not, please explain why.
    Yes. It is my impression that virtually all policy officials within 
the Department already allocate discretionary funding guided by fair 
and objective, established criteria, such as are published in notices 
of funding availability for grants. Over the past year the Department 
has worked to improve the grants award process with measurable success, 
and I will continue to support such efforts, including expansion of the 
eGrant program that permits applicants to submit much of their 
paperwork online.

    The Chairman. Thank you, Mr. Kassinger.
    Ms. Hersman?

 STATEMENT OF DEBORAH A. P. HERSMAN, NOMINATED TO BE A MEMBER, 
              NATIONAL TRANSPORTATION SAFETY BOARD

    Ms. Hersman. Mr. Chairman, Senator Breaux, the rest of the 
Members of the Committee, I'd like to begin by thanking you for 
your support of my nomination. It's a special privilege for me 
to be sitting on this side of the table--and, if I might add, a 
little bit scary--after serving the Committee for 5 years.
    It's an honor to have the support of Senator Daschle and to 
have been nominated by President Bush. I'll do my best to 
ensure that the National Transportation Safety Board continues 
making transportation safer by learning lessons from every 
accident that they investigate.
    The NTSB has enjoyed bipartisan support because of their 
independence, the quality and dedication of their staff, and 
the important contributions that they have made to the 
transportation system in this country and around the world. 
NTSB recommendations resulted in escape lighting in aircraft 
cabins, improved school-bus construction, child safety seats in 
automobiles, railroad passenger-car safety improvements, and 
fire-resistant materials in aircraft cabins. The tireless work 
of the investigators in often difficult conditions has resulted 
in recommendations that have ultimately saved thousands of 
lives. I look forward to advancing transportation safety if I 
am confirmed.
    I'd like to say a few words of thanks to my family and 
friends. Without their support, I would not be here before you 
today. Thank you for allowing me to introduce them earlier, 
Senator McCain.
    I thought I might mention that my dad is a retired Air 
Force general. He was a test pilot and a fighter pilot, and my 
love for transportation surely began with him, as I soloed in a 
single-engine Piper before I had a driver's license.
    My husband, Neil, is the very best thing in my life. He's 
my high school sweetheart, and he's a great dad. Often, he has 
to do the evening routine with the boys alone, since I'm not 
home for dinner most nights. He has always been supportive of 
me, and my love for him grows every day.
    And now for my work family. I've enjoyed every day of my 12 
years as a Congressional staffer. I spent 7 years working in 
the House for Congressman Bob Wise, of West Virginia, before 
coming to the Senate.
    Working for this Committee has truly been an honor. Senator 
McCain and Senator Hollings have shared the title of Chairman 
over the last few years; and, through their leadership, I 
believe that this Committee is one of the best and most 
respected in the Congress, with the finest staff, I might add.
    [Laughter.]
    Ms. Hersman. I have been----
    The Chairman. Which is the reason for it all.
    [Laughter.]
    Ms. Hersman. But, seriously, I have been so fortunate to be 
in the presence of titans on a regular basis. Among your ranks 
are war heroes, Presidential candidates, great negotiators, 
astronauts, Governors, women breaking through glass ceilings, 
and even a few comedians and cowboys.
    [Laughter.]
    Ms. Hersman. My time here has been an absolute education. 
My experience has altered my understanding of governance and 
politics; but, more than anything, it has shaped my concept of 
political courage and leadership.
    I'd like to say a few words of thanks to Senator Hollings 
for the opportunity to serve as a staffer on this Committee. He 
always challenged me to think through issues to ensure that all 
sides were understood, and to make decisions that are fair and 
right, regardless of the consequences. While his tenure in the 
Senate is coming to an end, it's up to all of us that have 
worked for him to remember his lessons, to share his vision, 
and, when the time comes, to have the courage that is his 
trademark.
    I also want to thank the rest of the Committee Members and 
their staffs for the kindness and respect you're showed me over 
the years. In particular, Senator Inouye and Senator Breaux and 
their personal offices have treated me as one of their own. 
Senator Inouye, I would say, ``mahalo.'' And to Senator Breaux, 
``laissez les bon temps rouler.''
    [Laughter.]
    Ms. Hersman. My friends and colleagues attending this 
hearing, both in front of the table and behind me, have been 
such a large part of my life for the last 12 years. My time 
here will no doubt be the highlight of my career. I'm deeply 
grateful to each of you for your professionalism and your 
dedication to doing the right thing, but, more importantly, for 
your friendship. I will always proudly consider myself a member 
of the Senate Commerce Committee family.
    Thank you.
    [The prepared statement and biographical information of Ms. 
Hersman follow:]

     Prepared Statement of Deborah A.P. Hersman, Member Designate, 
                  National Transportation Safety Board
    Mr. Chairman, Senator Hollings, I would like to begin by thanking 
you and the members of this Committee for your support of my 
nomination. It is a special privilege for me to be sitting on this side 
of the table after serving the Committee for five years. It is an honor 
to have the support of Senator Daschle and to have been nominated by 
President Bush. I will do my best to ensure that the National 
Transportation Safety Board continues making the transportation system 
safer by learning lessons from every accident they investigate.
    The NTSB has enjoyed bipartisan support because of their 
independence, the quality and dedication of their staff, and the 
important contributions they have made to the transportation system in 
this country and around the world. NTSB recommendations have resulted 
in floor level safety escape lighting in aircraft cabins, improved 
school bus construction, child safety seats in automobiles, railroad 
passenger car safety improvements, and fire resistant materials in 
aircraft cabins. The tireless work of the investigators in difficult 
conditions has resulted in recommendations that have ultimately saved 
thousands of lives.
    Transportation continues to be a keystone to the success and the 
growth of our Nation. The Department of Transportation projects 
tremendous growth in all areas of transportation The growth in 
enplanements is projected to grow an average of 3.6 percent annually 
during the next 12 years, with the number of large carrier domestic 
enplanements reaching 738.4 million in 2015. The general aviation 
active fleet is expected to grow by 35,000 aircraft in the next 15 
years. Domestic tonnage of freight carried by all U.S. freight systems 
will increase by 67 percent while international trade will nearly 
double. Highway traffic will see increased users as the population 
grows and heavier trucks will travel greater distances; railroad 
mileage will double in the same time period and ocean-going vessel 
tonnage will increase by 30 percent.
    The exponential growth of traffic on all modes is important to our 
Nation's economy, but safety must continue to be paramount to effective 
utilization of the transportation system. The demands on capacity 
facing our transportation system means a greater demand on the 
resources of the Board as accidents become more complex and technical 
in nature. For over 35 years, the work of the Board has made the 
Nation's transportation system safer, but the impact of important 
improvements in transportation safety also benefits the Nation's 
economic health and the quality of life of all of our citizens.
    I am very excited about the new opportunities ahead of me. The 
chance to continue my public service in the field of transportation is 
a gift. My work writing transportation legislation has been incredibly 
rewarding, and I look forward to continuing to advance transportation 
safety through the complimentary work of the Board.
    I would like to say a few words of thanks to my family and friends, 
without their support I would not be here before you today. My father, 
Walt Hersman, and his wife, Inge, are here today. Dad is a retired Air 
Force General, he was a test pilot and fighter pilot, and his career 
afforded me the rare opportunity to grow up around the globe. My love 
for transportation surely began with him, as I soloed in a twin engine 
Piper at the age of 16, before I even had a driver's license. My 
sister, Val, is my best friend, and she and her husband, Carey, are the 
two people in this world that I can always count on. My husband's 
family is here today as well. I couldn't have been more blessed than to 
marry into the Plummer family, they are incredible people. My husband 
Niel, is surely the very best thing in my life. He is my high school 
sweetheart and every day I thank my lucky stars that we found each 
other. We have two boys, Taylor and Wilson, and he is a great dad, 
especially since I am not home for dinner many nights. He has always 
been supportive of me and my love and respect for him grow every day.
    Now, for my work family, I have enjoyed every day of my 12 years as 
a Congressional staffer. I spent 7 great years working for Bob Wise of 
West Virginia, he is a fine man and one of the most dedicated public 
officials I have had the privilege of working with. I learned much from 
him and my formative political years were spent studying his example.
    Working for this Committee has truly been an honor. I believe that 
this is one of the best and most respected Committees in Congress, and 
with the finest staff. I have been fortunate to be in the presence of 
titans on a regular basis. Whether it is has been high profile national 
policy issues or parliamentary process, my time here has been an 
absolute education. My experience has altered my understanding of 
governance and politics, but more than anything, it has shaped my 
concept of political courage and leadership.
    Senator Hollings, I would like to thank you for the opportunity to 
work for you on the Committee. You have always challenged me to think 
through issues to ensure that all sides are understood, and to make 
decisions that are fair and right, regardless of the consequences. 
While your tenure in the Senate is coming to an end, it is up all of us 
that have worked for you, to remember your lessons, share your vision, 
and, when the time comes, have the courage that is your trademark.
    I also want to thank the rest of the Committee members and their 
staffs for all of the kindness and respect you have shown me over the 
years. In particular, Senator Inouye and Senator Breaux and their 
personal offices have treated me as one of their own--``mahalo'' and 
``laissez les bon temps rouler'' respectively. Laysay le bon ton roulay
    My friends and colleagues in front of me and behind me have been 
such a large part of my life for the last 12 years. My time here will 
no doubt be the highlight of my career. I'm deeply grateful to each of 
you for your professionalism and your dedication to doing the right 
thing, but most importantly, for your friendship and for allowing me to 
be a part of your lives. I will always proudly consider myself a member 
of the Senate Commerce Committee family.
    Thank you.
                                 ______
                                 
                      a. biographical information
    1. Name: (include any former names or nick names used.) Deborah 
Anne Plummer Hersman (Debbie).
    2. Position to which nominated: National Transportation Safety 
Board.
    3. Date of nomination: March 2, 2004.
    4. Address: (List current place of residence and office addresses.)

        Residence: Information not released to the public.

        Office: 516 Dirksen Senate Office Building, Washington, DC 
        20510.

    5. Date and place of birth: 05/07/1970; Edwards Air Force Base, 
California.
    6. Marital status: (include maiden name of wife or husband's name.)
    Married to Philip Niel Plummer.
    7. Names and ages of children: (Include stepchildren and children 
from previous marriages.)
    Taylor Niel Plummer, 3\1/2\, and Wilson Stephen Plummer, 1\1/2\
    8. Education:
    Secondary: Graduated in 1988 from Chantilly High School, Chantilly, 
Virginia; Graduated from Virginia Tech, Blacksburg, VA, B.A. in 
Political Science 1992 and B.A. in International Studies 1992;Graduated 
from George Mason University, Fairfax, VA, M.S. in Conflict Analysis 
and Resolution 1999.
    9. Employment record: (List all jobs held since college, including 
the title or description of job, name of employer, location of work, 
and dates, of employment.)

        D.C. Staff Director (1995 to 1999), Legislative Aide/Office 
        Manager (July 1993-1995), Legislative Correspondent (Dec. 1992 
        to July 1993), Scheduler (Aug. to Dec. 1992); Congressman Bob 
        Wise (D-WV), U.S. House of Representatives, 2167 Rayburn House 
        Office Building, Washington, DC 20515.

        Senior Democratic Professional Staff, U.S. Senate, Committee on 
        Commerce, Science and Transportation, 516 Dirksen Senate Office 
        Building, Washington, DC 20510, 1999 to present.

    10. Government experience:(List any advisory, consultative, 
honorary or other part-time, service or positions with Federal, State, 
or local governments, other than those listed above.)
    Area Plans Review Task Force, Fairfax County, Virginia 2002 
(appointed to a citizen panel to review local planning and zoning 
applications and changes to the county comprehensive plan)
    11. Business relationships: (List all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.) None.
    12. Memberships: (List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.)

        College: Alpha Delta Pi Sorority, various positions; National 
        Residence Hall Honorary; Omnicron Delta Theta, National 
        Leadership Honorary; Phi Alpha Delta (pre-law fraternity), Vice 
        President.

        Current: President, Southpointe Homeowners Association, Lorton, 
        Virginia.

    13. Political affiliations and activities:

        (a) List all offices with a political party which you have held 
        or any public office for which you have been a candidate.
                None

        (b) List all memberships and offices held in and services 
        rendered to all political parties or election committees during 
        the last 10 years.

                Supported the election of Robert E. Wise to become 
                Governor of West Virginia by hosting a fundraiser.

        (c) Itemize all political contributions to any individual, 
        campaign organization, political party, political action 
        committee, or similar entity of $500 or more for the past 10 
        years.
                None.

    14. Honors and awards:(List all scholarships, fellowships, honorary 
degrees, honorary society memberships, military medals. and any other 
special recognitions for outstanding service or achievements.) None.
    15. Published writings: (List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.) None.
    16. Speeches: Provide the Committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of on topics relevant to the position for which you have been 
nominated.
    None available. In the last 5 years, I have participated on panels 
or given speeches to various transportation groups. Such presentations 
have focused on a wide range of topics, from transportation safety to 
passenger and freight transportation policy. It has been my practice 
not to speak from a formal, typed text.
    17. Selection:

    (a) Do you know why you were selected for the position to which you 
have been nominated by the President?
    I believe I was chosen because of my experience in the areas of 
transportation policy and safety. For over 10 years, I have been 
involved in the regulation and oversight of the Nation's transportation 
industries. In particular, I have been involved in drafting 
transportation safety legislation for surface modes, including the 
following laws: the Motor Carrier Safety Improvement Act of 1999 (P.L. 
106-159) that created a new truck safety administration within the 
Department of Transportation, the Pipeline Safety Improvement Act of 
2002 (P.L. 107-355), and the Transportation Equity Act of the 21st 
Century (P.L. 105-178)

    (b) What in your background or employment experience do you believe 
affirmatively qualifies you for this particular appointment?
    Again, in addition to my experience in the areas of transportation 
safety and policy, I believe that my experience as a Congressional 
staffer affirmatively qualifies me for this appointment because I have 
worked with the staff and members of NTSB and the Department of 
Transportation for a number of years. I also understand how the work 
that the NTSB performs impacts the legislative process as well as the 
regulatory process and in turn how that improves the safety of our 
transportation system. Finally, as a public servant, I understand the 
importance of involving stakeholders in the process, having complete 
and factual information, and communicating with the public.
                   b. future employment relationships
    1. Will you sever all connections with your present employers, 
business firms, business associations, or business organizations if you 
are confirmed by the Senate? Yes.
    2. Do you have any plans, commitments, or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, please explain. No.
    3. Do you have any plans, commitments, or agreements after 
completing government service to resume employment, affiliation, or 
practice with your previous employer, business firm, association, or 
organization? No.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? No.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable? Yes.
                   c. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. None.
    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    My husband is employed by Lockheed Martin. If Lockheed Martin is a 
party to an accident investigation, I have agreed to recuse myself. 
(See attached letter to William C. Love, Designated Agency Ethics 
Official, NTSB.)
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent; that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated. None.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    I have been actively involved in the legislative process over the 
last 10 years as a condition of my employment with the Senate Commerce 
Committee from 1999 to present, and as a staffer for Rep. Robert E. 
Wise from 1992-1999.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.)
    See attached letter to William C. Love, Designated Agency Ethics 
Official, NTSB.
    6. Do you agree to. have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position? Yes.
                            d. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain. No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation, or ordinance, 
other than for a minor traffic offense? If so, please explain. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain. No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain. No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination.
    To the best of my knowledge, there is no further information that 
should be disclosed in connection with my nomination.
                     e. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees?
    Yes, to the best of my abilities.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for: their testimony and disclosures?
    Yes, to the best of my abilities.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee?
    Yes, to the best of my abilities.
    4. Please explain how if confirmed, you will review regulations 
issued by your department/agency, and work closely with Congress, to 
ensure that such regulations comply--with the spirit of the laws passed 
by Congress.
    The NTSB does not regulate transportation equipment, personnel, or 
operations, and the rules it issues are primarily procedural. If any 
concerns are raised by the Congress regarding NTSB's compliance with 
the spirit of laws passed by Congress, I will, if confirmed, work with 
my colleagues at the Board to address those concerns.
    5. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                  f. general qualifications and views
    1. How does your previous professional experiences and education 
qualify you for the position for which you have been nominated?
    For over ten years, I have worked in the field of transportation 
legislation. My jobs, and in particular, my current position, have 
provided me a unique opportunity to focus on transportation safety 
matters. I have worked with all parties expressing an interest in 
safety legislation, including industry, labor, safety advocates, 
Department of Transportation officials, safety experts, and the members 
and staff of the National Transportation Safety Board (NTSB). This 
exposure to the substance of the issues as well as an understanding of 
the responsibilities and the effectiveness of the NTSB have provided an 
excellent foundation to build on should 1 be confirmed to the position 
for which I have been nominated.
    2. Why do you wish to serve in the position for which you have been 
nominated?
    I wish to continue my chosen career in public service and work in 
the field of transportation safety.
    3. What goals have you established for your first two years in this 
position, if confirmed?
    My goals for my first two years in this position, if confirmed, 
are: (1) to serve the agency and taxpayers well by being accessible and 
providing accurate and timely information to the public, and (2) to 
identify any areas that may produce safety benefits but have been 
neglected due to lack of resources, interest, or time and work to 
address those safety areas.
    4. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills?
    Most of my experience has been focused in the field of surface 
transportation safety. Although I have been involved in aviation 
matters, I would like to acquire a greater understanding of the 
aviation safety issues facing the NTSB. If confirmed, I will work with 
the staff at the NTSB, the Congress, and outside experts to become more 
familiar with the relevant aviation issues.
    5. Please discuss your philosophical views on the role of 
government. Include a discussion of when you believe the government 
should involve itself in the private sector, when society's problems 
should be left to the private sector, and what standards should be used 
to determine when a government program is no longer necessary.
    The government fills a critical role in our society by setting 
standards. With respect to transportation safety and the private 
sector, the government's role is to establish a safety net for the 
public. Without Federal involvement there would likely be wide swings 
in the levels of safety from one company to another that may not be 
discovered until an accident occurs. Through the legislative process, 
recommendations by the NTSB, public education, and other efforts, the 
transportation system becomes safer every year. Regarding the standards 
that should be used to determine when a government program is no longer 
necessary, I believe that common sense and feedback from the public, 
including the affected parties and Congress, would serve as good 
indications of the relevance of any federal initiative.
    6. Describe the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated.
    I understand the mission and major operational objectives of the 
NTSB to be the following: (1) to investigate and identify the probable 
cause(s) of transportation accidents, (2) to make recommendations to 
improve the safety of the transportation system, and (3) to serve as 
the ``court of appeals'' for any airman, mechanic, or mariner when 
certificate action is taken by the Federal Aviation Administration 
(FAA) or the Commandant of the United States Coast Guard, when certain 
civil penalties are assessed by the FAA.
    7. What do you believe to be the top three challenges facing the 
department/agency and why?
    I believe the top three challenges facing the NTSB are: (1) timely 
completion of accident investigations due to resource constraints, (2) 
maintaining a quality workforce as the experienced, qualified 
individuals retire; and (3) having an impact on the safety culture of 
the transportation industry despite having no substantive regulatory 
authority.
    8. In reference to question number six, what factors in your 
opinion have kept the department/agency from achieving its missions 
over the past several years?
    In my opinion the NTSB has generally achieved its goals. However 
per my response in question seven, the timely completion of accident 
investigation reports is critical. If more than two years have elapsed 
between the accident and the report, the delay may serve as a 
distraction from the quality of the work and the implementation of any 
pertinent safety recommendations pending the outcome of the formal 
findings.
    9. Who are the stakeholders in the work of this department/agency?
    The public, the transportation industry and its employees, federal 
and state agencies, standard setting organizations, and the Congress.
    10. What is the proper relationship between the position to which 
you have been nominated, and the stakeholders identified in question 
number nine?
    An open, honest, but yet an unbiased relationship is appropriate 
between the stakeholders and the position to which I have been 
nominated.
    11. The Chief Financial Officers Act requires all government 
departments and agencies to develop sound financial management 
practices.

    (a) What do you believe are your responsibilities, if confirmed, to 
ensure that your department/agency has proper management and accounting 
controls?
    It is my understanding that the Chairman is the chief executive and 
administrative officer of the NTSB. To the extent that I will have 
responsibility for financial management practices, I will seek to 
ensure the accuracy, integrity, and accountability of the NTSB's 
financial system(s).

    (b) What experience do you have in managing a large organization?
    I do not have experience managing an organization the size of the 
NTSB. However I managed the budget and staff of Representative Wise's 
office for four years. To the best of my knowledge, during that time, 
all accounts were handled in a timely manner and all year-end office 
and mail budgets were closed within their established allotments. 
Systems of accountability were established for employees and 
evaluations of staff were completed twice a year.
    12. The Government Performance and Results Act requires all 
government departments and agencies to identify measurable performance 
goals and to report to Congress on their success in achieving these 
goals.

    (a) What benefits, if any, do you see in identifying performance 
goals and reporting on progress in achieving those goals?
    It allows the reporting organization to conduct a self-assessment. 
It also allows the Congress and other interested organizations to 
evaluate the appropriateness of the performance goals that have been 
set and the success in achieving these goals.

    (b) What steps should Congress consider taking when a department/
agency fails to achieve its performance goals? Should these steps 
include the elimination, privatization, downsizing, or consolidation of 
departments and/or programs?
    The steps that Congress should take with respect to the failure to 
achieve the performance goals should be commensurate with the scope and 
the causes of such failure.

    (c) What performance goals do you believe should be applicable to 
your personal performance, if confirmed?
    If confirmed, my personal performance should be measured by my 
integrity, capability, and contribution to the safety mission of the 
NTSB.
    13. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you?
    My philosophy of supervisor/employee relationships is to hire 
talented people, let them know what is expected and make myself 
available and accessible. If problems arise, I try to identify them 
immediately and communicate expectations. I know of no employee 
complaints brought against me.
    14. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with committees of 
Congress? If yes, please explain.
    I believe my relationship with the Congress is good. I have spent 
my professional career working in a bipartisan manner with the Members 
and staff of the House and Senate on transportation safety matters.
    15. Please explain what you believe to be the proper relationship 
between yourself; if confirmed, and the Inspector General of your 
department/agency.
    I understand that the NTSB does not have its own IG, but often 
interacts with the Department of Transportation Inspector General's 
office. I expect my relationship, if confirmed, with the DOT IG and his 
staff to be honest and open.
    16. In the areas under the department/agency's jurisdiction to 
which you have been nominated, what legislative action(s) should 
Congress consider as priorities? Please state your personal views.
    The NTSB has established a most wanted list of their top safety 
recommendations. I would recommend that the Congress continue to 
consider those recommendations as priorities for legislative oversight.
    17. Within your area of control, will you pledge to develop and 
implement a system that allocates discretionary spending in an open 
manner through a set of fair and objective established criteria? If 
yes, please explain what steps you intend to take and a time frame for 
their implementation. If not, please explain why.
    Yes. Although I am familiar with the general expenditures of the 
NTSB, it is my understanding that most of the spending is for staff 
salaries and travel costs. I am not familiar with the specific 
financial obligations of the NTSB, but will work to comply with the 
intent of the Committee's question.
                               Attachment
                           Deborah A. Hersman
                                                     March 12, 2004
William C. Love,
Designated Agency Ethics Official,
National Transportation Safety Board,
Washington, DC.

Dear Mr. Love:

    The purpose of this letter is to describe the steps that I will 
take to avoid any actual or apparent conflict of interest in the event 
that I am confirmed for the position of Member of the National 
Transportation Safety Board (NTSB).
    As required by 18 U.S.C. Sec. 208(a), I will not participate 
personally and substantially in any particular matter that has a direct 
and predictable effect on my financial interests or those of any other 
person whose interests ore imputed to me, unless I first obtain a 
written waiver, pursuant to section 18 U.S.C. Sec. 208(b)(1),or qualify 
for a regulatory exemption, pursuant to section 18 U.S.C. 
Sec. 208(b)(2). I understand that the interests of my spouse; minor 
children; any general partner of mine; any organization in which I 
serve as officer, director, trustee, general partner or employee; and 
any person or organization with which I am negotiating or hove an 
arrangement concerning prospective employment are imputed to me.
    My spouse is an employee of Lockheed Martin (Lockheed). He works as 
a systems engineer for the Lockheed web technology group that provides 
system development and operational maintenance support by which 
Lockheed satisfies the worldwide imagery requirements of. its 
governmental and nongovernmental customers. He does not work with 
commercial or civil aeronautics. Through his employment, my spouse has 
a financial interest in Lockheed, which includes Lockheed stock in his 
401(k) retirement investment account. My spouse's financial interest in 
Lockheed, for conflict of interest purposes, is imputed to me.
    While Lockheed is known as a manufacturer of aeronautical equipment 
and systems, the equipment and systems ore largely employed in aircraft 
and aviation equipment operated in military, not commercial, civil 
aviation applications. However, divisions or offices of Lockheed, in 
which my spouse is not employed, work with and provide systems and 
equipment that may be employed in civil/public transportation. Although 
not a complete categorization or itemization of its products and 
services, Lockheed, for example, works with: (1) air traffic control 
and management systems; (2) air traffic management and air terminal 
management systems; (3) air traffic radar systems; and (4) weather 
sensor programs for the Federal Aviation Administration and a range of 
foreign and local facilities. Lockheed also provides, through its 
aircraft and logistic centers, aircraft maintenance, modification and 
upgrades for military aircraft and limited work with commercial 
aircraft. With regard to other modes of transportation, the Lockheed 
rail systems division is developing positive train control systems' 
technology intended for use in passenger and freight trains while 
another Lockheed division provides marine vessel traffic management 
systems.
    Accordingly, so long as my spouse retains ownership of stock in 
Lockheed, as required by 18 U.S.C. Sec. 208(a), I will not participate 
personally and substantially in a particular matter that will have a 
direct and predictable effect on Lockheed unless I first obtain a 
written waiver. pursuant to section 18 U.S.C.  Sec. 208(b)(1), or 
qualify for a regulatory exemption, pursuant to 18 U.S.C. 
Sec. 208(b)(2). In the event my spouse divests his stock in Lockheed 
but continues to be an employee of Lockheed, pursuant to C.F.R. 
Sec. 2635.502, I will not participate in any particular matter before 
the Board involving specific parties in which Lockheed is or represents 
a party, unless I am authorized to participate.
            Sincerely,
                                        Deborah A. Hersman.

    The Chairman. Thank you very much, Ms. Hersman. I share 
your admiration and appreciation for Senator Hollings, who has 
really done a magnificent job, and I know the people of South 
Carolina, as well as around the nation, are very grateful for 
his service. We'll miss him very much.
    Commissioner Moore? And would you pull the microphone close 
to you so that the stenographer----

               STATEMENT OF HON. THOMAS H. MOORE,

                NOMINATED TO BE A COMMISSIONER,

            U.S. CONSUMER PRODUCT SAFETY COMMISSION

    Mr. Moore. I would like to offer, for the record, Mr. 
Chairman, a copy of a letter of support from the Chairman of 
our agency, Hal Stratton. Chairman Stratton, would be here in 
support of my confirmation, but he's in China, on agency 
business. But I have a copy of a letter here that he has made 
available.
    The Chairman. We'll put that in the record.
    Mr. Moore. Thank you very much.
    The Chairman. Thank you.
    Mr. Moore. Thank you very much.
    [The letter referred to follows:]

                    U.S. Consumer Product Safety Commission
                                     Washington, DC, March 26, 2004

Hon. John McCain,
Chairman,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Mr. Chairman:

    On Tuesday, March 30, 2004, the Committee is scheduled to consider 
Commissioner Thomas Moore for renomination to the U.S. Consumer Product 
Safety Commission (CPSC). Regretfully, I am in China on Commission 
business that day and will not be able to join my colleague on Capitol 
Hill for his hearing. However, I would like to take this opportunity to 
write in support of Commissioner Moore and to commend to you his record 
of accomplishment at the CPSC.
    I have worked with Commissioner Moore for nearly two years since my 
appointment as Chairman of the Commission. He served as Acting Chairman 
during the interim between the previous Chair and myself, and it was 
under his leadership that the CSPC continued to maintain its vital 
product safety and compliance functions.
    With over eight years of experience in protecting America's 
consumers, Commissioner Moore's steady hand has been invaluable at the 
CPSC. He has a passion for his work and an unyielding commitment to our 
mission. His years of experience in dealing with consumer safety issues 
bring a critical perspective and seasoned judgment to the agency's 
deliberations. While we do not agree on every issue that comes before 
us, I always value Commissioner Moore's advice and counsel.
    Thomas Moore is a professional dedicated to the highest standards 
of public service. I urge the Committee to look positively on 
Commissioner Moore's record of achievement at the CPSC. Thank you for 
your consideration.
            Sincerely,
                                              Hal Stratton,
                                                          Chairman.

    Mr. Moore. And I also have a full written statement that 
I'd like to offer for the record.
    The Chairman. All the written statements will be made part 
of the record, without objection.
    Mr. Moore. Thank you. Thank you. Thank you.
    In terms of a summation of my statement, Mr. Chairman, 
Ranking Members, and my dear friend, Senator Breaux, as you 
know, I'm Thomas H. Moore----
    The Chairman. Would you pull the microphone a little 
closer, Mr. Moore? It's hard for the reporter----
    Mr. Moore. All right.
    The Chairman. Thank you. Thank you, sir.
    Mr. Moore. I'm more than honored to be here before you 
today as the President's nominee for reappointment as a Member 
of the U.S. Consumer Product Safety Commission, CPSC. I bring 
with me, I believe, unique qualifications for this position. I 
have served as an incumbent Commissioner at CPSC for over 8 
years. And during that time, I have worked diligently on behalf 
of the American consumer. I have first-hand knowledge of the 
agency's mission, its resources, and its excellent staff. By 
the way, our Executive Director, Ms. Patsy Semple, is in the 
audience today.
    As a lawyer, former Senate Counsel, and former Acting 
Chairman of the Commission, I understand both the breadth of 
statutory authority of the Commission, as well as the practical 
and monetary constraints on its work. In addition, during my 
tenure as Acting Chairman, I was the agency's chief 
spokesperson, and I was directly responsible for its 
administrative operations.
    The Commission is charged by Congress with the critical 
responsibility of protecting the public against unreasonable 
risk of injury and death associated with consumer products. Our 
work has resulted in an almost 30 percent decline in the rate 
of deaths and injuries related to hazardous consumer products 
since 1974. Protecting life is, indeed, a crucial 
responsibility, and one that I believe certainly requires 
accountability, and strong and balanced leadership at the 
Commissioner level.
    Protecting the most vulnerable segments of our society is a 
special interest of mine. Children, the elderly, the infirm, 
low-income families, minorities, and those for whom English is 
not their native language are often especially vulnerable to 
hazardous consumer products. I think it is a reasonable 
conclusion that if we concentrate on lowering the risk of 
injury and deaths due to consumer products in these vulnerable 
groups, overall reduction would be proportionately reflected. 
Balancing the concerns of product safety in vulnerable 
populations against product safety concerns in the population 
as a whole will always be one of my most challenging tasks at 
the Commission.
    I also strongly feel that the role of the Commission is 
essential to the U.S. marketplace in an increasingly 
competitive international marketplace. The Commission should 
have a leadership role in developing international consumer 
product safety standards and enforcement compatibility so we 
can enhance international trade and export opportunities 
without lowering U.S. safety standards.
    In closing, I believe that consumers must take some 
responsibility for their own safety. I think that consumers 
should be well-informed about the products they purchase, and 
they should take reasonable care in using them. However, it is 
clear to me that CPSC's role is to stand guard and to protect. 
We cannot assure that all consumer products are designed 
safely, but when we become aware that there are unreasonable 
hazards, we must act, and take all appropriate steps to 
eliminate them.
    I also think that reasoned Commission action reflects a 
pragmatic approach to resolving safety problems, and recognizes 
that regulation is only one of many options that can be 
employed to address safety issues. We will work actively to 
achieve safety goals. And I expect, as is often the case, 
industry will respond reasonably. But if safety is not the goal 
of a certain industry or manufacturer, the Commission must 
stand ready to protect the consumer expeditiously and without 
compromise.
    Mr. Chairman, during my time at the Commission, the CPSC 
has played an important role in protecting the safety of the 
American public. I believe that I have demonstrated a 
consistent and responsible approach to consumer product safety 
issues. I believe I have served the public well, and I want to 
continue the work that we have begun. So I ask you to confirm 
my nomination for another term as Commissioner on the Consumer 
Product Safety Commission.
    Thank you, and I would be pleased to respond to any 
questions you may have, at this time or later.
    [The prepared statement and biographical information of Mr. 
Moore follow:]

 Prepared Statement of Hon. Thomas H. Moore, Nominee for Commissioner, 
                U.S. Consumer Product Safety Commission
    Mr. Chairman, Ranking member and members of the Committee, my name 
is Thomas H. Moore and I am honored to be before you today as the 
President's nominee for re-appointment as a member of the U.S. Consumer 
Product Safety Commission (CPSC). I bring with me unique qualifications 
for this position. I have served as an incumbent Commissioner at CPSC 
for over 8 years and during that time I have worked diligently on 
behalf of the American consumer. I have first hand knowledge of the 
agency's mission, its resources and its excellent staff. As a lawyer, 
former Senate Counsel, and former Acting Chairman of the Commission, I 
understand both the breadth of the statutory authority of the 
Commission as well as the practical and monetary constraints on its 
work. In addition, during my tenure as Acting Chairman I was the 
agency's chief spokesperson and I was directly responsible for its 
administrative operations.
    The Commission is charged by Congress with the critical 
responsibility of protecting the public against unreasonable risk of 
injury and death associated with consumer products. This is a crucial 
responsibility because, often, without CPSC's intervention, the 
consequences of exposure to the hazards associated with dangerous 
products may literally be of a life and death nature for individual 
consumers unknowingly in possession of unsafe consumer products. This 
is also a very critical time for the Commission. Shrinking budgetary 
resources and staff, plus increasingly more technologically complex 
consumer product safety issues, place a very sharp focus on those in 
leadership positions at the Commission. These are times that certainly 
require accountability, and strong and balanced leadership at the 
Commissioner level.
The Mission
    CPSC's mission is to protect children and families against 
unreasonable risk of injury and death from about 15,000 types of 
consumer products. Our work has contributed significantly to the almost 
30 percent decline in the rate of deaths and injuries related to 
hazardous consumer products since the agency's inception. However, 
despite significant reductions over the years, there remains on average 
about 24,400 deaths and 33.4 million injuries each year related to 
consumer products under CPSC's jurisdiction. These numbers represent 
almost 9 deaths and 12,000 injuries per 100,000 people each year. 
Moreover, the deaths, injuries, and property damage associated with 
consumer products cost the Nation over $700 billion annually.
    Some suggest that the modern, sophisticated marketplace of today 
can effectively regulate itself for product safety and that the 
government's role should be limited and secondary to market 
considerations. Well, that is not my philosophy on the government's 
responsibility and role with respect to consumer product safety. Very 
simply put, competition and voluntary actions of today's businessmen do 
not always suffice to safeguard the public interest. Unfortunately, 
competition does not and will not inevitably take the form of a rivalry 
to produce the safest product--the cheapest and most profitable, yes, 
but not the safest. In today's complex marketplace it is going to be 
exceedingly difficult for any amount of libertarian sophistry to 
overwhelm the obvious facts of modern life. The role of the CPSC in 
today's consumer product marketplace is compelling, substantial and 
relevant and should not, at any time, be secondary to the responses of 
the free enterprise system. CPSC should be an aggressive and proactive 
guardian of consumer safety against unreasonable risk of injury or 
death from consumer products.
    Today, our reliance on consumer products in our lives is tremendous 
and growing. We rely on manufactured mechanized and electrical devices 
to assist us in too many of life's activities to mention--at play, at 
work, in education, in travel, and particularly inside and outside of 
the home: in food preparation, in cleaning and making repairs around 
the home, in child-care, in trimming trees and grass, and on and on and 
on. To further complicate matters, more and more of these products are 
manufactured abroad. Manufacturers have an obligation to build a margin 
of safety into all of their products and consumers have a 
responsibility to be informed about products and to take reasonable 
care in using them. Nevertheless, government should never waiver in its 
role and its commitment to ensure that consumers are not unnecessarily 
exposed to unsafe, hazardous consumer products.
Enforcement: An Important Tool
    Aside from using its rulemaking authority, CPSC can act forcefully 
and quickly to remove dangerous products from the marketplace through 
two main enforcement activities. The first is in vigorously enforcing 
its current regulations; and the second is in utilizing its Section 15 
authority to achieve recalls or corrective action plans when it is 
believed that a product meets the level of a substantial product 
hazard.
    I point out to you that in 2003 alone, the Commission obtained 
about 280 recalls involving nearly 40 million product units. We also 
completed 5 civil penalty cases that resulted in over $2 million in 
fines for failure to report hazardous defects and other violations 
associated with our various statutes and regulations.
    Working with a manufacturer, distributor or retailer to recall 
defective products is a primary mechanism in CPSC's continuous 
undertaking to address product safety hazards. However, announcing the 
recall is just one step in an overall process of eliminating the 
hazards presented by unsafe products in consumer's homes. Ensuring the 
removal of those unsafe products from potential consumer use is also 
essential. Given the limitations presented by CPSC's resources, it is 
tremendously important that the Commission maximize the effectiveness 
of this particular aspect of the recall process.
    For years, there have been questions and discussions about just how 
effective the Commission has been in facilitating the removal of unsafe 
products from consumer use: Is the unsafe product message being 
effectively communicated to the public; are enough products being 
effectively removed; and are there additional things that the 
Commission can do? I think that there are certainly enough legitimate 
questions surrounding the best method for determining what constitutes 
an effective recall in any particular case to merit careful review.
    In July 2001, the Consumer Federation of America (CFA) petitioned 
the CPSC to require manufacturers (or distributors, retailers, or 
importers) of products intended for children to provide a product 
registration card along with every product sold. In March 2003, after 
being briefed on the issue by CPSC staff and hearing presentations from 
representatives of consumer groups and industry, a majority of the 
Commission voted to deny the petition. While I am disappointed that we 
did not begin the formal process that I believed was necessary to give 
this issue the prominence it deserves, I do believe in the sincerity of 
my fellow Commissioners in wanting to address certain issues raised by 
that petition. To that end, in 2003, a multi-disciplinary team of CPSC 
staff began exploring the issue of recall effectiveness. The team 
developed a multi-stage plan to determine how best to address the way 
we do recalls which included reviewing relevant research in this area 
and scheduling a series of three meetings to obtain information on this 
issue from outside stakeholders and experts. Later this year, CPSC 
staff will make some recommendations related to the findings of their 
exploration and I look forward to the Commission possibly taking 
positive steps to address the long-standing issue of effectively 
getting consumers to react to recall notifications.
    Another issue in the enforcement area lies within the civil penalty 
arena. I have supported, and continue to support, the raising or the 
elimination of the monetary cap on civil penalties. While the cap does 
rise periodically, the reality is that a $1.65 million fine means 
nothing to many of the corporations we regulate. It is one thing to 
limit the amount one consumer can recover against a company (and not a 
position I necessarily support either), but it is quite another to so 
severely limit the government's ability to penalize a company on behalf 
of all consumers, thereby limiting the deterrent effect of civil 
penalties.
    Therefore, I commend this Senate committee and staff for its 
efforts in this area. Senate bill S. 1261 which passed in the Senate on 
September 30, 2003, has a provision that raises the civil penalty cap 
from $1.65 million to $20 million. With such an increased potential 
liability, perhaps some large companies would be less likely to try to 
stall our agency by putting off reporting hazardous products. This 
civil penalty cap is much more commensurate with the level of 
accountability that some manufacturers should face for the harm that 
their hazardous products can cause.
    Reporting of a hazardous product to the Commission, in many 
instances, is the very first step in a process that could result in the 
elimination of the risk of a consumer suffering an injury or death 
associated with that hazardous product. Companies should have every 
incentive to report, including the possibility of paying a very high 
price for their failure to do so.
Some Success Stories
    The Commission's successes while I have been a Commissioner are a 
major source of satisfaction for me. During my time at the Commission, 
I have been very pleased to be involved in many positive Commission 
initiatives.
    By all current measures, CPSC provides both tremendous service and 
tremendous value to the American people. Each year through reductions 
in deaths, injuries, and other costs associated with unsafe products, 
such as health care costs and property damage, CPSC saves the Nation 
many times the agency's annual budget. As I indicated, our agency is 
the major factor in the overall 30 percent decline in the rate of 
deaths and injuries related to consumer products since 1974. During 
that time, through our standards work, compliance efforts, industry 
partnerships, and consumer information programs, there has been a 42 
percent reduction in residential fire deaths, a 69 percent reduction in 
consumer product-related electrocutions, a 36 percent reduction in 
consumer product-related carbon monoxide deaths, an 87 percent 
reduction in poisoning deaths of children younger than 5 years of age, 
an 84 percent reduction in baby walker injuries and a 90 percent 
reduction in crib-related deaths. We expect the annual number of deaths 
and injuries prevented by just these examples to reduce societal costs 
by over $15 billion.
    Currently, the Commission collects information about product-
related injuries treated in hospital emergency rooms through our 
National Electronic Injury Surveillance System or ``NEISS.'' This 
unique system provides statistically valid national estimates of 
product-related injuries from a probability sample of about 100 
hospital emergency rooms. These estimates provide the data support for 
many of the Commission's activities allowing the Commission to spot 
hazard patterns, set priorities, and give direction to product safety 
work. These estimates are also valuable to industry, which can use the 
data to spot hazard patterns to help give direction to their own 
product safety efforts.
    In 2003, NEISS supplied about 350,000 product-related cases from 
its sample of hospital emergency rooms. Several foreign governments 
have modeled their national injury data collection systems after the 
Commission's system. Additionally, in 2000, NEISS was expanded to 
provide data on all trauma-related injuries. This expanded data 
provides other Federal agencies, researchers, and the public with more 
comprehensive information on injuries from all sources, not just 
consumer products.
    The Commission has also established a reporting system to capture 
information on clothing-related burn injuries to children. In July 
2003, to address any possible issues related to sleepwear burn 
injuries, the Commission, in cooperation with the American Burn 
Association, the Shriners Hospitals for Children, and the National 
Association of State Fire Marshals, developed a new National Burn 
Center Reporting system for collecting and sharing information on 
clothing-related burn injuries to children under the age of 15. There 
are over 100 burn centers nationwide that treat children and as of 
March 2004, we had collected over 130 reports. I am very pleased that, 
to this date, there are no reports of children suffering burn injuries 
as a result of their complying sleepwear being ignited by a small open 
flame.
Some Conclusions
    Protecting the most vulnerable segments of our society is a special 
interest of mine. Children, the elderly, the infirm, low-income 
families, minorities, and those for whom English is not their native 
language are often especially vulnerable to hazardous consumer 
products. I think it is a reasonable conclusion that if we concentrate 
on lowering the risk of injury and deaths due to consumer products in 
these vulnerable groups, overall reductions would be proportionally 
reflected. Balancing the concerns of product safety in vulnerable 
populations, against product safety concerns in the population as a 
whole, will always be one of my more challenging tasks at the 
Commission.
    I also strongly feel that the role of the Commission is essential 
to the U.S. marketplace in an increasingly competitive international 
marketplace. The Consumer Product Safety Commission and the marketplace 
must work together to develop international consumer product safety 
standards and enforcement compatibility so we can enhance international 
trade and export opportunities without lowering U.S. safety standards.
    Just as the Commission played an essential role in the development 
of uniformity in domestic product safety standards and has thereby 
minimized conflicting state and local regulations, that role should now 
be expanded to working with industry and governments internationally to 
harmonize safety standards. Such an effort could result in the 
reduction of non-tariff trade barriers that varying international 
safety standards can create.
    Over the years, I have also given considerable advocacy to the idea 
of a product safety research effort at the Commission. Most other 
Federal health and safety agencies have research budgets that are a 
vital part of their programs. Clearly, Congress envisioned research as 
part of the Commission's safety efforts when it adopted the Consumer 
Product Safety Act and established the Commission. The very first 
Commission Annual Report in 1973 indicated that research was an 
important component of the agency's work. The language in Section 5 
(b)(1) of the Consumer Product Safety Act explicitly addresses 
conducting research. Yet, for too many years, we have had to defer any 
research program for lack of funding. Our staff tells me that a good 
research project for the Commission would be to evaluate the 
application of sensor technologies to address consumer product safety 
hazards. A number of new sensor technology applications have been 
introduced into the consumer marketplace in the past few years, but 
applications that specifically address consumer product safety needs 
have not been explored in depth within the manufacturing or safety 
assurance communities.
    In the area of ongoing issues of particular interest to me, I place 
All Terrain Vehicles (ATVs) and flammability issues. From 1997 to 2001, 
ATV-related injuries rose over 100 percent, from an estimated 52,800 to 
110,100. Subgroups that had been associated with greater risk for 
injury in 1997 continued to be at greater risk in 2001. These groups 
include drivers under the age of 16, drivers with less than one year of 
driving experience, drivers who drive fewer hours and recreational 
drivers. I am particularly concerned about injuries and deaths 
occurring as a result of adult-sized ATVs being operated by drivers 
under the age of 16.
    In August 2002, CFA and 8 other groups petitioned the Commission to 
ban adult-sized four wheel ATVs which may be used by and/or sold for 
children under age 16. In 2003, the Commission held a field hearing on 
the ATV issue in West Virginia, a state where there is a high level of 
ATV usage. Additionally, there were two other field meetings held in 
New Mexico and Alaska. The Commission staff is currently evaluating the 
CFA petition and all comments received and will submit a briefing 
package on the petition to the Commission later this year.
    The Commission staff is also developing new draft flammability 
performance standards for upholstered furniture and mattresses for 
consideration by the Commission. By reducing ignition propensity and 
limiting fire growth, these standards would address the risk of fire 
from open flame ignition for mattresses and small open flame ignition, 
as well as, cigarette ignition of upholstered furniture. The Commission 
staff plans to provide draft standards under which manufacturers and 
importers would have the flexibility to use any designs or 
constructions of products and materials that yield complying 
performance. I anticipate that, later this year, staff will provide to 
the Commission its recommendations of possible proposed rules and 
alternatives on these flammability issues.
    Addressing flammability issues have been very long and often very 
frustrating processes for the Commission. There are many stakeholders 
who have many different views on how these issues should most 
effectively be addressed. I am very optimistic that most recent efforts 
by all interested parties will allow for the type of progress we need 
to address these very serious flammability issues.
Conclusion
    In closing, I believe that consumers must take some responsibility 
for their own safety. I think that consumers should be well informed 
about the products they purchase and they should take reasonable care 
in using them. However, it is clear to me that CPSC's role is to stand 
guard and to protect. We cannot assure that all consumer products are 
designed safely but when we become aware that there are unreasonable 
hazards we must act and take all appropriate steps to eliminate them.
    I also think that reasoned Commission action reflects a pragmatic 
approach to resolving safety problems and recognizes that regulation is 
only one of many options that can be employed to address safety issues. 
We will work actively to achieve safety goals, and I expect, as is 
often the case, industry will respond reasonably. But, if safety is not 
the goal of a certain industry or manufacturer, the Commission must 
stand ready to protect the consumer expeditiously and without 
compromise.
    Mr. Chairman, during my time at the Commission, the CPSC has played 
an important role in protecting the safety of the American public. I 
believe that I have demonstrated a consistent and responsible approach 
to consumer product safety issues. I believe I have served the public 
well and I want to continue the work that we have begun. So I ask you 
to confirm my nomination for another term as a Commissioner on the 
Consumer Product Safety Commission.
    Thank you and I would be pleased to respond to any questions you 
may have at this time.
                                 ______
                                 
                      a. biographical information
    1. Name: (Include any former names or nick names used.) Thomas Hill 
Moore.
    2. Position to which nominated: Commissioner, U.S. Consumer Product 
Safety Commission.
    3. Date of nomination: March 11, 2004.
    4. Address: (List current place of residence and office addresses.)

        Residence: Information not released to the public.
        Office: 4330 East West Highway, Bethesda, MD 20814.

    5. Date and place of birth: February 2, 1937; Washington, Georgia.
    6. Marital status: (Include maiden name of wife or husband's name.)
    Married to--Adrienne Hartley Moore; Maiden name--Adrienne T. 
Hartley.
    7. Names and ages of children: (Include stepchildren and children 
from previous marriages.)
    Phyllis Moore Wiley--age 36; Thomas Carlton Moore--age 34.
    8. Education: (List secondary and higher education institutions, 
dates attended, degree received and date degree granted.)

        Holland Law Center, University of Florida, 8/71 to 3/74, Juris 
        Doctor, 3/74

        Jacksonville University, 9/65 to 4/71, B.S. Degree, 4/71

        Matthew W. Gilbert High School, High School Diploma, 6/56

    9. Employment record: (List all jobs held since college, including 
the title or description of job, name of employer, location of work, 
and dates of employment.)

        Commissioner, U.S. Consumer Product Safety Commission, 
        Bethesda, Maryland, 5/95 to present.

        Legislative Counsel, United States Senate, Office of Senator 
        John B. Breaux, Washington, D.C., 10/88 to 4/95.

        Government Relations Consultant, self-employment, Reston, VA, 
        5/86 to 10/88.

        Executive Vice President, National Medical Association, 
        Washington, D.C., 3/85 to 4/86.

        Director, Legislative Affairs, Allen, Rovin & Associates, 
        Washington, D.C., 3/83 to 3/85.

        Staff Attorney, National Consumer Law Center, Washington, D.C., 
        6/81 to 3/83.

        Legislative Assistant, U.S. Senate, Office of Senator Richard 
        Stone, 6/77 to 
        1/81.

        Assistant Dean, University of Florida College of Law, 3/74 to 
        5/77.

        Postal Carrier, United States Post Office, Jacksonville, 
        Florida, 4/60 to 6/71.

    10. Government experience: (List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.) None.
    11. Business relationships: (List all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.)
    None, other than those listed above.
    12. Memberships: (List all memberships and offices held m 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.)
    American Association of Retired People--member.
    13. Political affiliations and activities:

    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate. None.

    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years. None.

    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. None.
    14. Honors and awards: (List all scholarships, fellowships, 
honorary degrees, honorary society memberships, military medals and any 
other special recognitions for outstanding service or achievements.)

        Book Award, Evidence Course--Law College.

        Voted Most Outstanding Student Trial Lawyer, Practice Court--
        Law College.

        Selected to Board of Masters, Student High Court of Appeals, 
        University of Florida Student Government Association.

        Earl Warren Legal Training Program Grant.

        Independent Life Insurance Company Scholarship.

    15. Published writings: (List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.) None.
    16. Speeches: Provide the Committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of on topics relevant to the position for which you have been 
nominated.
    (See attached speeches).
    17. Selection:

    (a) Do you know why you were chosen for this nomination by the 
President?
    I am a sitting Commissioner on the CPSC with over 8 years of 
experience on the job. During that time I have worked diligently on 
behalf of the American consumer.

    (b) What do you believe in your background or employment experience 
affirmatively qualifies you for this particular appointment?
    My work on the Commerce Committee with Senator Breaux where I 
handled consumer affairs, among other issues, and my over 8 years of 
experience at the Commission make me uniquely qualified for this 
appointment. I was Acting Chairman for nine months while we were 
waiting for our current chairman to be confirmed. I have knowledge of 
the substantive issues before the Commission and have had 
administrative experience at the operational level of the agency.
                   b. future employment relationships
    1. Will you sever all connections with your present employers, 
business firms, business associations or business organizations if you 
are confirmed by the Senate?
    N/A Reappointment.
    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain. No.
    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business firm, association or 
organization?. No.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? No.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable? Yes.
                   c. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers.
    None as to myself. My wife wil1 begin receiving a pension next year 
from AT&T.
    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated. None.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated? None.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public policy. None.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.)
    I will recuse myself from any matter before the Commission that may 
present a potential conflict of interest and have included a copy of my 
Ethics Agreement dated March 19, 2004.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position? Yes.
                            d. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a compliant to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, provide details. No.
    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation or ordinance, 
other than a minor traffic offense? If so, please explain. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain. No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain. No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination. None.
                     e. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, to include technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Please explain how if confirmed, you will review regulations 
issued by your department/agency and work closely with Congress, to 
ensure that such regulations comply with the spirit of the laws passed 
by Congress.
    Before the Commission votes on any new regulation our legal staff 
does an analysis of the proposal to ensure that it meets our statutory 
requirements. That memo is separate from the substantive package and is 
an important component of Commission review. If confirmed I will 
continue to encourage that those memos reflect the unbiased opinion of 
our staff and that all views are reflected. Also substantive briefing 
packages are made available on our website at the same time they are 
distributed to the Commissioners, so that the public and affected 
industries, as well as Members of Congress, have opportunities to point 
out any objections they may have to a proposal. Additionally, the 
Commission has a proposal out for public comment to begin a systematic 
review of our older regulations to ensure consistency among them with 
respect to accomplishing program goals.
    5. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                  f. general qualifications and views
    1. How do your previous professional experiences and education 
qualify you for the position for which you have been nominated?
    Prior to coming to the agency I handled consumer issues for Senator 
John Breaux on the Commerce Committee. It was there that I became 
interested in the mission of the U.S. Consumer Product Safety 
Commission. I have had the privilege of working at the Commission for 
over 8 years. During that time I have been involved in every decision 
made by the agency at the Commissioner level. I know the agency 
mission, its resources and its excellent staff. As a lawyer, I 
understand the breadth of the statutory authority of the Commission as 
well as the practical and monetary constraints on its work. During my 
tenure as Acting Chairman I was the agency spokesperson and was 
responsible for administrative operations, in addition to my other 
responsibilities.
    2. Why do you wish to serve in the position for which you have been 
nominated?
    I wish to serve another term as Commissioner because the Commission 
now faces a critical time of shrinking resources with increasingly more 
technologically complex product safety issues. I think that my presence 
on the Commission will improve the safety and well being of the 
American public in their homes and communities. I provide a strong 
persuasive presence which gives a needed balance to the Commission's 
work. My experience of 8 years in the position will also provide some 
stability to the Commission during a time of change and help the 
Commission resolve long-standing, very complex consumer product safety 
issues which are nearing critical decision-making stages.
    3. What goals have you established for your first two years in this 
position, if confirmed?
    My goals are to continue the work that I have begun at the 
Commission. My focus has been on fire issues and the hazards that 
befall our most vulnerable citizens: children, the elderly, and less 
affluent consumers. Now that the agency has a greater measure of 
cooperation with industry on the issue, it is important to put out a 
proposed rule on upholstered furniture flammability as soon as that is 
possible and I will work with the other Commissioners and our staff to 
accomplish that.
    4. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills?
    Based upon my experience in government service both on Capitol Hill 
and at the Commission, I believe that I have developed and demonstrated 
the necessary skills to continue to successfully carry out the position 
of Commissioner.
    5. Please discuss your philosophical views on the role of 
government. Include a discussion of when you believe the government 
should involve itself in the private sector, when society's problems 
should be left to the private sector, and what standards should be used 
to determine when a government program is no longer necessary.
    The statutes our agency administers give us fairly specific 
guidance on when the agency should get involved in the private sector. 
Our mission is to protect consumers from hazardous products circulating 
in interstate commerce. These products often come from other countries 
and can find their way into any State in the Union. This is a perfect 
example of a mission that has to be handled at the Federal level. The 
Federal government is uniquely qualified to police the world of 
interstate commerce, recall hazardous products that are in national 
distribution, stop products from entering our country that could pose a 
danger to its citizens and set safety standards of national 
applicability. Manufacturers would find it difficult, if not 
impossible, to make products if every state had different product 
safety standards. The States are uniquely qualified to deal with in-
state businesses reselling defective products in the secondary market, 
such as thrift stores and flea markets.
    A government program should be judged by whether its mission is 
still valid and if it is setting, measuring and meeting goals to 
accomplish that mission. I think the Government Results and Performance 
Act has helped focus government program planning and resource 
allocation in ways that enhance everyone's ability to determine whether 
programs are achieving their missions.
    6. Describe the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated.
    The mission of the Commission is to protect the American public 
from unreasonable risks of injury and death from about 15,000 types of 
consumer products under its jurisdiction, to assist consumers in 
evaluating the comparative safety of consumer products, to develop 
uniform safety standards for consumer products, and to promote research 
and investigation into the causes and prevention of product-related 
deaths and injuries. Its safety initiatives are handled through three 
major programmatic activities: hazard identification and reduction 
activities, compliance and enforcement activities, and public 
information and education activities. The major operational objective 
of the Commission is to maintain effective product safety programs in 
light of shrinking staff and programmatic resources. As is apparent in 
most Federal government operations, maintaining and upgrading the 
Commission's information technology capabilities and databases are 
essential elements to the Commission's success as the Commission 
becomes increasingly more dependent on these systems for its data 
driven activities.
    7. What do you believe to be the top three challenges facing the 
department/agency and why?
    In a world that requires more of our Federal budget to be spent on 
security issues, limited resources, will continue to be a challenge for 
most agencies, and particularly small ones, such as CPSC. We have 
roughly 470 people to protect the entire nation from potential hazards 
associated with 15,000 types of products. We have lost some of the 
support we used to get from the U.S. Bureau of Customs & Border 
Protection in stopping products at the docks because the national 
security role of Customs has increased in recent years. For the last 
few years we have had to postpone a number of improvements to our IT 
systems and our testing and research laboratory because there just is 
not enough money in our budget to fund them. However, our staff works 
extremely hard and they find every resource they can to adjust to these 
difficult budgetary times.
    When national security issues face our citizens, and when there is 
so much information of all kinds coming at consumers on a daily basis, 
it is a continuing challenge to focus their attention on product safety 
issues. One of the issues we are studying in our current recall 
effectiveness review, is what we can do differently to make sure 
consumers are informed about, and take action with regard to, hazardous 
products before one of their loved ones becomes a casualty.
    The agency is seeing an increase in issues related to the chemical 
composition of products on the market, particularly those used by 
children. Recently we have had to examine phthalates (a plastic 
softener), chromated copper arsenate (CCA) used in pressure treating 
wood in playground equipment, the chemical formulation of Teflon, and 
flame-retardant chemicals that could be used to make upholstered 
furniture more flame resistant. These issues are very complex, often 
requiring peer review of staff results and consultations with other 
Federal agencies. These issues take time and resources. We have had to 
hire more toxicologists and other scientists to meet these increased 
demands. These issues are extremely important and I am glad the agency 
has been able to address them but they do increase the strain on our 
already tight budget. Our challenge is to only tackle the issues that 
pose the greatest dangers to our community and sometimes that is hard 
to know at the outset, particularly when many of these issues come to 
us by way of citizen petition.
    8. In reference to question number six, what factors in your 
opinion have kept the department/agency from achieving its missions 
over the past several years?
    I think that, given its budgetary limitations, the Commission, has 
done a good job in achieving its mission. However, I also believe that 
the Commission has the capability to do more to protect the public. I 
find resources to be the major factor in limiting the Commission's 
capabilities. As products are made in more technologically complex 
ways, both our engineers and the product manufacturers are challenged 
to isolate the precise cause of a product's safety-related malfunction. 
We are finding more and more multiple failure modes in products. This 
requires us to do more testing, to collect more product samples, and to 
hire more outside experts to help us determine all the possible 
components that play a role in product defects. With a shrinking 
budget, we become less capable of swift product safety assessments and 
become more dependent on outside analysis and conclusions.
    I have also given considerable advocacy to the idea of a product 
safety research effort at the Commission. Most other Federal health and 
safety agencies have research budgets that are a vital part of their 
programs. Clearly, Congress envisioned research as part of the 
Commission's safety efforts when it adopted the Consumer Product Safety 
Act and established the Commission. The very first Commission Annual 
Report in 1973 indicated that research was an important component of 
the agency's work. The language in Section 5(b)(1) of the Consumer 
Product Safety Act explicitly addresses conducting research. Yet, for 
too many years, we have had to defer any research program for lack of 
funding.
    9. Who are the stakeholders in the work of this department/agency?
    Our primary stakeholders are American consumers. We also consider 
industry (manufacturers, importers and retailers) to be stakeholders. 
Both have organized subsets, such as national/regional consumer groups 
and industry trade associations. To some extent the governments of the 
countries that we trade with are stakeholders in that they have an 
interest in their countries' products meeting American standards and in 
trying to harmonize their standards with ours, whenever possible.
    10. What is the proper relationship between the position to which 
you have been nominated, and the stakeholders identified in question 
number nine?
    The proper relationship between a Commissioner and the stakeholders 
is one that contemplates substantive and appropriate communications 
between the parties related to consumer product safety issues. The 
Commission is responsible for communicating safety-related information 
to the public. In each of its major program activities the exchange of 
information is critical. A Commissioner is responsible for implementing 
policies, both individually, and collectively as a part of the 
Commission, that allow for the free flow of product safety information 
between relevant stakeholders and the Commission.
    11. The Chief Financial Officers Act requires all government 
departments and agencies to develop sound financial management 
practices.

    (a) What do you believe are your responsibilities, if confirmed to 
ensure that your department/agency has proper management and accounting 
controls?
    In general, the Chairman of the agency has direct, day-to-day 
operational oversight and control of our management and accounting 
controls. During my senior staff briefings, the senior staff of the 
agency will inform me of any steps they are taking in response to 
problems they have identified and I seek periodic updates on those 
issues until they have been satisfactorily resolved. When I was Acting 
Chairman, all reports made to Congress and the Executive Branch and all 
internal Inspector General and Program and Evaluation studies were sent 
to my office for review of proposed remedial actions. I believe my 
responsibility, as Commissioner, is to keep abreast of issues that are 
brought to my attention and to follow up with staff to make sure any 
problems have been resolved and to take any steps with regard to the 
budget that may be necessary to fund those resolutions.

    (b) What experience do you have in managing a large organization?
    I was the Acting Chairman of the U.S. Consumer Product Safety 
Commission for nine months and I have been a Commissioner (one of 
three) there for over 8 years.
    12. The Government Performance and Results Act requires all 
government departments and agencies to identify measurable performance 
goals and to report to Congress on their success in achieving these 
goals.

    (a) What benefits, if any, do you see in identifying performance 
goals and reporting on progress in achieving those goals?
    Performance goals provide focus for the agency. They allow the 
agency to align its activities and regulations with its missions, 
design its budgets to reflect the strategic missions and use real 
measurements of results to ascertain successes and identify areas for 
improvement. Progress toward goals justifies appropriations and 
authorizations for the agency.

    (b) What steps should Congress consider taking when a department/
agency fails to achieve its performance goals? Should these steps 
include the elimination, privatization, downsizing, or consolidation of 
departments and/or programs?
    First there should be a determination of why the department/agency 
failed to achieve its performance goals and then a determination of 
what the appropriate and prudent course of action should be. Any one of 
the aforementioned steps might be prudent but Congress and the 
department/agency both should be mindful that any action taken must 
reflect what is in the public's interest, particularly when dealing 
with health and safety agencies where results may take years to become 
measurable.

    (c) What performance goals do you believe should be applicable to 
your personal performance, if confirmed?
    All of the performance goals are applicable to a Commissioner's 
personal performance. As the responsible parties for the agency's 
policies, budget, and operational objectives, the Commissioners are 
responsible for the performance of the agency. The success or failure 
of the agency flows from the Commissioner's decision making. The 
agency's measure is also the Commissioner's personal measure of his job 
performance.
    13. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you?
    I believe in hiring good people and letting them do their jobs. I 
am not a micromanager. I think that if you do a good job in the 
recruiting process in identifying what qualities you want in an 
employee and screen your applicants for those qualities that you should 
have few on-the-job problems. I also think that if people are not doing 
their jobs they need to be given an opportunity to improve, but if they 
do not improve, they need to move on. As resources get scarcer, it is 
imperative that people are doing the best job they can do and that 
their 'Skills match the agency's needs.
    No employee complaints have been brought against me.
    14. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with committees of 
Congress? If yes, please explain.
    As Legislative Assistant in the office of Senator Richard Stone and 
Legislative Counsel in the office of Senator John Breaux, I have had 
extensive working experience with Congress, Congressional Committees, 
and Congressional staffers. As a Commissioner, over the last 8 years, I 
have testified before both House and Senate authorizing committees on 
reauthorization of the Commission and on other issues under the 
jurisdiction of those committees. I have also testified before House 
and Senate appropriators on the annual budget request at the annual 
budget hearings for the Commission. Moreover, in the role of Acting 
Chairman at the Commission from November, 2001 to August, 2002, I had 
direct oversight over the office responsible for the Commission's 
communications with Congress on many, many issues under the 
Commission's jurisdiction. I feel that an open line of communication 
between Congress and the office of a Commissioner is essential to good 
congressional relations and I welcome inquiries and other 
communications from all members of Congress.
    15. Please explain what you believe to be the proper relationship 
between yourself, if confirmed, and the Inspector General of your 
department/agency.
    The CPSC's Inspector General reports directly to the Chairman of 
the agency and his reports are usually confidential. When I was Acting 
Chairman the Inspector General kept my office informed of on-going 
activities and sent me all reports, including audits and investigatory 
reports. I, in turn, kept the other Commissioner informed of the 
reports and the nature of the on-going investigations. I think all 
Commissioners should have access to program audits as these are 
necessary to fulfilling our role to make sure the agency is meeting its 
mission.
    16. In the areas under the department/agency's jurisdiction to 
which you have been nominated, what legislative action(s) should 
Congress consider as priorities? Please state your personal views.
    The Commission was last authorized in 1990. The authorization of 
the Commission should be a priority given that it has been 14 years 
since the last authorization. Many Members feel that an agency that is 
not authorized should not be appropriated. The Commission should not 
continue to be in that vulnerable position.
    I have supported, and continue to support, the raising or the 
elimination of the monetary cap on civil penalties. Perhaps some 
companies would be less likely to try to stall our agency by putting 
off reporting hazardous products if we had penalties that were more 
commensurate with the harm they can cause.
    17. Within your area of control, will you pledge to develop and 
implement a system that allocates discretionary spending in an open 
manner through a set of fair and objective established criteria? If 
yes, please explain what steps you intend to take and a time frame for 
their implementation. If not, please explain why.
    The agency currently has almost no discretionary funds to spend. 
Our work is largely accomplished through the work of our scientists, 
statisticians, engineers, investigators and other highly skilled 
employees, which means that the bulk of our budget goes for salaries, 
rent, telephone and other administrative support services. Because of 
overall budget constraints, unfunded mandates and annual increases in 
salaries, to name a few reasons, we have in recent years only been able 
to obtain budget increases that cover most, if not all, of the increase 
in our fixed costs. While we do have grant-making authority, we rarely 
have money to make grants. About all we can fund are tiny contracts 
(usually $500 per State) that we disburse through our State and Local 
Partners Program to state agencies who help us conduct investigations 
and inspections. This is a wonderful example of a federal-state 
partnership program that gives us greater reach than we could possibly 
have with just our small staff. Our State and local partners fill in 
the gaps in states where we do not have a CPSC staff person stationed. 
Most of our travel funds are dedicated to travel by our field 
investigators, participation by our staff in voluntary standards 
development and travel in support of litigation.
    We request annual input from our stakeholders so they can comment 
on what they think the agency's agenda and priorities should be for the 
corning year. They also have an opportunity to review and comment on 
our annual budget, Five-Year Strategic Plans and our annual Performance 
Plans which outline the agency's strategic goals and indicate resources 
we intend to spend in each area. For each budget submission, the 
Commissioners review on-going projects and proposed changes to those 
projects, and 1 will continue to review those budgets every year to 
make sure that we are getting the most out of our limited resources.

    The Chairman. Thank you very much.
    Mr. Anderson?

     STATEMENT OF HON. A. PAUL ANDERSON, NOMINATED TO BE A 
           COMMISSIONER, FEDERAL MARITIME COMMISSION

    Mr. Anderson. Thank you, Mr. Chairman. Thank you for 
scheduling this hearing today. Having been nominated by 
President Bush to the Federal Maritime Commission, it is, 
indeed, an honor and a privilege to appear before you and the 
distinguished Members of the Commerce, Science, and 
Transportation Committee.
    I would like to convey my sincere gratitude to Senators 
Nelson and Graham for their support for this nomination, and 
also to Congressman Mica for his kind words.
    I would also like to thank you for the opportunity to 
introduce my father, who is here today, and also my mother, and 
publicly convey to them that their spirit, love, and character 
have guided me, and I am forever grateful.
    I would also like to thank my friends that are here today 
for their support and encouragement.
    As the independent regulatory agency responsible for 
overseeing ocean-borne transportation in the U.S. foreign 
commerce, the Federal Maritime Commission works to ensure a 
fair and competitive environment in which carriers, shippers, 
and other stakeholders can operate with a minimum of government 
intervention, while being protected from unfair foreign 
shipping practices.
    As this Committee knows firsthand, the ocean transportation 
industry has changed dramatically since September 11. The 
security and safety of our Nation's transportation 
infrastructure is of critical importance to the free flow of 
trade. While the Commission is not in the front line of 
ensuring our security, it is committed to helping front-line 
organizations ensure the safe and efficient movement of cargo 
to and from the United States. With respect to transportation 
security, I will fully support the efforts of the Commission 
and other agencies to coordinate and integrate our resources to 
ensure maximum protection of our maritime assets.
    The maritime industry is well on its way to being one of 
our country's few trillion dollar economic sectors. The Federal 
Maritime Commission plays a vital role in this marketplace, and 
will continue to ensure that the interests of the United States 
operate on a level playing field with our competitors. During 
my career, I have worked in several regulated industries, 
including 9 years in the maritime sector. In this capacity, 
many of the functions I performed were subject to maritime laws 
and regulations administered by the Federal Maritime 
Commission. My professional experience working with maritime 
trade associations, such as American Waterways Operators and 
the former American Institute of Merchant Shipping, promoting 
the industry and playing a leadership role in guiding the 
industry toward responsible public policy positions, will allow 
me to make significant contributions to the Commission.
    If confirmed by the Senate, I will work to fairly and 
objectively fulfill the Federal Maritime Commission's statutory 
responsibilities, while making every effort to listen to 
Commission stakeholders, in order to reach balanced and well-
informed decisions in this sector that plays a vital role in 
our country's economic development and security.
    Thank you, Mr. Chairman, for the opportunity to appear 
before you today, and I will be happy to answer any questions.
    [The prepared statement and biographical information of Mr. 
Anderson follow:]

    Prepared Statement of Hon. A. Paul Anderson, Nominated to be a 
               Commissioner, Federal Maritime Commission
    Mr. Chairman,

    Thank you for scheduling this hearing today. Having been nominated 
by President Bush to the Federal Maritime Commission, it is an honor 
and a privilege to appear before you and the distinguished members of 
the Commerce, Science, and Transportation Committee. I would like to 
convey my sincere gratitude to Senator Nelson and Congressmen Shaw and 
Mica for their introduction to the Committee.
    During my life I have been truly blessed to have supportive family 
and friends. I would like to recognize my father Perry Anderson, a 
distinguished veteran and retired Marine officer who is here today from 
California, and publicly convey to him and my mother that their spirit, 
love and character have guided me and I am forever grateful. I would 
also like to thank my friends who are here for their encouragement and 
friendship.
    As the independent regulatory agency responsible for overseeing 
ocean borne transportation in U.S. foreign commerce, the Federal 
Maritime Commission works to ensure a fair and competitive environment 
in which carriers, shippers, and other stakeholders can operate with a 
minimum of government intervention, while being protected from unfair 
foreign shipping practices.
    Working within its statutory framework, the Commission has 
developed a regulatory system that allows for necessary oversight with 
minimal disruption to the efficient flow of U.S. foreign commerce.
    As this Committee knows first-hand, the ocean transportation 
industry has changed dramatically since September 11, 2001. The 
security and safety of our Nation's transportation infrastructure is of 
critical importance to the free flow of trade. While the Commission is 
not on the front-line of ensuring our security, it is committed to 
helping front-line organizations ensure the safe and efficient movement 
of cargo to and from the United States.
    In this regard, the Commission's oversight of ocean common 
carriers, ocean transportation intermediaries (``OTIs''), and marine 
terminal operators, is a vital link in the effort to protect our 
Nation's seaports.
    With respect to transportation security, I will fully support the 
efforts of the Commission and other agencies to coordinate and 
integrate our resources to ensure maximum protection of our maritime 
assets.
    The maritime industry has seen dramatic changes in the past decade, 
with the evolution of technology, global trade and intense competition. 
Congress addressed many of these issues in 1998, when it passed the 
Ocean Shipping Reform Act (OSRA). The Act amended the way the 
Commission deals with service contracts, agreements, ocean 
transportation intermediary licensing, tariffs, and other issues. Based 
on the Commission's 2001 report on the impact of OSRA, it appears that 
the Act is working well to encourage a more market-driven liner 
shipping industry.
    The maritime industry is well on its way to being one of our 
country's few trillion dollar economic sectors. The Federal Maritime 
Commission plays a vital role in this marketplace and will continue to 
ensure that the interests of the United States operate on a level 
playing field with our competitors.
    During my career I have worked in several regulated industries, 
including nine years in the maritime sector. In this capacity, many of 
the functions I performed were subject to maritime laws and regulations 
administered by the Federal Maritime Commission. My professional 
experience working with maritime trade associations such as American 
Waterways Operators (AWO) and the former American Institute of Merchant 
Shipping (AIMS), promoting the industry and playing a leadership role 
in guiding the industry toward responsible public policy positions, 
will allow me to make significant contributions to the Commission.
    If confirmed by the Senate, I will work to fairly and objectively 
fulfill the Federal Maritime Commission's statutory responsibilities, 
while making every effort to listen to Commission stakeholders in order 
to reach balanced and well-informed decisions in this sector that plays 
a vital role in our country's economic development and security.
    Thank you, Mr. Chairman and distinguished Senators on the Committee 
and your staff, for your time and consideration. I will be happy to 
answer any questions that you may have for me at this time.
                                 ______
                                 
                      a. biographical information
    1. Name: (Include any former names or nicknames used.) Alan Paul 
Anderson.
    2. Position to which nominated: Federal Maritime Commission.
    3. Date of nomination: Apri1 10, 2003.
    4. Address: (List current place of residence and office addresses.)

        Residence: Information not released to the public.
        Office: 2108 NE 18 Avenue, Wilton Manors, FL 33305.

    5. Date and place of birth: Sept. 16, 1959, Beaufort, South 
Carolina.
    6. Marital status: (Include maiden name of wife or husband's name.)
    Single.
    7. Names and ages of children: (Include stepchildren and children 
from previous marriages.)
    Chase Frederick Kulp, Age 16.
    8. Education: (List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.)

        Harvard University, John F. Kennedy School of Government, 1997, 
        Program for Senior Managers in Government.

        Bachelor of Science, University of Florida, 1982--attended 
        1979-82.

        Menlo College, Menlo Park, CA--attended 1978.

        San Clemente High School, graduated 1977, attended 1973-77.

    9. Employment record: (List all jobs held since college, including 
the title or description of job, name of employer, location of work, 
and dates of employment.)

        1994-2003 Vice President Government Relations
        JM Family Enterprises, Inc.
        Deerfield Beach, Florida

        1990-1994 Director, Public Affairs
        Hvide Marine, Inc.
        Port Everglades, Florida

        1989-92 Assistant to the President
        Hvide Marine, Inc.
        Port Everglades, Florida

        1987-1989 Manager, Marketing
        Hvide Marine, Inc.
        Port Everglades, Florida

        9/96-11/96 Field Director
        Bob Martinez for Governor
        Tallahassee, Florida

        5/86-9/86 Campaign Aide
        Tom Gallagher for Governor
        Miami, Florida

        1983-1984 Special Assistant
        United States Senator Paula Hawkins
        Washington, DC

        6/94-11/94 Press Secretary
        U.S. Congressman Connie Mack Campaign
        Fort Myers, Florida

        11/84-5/86 Special Assistant
        U.S. Senator Paula Hawkins
        Winter Park, Florida

        12/82-5/83 Account Executive
        Snyder Varnadore Public Relations Worldwide, Inc.
        Sarasota, Florida

        7/82-11/82 Campaign Aide
        Van B. Poole for United States Senate Campaign
        Fort Lauderdale, Florida

    10. Government experience: (List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.)

        Broward County Consumer Affairs Board, 1990-1994.

        United States Senator Connie Mack Academy Advisory Board, 1989-
        2000.

        Broward Community College Board of Trustees, 1999-2003.

        Broward County Port Director Search Committee 2003.

    11. Business relationships: (List all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.)

        Vice President, JM Family Enterprises, Inc.

        Southeast Toyota Distributors LLC.

        World Omni Financial Corporation, Inc.

        JM&A, Inc.

        Fidelity Insurance, Inc.

        Member, Board of Directors, Giant Holdings, Inc.

        Hvide Marine, Inc.

        Board of Trustees, Broward Community College.

    12. Memberships: (List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.)

        Broward Community College Board of Trustees, 1999 to present, 
        Chair, Board of Trustees 1999-2000, Vice Chair, 2000-2001.

        Broward Alliance, member, Board of Directors, 1997 to present, 
        Chair, Board of Directors, 2002-2003, Vice Chair, 2001-2002, 
        Secretary, 2000-2001, Treasurer, 1999, 2000.

        Broward Education Foundation, 2002 to present.

        Orange Bowl Committee, member, 2000 to present.

        Tower Club, member, 1994-2003.

        Broward Navy Days, member, Board of Directors, 1991-2003.

        Museum of Discovery & Science, member, Board of Directors, 
        1996-2003.

        Junior Achievement of South Florida, member, Board of 
        Directors, 1998-2003.

        Coral Ridge Country Club, 2000 to present.

        U.S. Senator Connie Mack's Academy Advisory Board 1989-2000.

        Public Affairs Council, member, Board of Directors, 1998-2003.

        Florida Chamber of Commerce, member, Board of Governors, 1998 
        to present.

        Florida Tax Watch, member, Board of Directors, 2000-2003.

        Floridian's for School Choice, member, Board of Directors, 
        1999-2003.

        S.W.I.M. Fort Lauderdale, member, Board of Directors, 2000-
        2003.

        Fort Lauderdale Chamber of Commerce, member, Board of Trustees, 
        1995-2000.

        American Waterways Operators, Chair, Public Affairs Committee, 
        1992-1994, Port Everglades Association, member, 1987-1994.

    13. Political affiliations and activities:

    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years.
    I have never run for public office. I have been affiliated with 
political committees. I was an Alternate Delegate to the 1996 
Republican National Convention representing Broward County, Florida. I 
served on the Jeb Bush for Governor Finance Committee on his 1994,1998 
and 2002 election campaigns. I served on U.S. Senator Connie Mack's 
Finance Committee in 1988 and 1994. Additionally, I served on Tom 
Gallagher for Insurance Commissioner Finance Committee in 2000 and Tom 
Gallagher for Chief Financial Officer in Florida in 2002. In my 
capacity as Vice President of Government Relations for JM Family 
Enterprises I have participated in the RNC Eagle's and Team 100 
program, the National Republican Congressional Committee, the 
Democratic Congressional Campaign Committee, the Democratic Senatorial 
Campaign Committee, the Republican Senatorial Campaign Committee, the 
Republican Governor's Association, the Southern Legislative Conference, 
the National Conference of State Legislators and the American 
Legislative Exchange Council. I served as Treasurer of the JM Family 
Associates Political Action Committee from 1994-2002.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years.

        Tom Gallagher for Senate Campaign--$1,000

        Tom Gallagher for Chief Financial Officer Campaign--$500

        Jeb Bush for Governor 1994--$500, 1998--$1,000, 2002--$1,000

        George Bush for President 2000--$2,000

    14. Honors and awards: (List all scholarships, fellowships, 
honorary degrees, honorary society memberships, military medals and any 
other special recognitions for outstanding service or achievements.)

        U.S. Coast Guard Distinguished Civilian Service Award, 2000.

        Freedom Award, Broward Navy Days, 1998.

        Public Affairs Council First Fellow, Public Affairs Institute, 
        2002.

    15. Published writings: (List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.) None.
    16. Speeches: Provide the Committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of on topics relevant to the position for which you have been 
nominated. None.
    17. Selection:

    (a) Do you know why you were selected for the position to which you 
have been nominated by the President?
    Professional curriculum fit the required experience for the Federal 
Maritime Commission.

    (b) What in your background or employment experience do you believe 
affirmatively qualifies you for this particular appointment?
    Previous maritime experience with a U.S. diversified maritime 
company and participation in the industry at the national level and 
management and leadership experience.
                   b. future employment relationships
    1. Will you sever all connections with your present employers, 
business firms, business associations, or business organizations if you 
are confirmed by the Senate? Yes.
    2. Do you have any plans, commitments, or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain. No.
    3. Do you have any plans, commitments, or agreements after 
completing government service to resume employment, affiliation, or 
practice with your previous employer, business firm, association, or 
organization? No.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? No.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable? Yes.
                   c. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. None.
    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    I am not aware of any.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated?
    I am not aware of any.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    In my position as Vice President of Government Relations for JM 
Family Enterprises during the last nine years my responsibility was to 
advocate on behalf of the company at the local, state, and Federal 
governments positions consistent with the goals of the corporation. JM 
Family Enterprises, Inc. is a $7.8 billion diversified automotive 
company headquartered in Deerfield Beach, FL and ranked by Forbes as 
the 13th largest privately held company in the United States. In 
January 2002, it was ranked No.14 by a survey in Fortune magazine of 
the 100 Best Companies to Work For in the United States. Southeast 
Toyota Distributors, LLC, is the Nation's largest franchised 
distributor of Toyota vehicles. Other JM Family core companies include: 
World Omni Financial Corp., offering a complete range of automotive 
financial products and services and JM&A Group, providing warranty and 
insurance products and services to automobile dealerships throughout 
the country. In addition, JM Lexus is the largest volume retail 
dealership of Lexus cars and sport utility vehicles in the country.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.)
    While I am not aware of any conflicts, if one were to arise I would 
seek advice of agency counsel and if advised would recuse myself or 
take the appropriate actions to resolve the conflict.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position? Yes.
                            d. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain. No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation, or ordinance, 
other than for a minor traffic offense? If so, please explain. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    Not that I am aware of.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain. None.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination. None.
                     e. relationship with committee
    l. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Please explain how if confirmed, you will review regulations 
issued by your department/agency, and work closely with Congress, to 
ensure that such regulations comply with the spirit of the laws passed 
by Congress.
    I will faithfully follow the guidelines and protocols for reviewing 
regulations with Congress and ensuring that any regulation complies 
with the spirit of the laws passed by Congress.
    5. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                  f. general qualifications and views
    1. How does your previous professional experiences and education 
qualify you for the position for which you have been nominated?
    I believe the combination of my education and professional career 
has qualified me to serve on the Federal Maritime Commission. My nine 
years in the maritime industry where I worked for a diversified 
maritime transportation company with tanker, offshore supply vessel, 
tug and barge and tugboat operations combined with my involvement with 
major maritime trade associations have given me the necessary 
experience to serve in the capacity as Commissioner. Additionally, my 
subsequent experience with a diversified automobile company and as a 
community leader serving as the elected leader of several large 
professional and educational organizations has continued to build upon 
my experience in management and leadership of organizations.
    2. Why do you wish to serve in the position for which you have been 
nominated?
    I am honored to be considered to serve on the Federal Maritime 
Commission, in the public sector and working in an industry that is 
critical to the economic well being of our country.
    3. What goals have you established for your first two years in this 
position, if confirmed?
    I will faithfully execute the responsibilities of a Commissioner 
and the goals set forth by the Agency and the policies enacted by 
Congress for the Commission.
    4. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills?
    I believe my career has prepared me to perform the duties of this 
position.
    5. Please discuss your philosophical views on the role of 
government. Include a discussion of when you believe the government 
should involve itself in the private sector, when society's problems 
should be left to the private sector, and what standards should be used 
to determine when a government program is no longer necessary.
    I believe the role of government is to ensure the safety of its 
citizens, to provide the protection of their rights, support a national 
infrastructure, protect the environment and support a system of free 
enterprise. The government should enact laws that give clear guidelines 
with which the private sector has to operate and allow for fair market 
competition. Our laws traditionally have the intent of allowing for the 
market place to grow freely and allow for continuous development of 
free and uninhibited trade. Any program that is not supporting the 
mission of the program or the intent should be reviewed to determine if 
is effective. If the dynamics of society have changed or it has become 
outdated then it should have its mission changed, consolidated into a 
department or program that may have a similar function or de-
authorized.
    6. Describe the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated.
    The core mission is administering the 1984 Shipping Act and the 
Ocean Shipping Reform Act of 1998 which includes the protection of U.S. 
Commerce from discriminatory or unfair trade practices by foreign owned 
or controlled carriers, licensing OTI's, ensuring financial 
responsibility of cruise lines to compensate passengers in the event of 
injury or non-performance and a forum for dispute resolution between 
parties in the maritime industry.
    7. What do you believe to be the top three challenges facing the 
department/agency and why?
    Continued reluctance by the governments of our major trading 
partners to maintain a level playing field in their shipping laws and 
policies, changing dynamics of world trade patterns and the 
understanding of the mission of the Commission by the audiences it 
serves.
    8. In reference to question number six, what factors in your 
opinion have kept the department/agency from achieving its missions 
over the past several years?
    I am not sure that I am in a position to say that the Commission 
did not achieve its mission.
    9. Who are the stakeholders in the work of this department/agency?
    Domestic and international carriers, ocean transportation 
intermediaries (OTI's), the United States Senate and House of 
Representatives, the Executive Branch and all parties that might be 
regulated or influenced by the functions of the Commission.
    10. What is the proper relationship between the position to which 
you have been nominated, and the stakeholders identified in question 
number nine?
    I believe it is important to work to achieve a comprehensive 
understanding of the industry, laws and policies of the Commission and 
be a fair, impartial and interactive Commissioner in dealing with all 
matters related to the Commission and its Stakeholders.
    11. The Chief Financial Officers Act requires all government 
departments and agencies to develop sound financial management 
practices.

    (a) What do you believe are your responsibilities, if confirmed, to 
ensure that your department/agency has proper management and accounting 
controls?
    It is my understanding that the Chairman of the Commission is 
responsible for oversight and management of the finances of the 
Commission. However, I would be diligent in reviewing the annual 
operating budget and, if asked, provide insight and give input to the 
development of same. I have had extensive experience with developing 
and managing budgets and will use my professional experience, if called 
upon, to assist in this area.

    (b) What experience do you have in managing a large organization?
    I have been the Chairman of the Board and held other officer 
positions of two large organizations and have managed a multi-million 
dollar annual department budget for the past nine years.
    12. The Government Performance and Results Act requires all 
government departments and agencies to identify measurable performance 
goals and to report to Congress on their success in achieving these 
goals.

    (a) What benefits, if any, do you see in identifying performance 
goals and reporting on progress in achieving those goals?
    Measuring the performance of any organization is an important 
management tool and I am a strong believer in utilizing benchmarks and 
performance results.

    (b) What steps should Congress consider taking when a department/
agency fails to achieve its performance goals? Should these steps 
include the elimination, privatization, downsizing, or consolidation of 
departments and/or programs?
    I believe that the Agency should be reviewed by the appropriate 
committee(s) and a determination should be made based on the dynamics 
that caused the agency not to perform.

    (c) What performance goals do you believe should be applicable to 
your personal performance, if confirmed?
    I believe performance standards for individual Commissioners are 
related to the overall performance of the organization. Meeting the 
goals of the organization should be directly correlated to the overall 
performance of the Commission.
    13. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you?
    I believe in a relationship that allows for personal growth of 
employees by providing leadership, delegating responsibility, setting 
performance standards and allowing the employee to thrive in an esprit 
de corps atmosphere. I have never had any employee complaints against 
me.
    14. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with committees of 
Congress? If yes, please explain.
    I have had many work related and personal relationship with 
Congress including my employ in Congress. I have maintained many 
relationships with current and former Members of Congress. I have 
worked with Committees on several issues over the last 20 years in my 
professional capacity as Director of Public Affairs for Hvide Marine, 
Inc. and Vice President of Government Relations for JM Family 
Enterprises, Inc. and its subsidiary companies.
    15. Please explain what you believe to be the proper relationship 
between yourself, if confirmed, and the Inspector General of your 
department/agency.
    I believe that there is a proper balance between the actual 
operation of an agency and the oversight of an agency including the 
role of an Inspector General. I would work with any requests from an 
Inspector General and treat them with respect in their effort to carry 
out their responsibilities.
    16. In the areas under the department/agency's jurisdiction to 
which you have been nominated, what legislative action(s) should 
Congress consider as priorities? Please state your personal views.
    The Ocean Shipping Reform Act of 1998 addressed many, if not most, 
of the current issues related to the FMC and its responsibilities. The 
maritime industry has been, like most industries, impacted by the rapid 
change in technology and the dynamics of world events. The recent 
changes by Congress have been effective in addressing these changes. 
This was summarized in a Notice of Inquiry on the impact of OSRA and 
the resulting published report in September 2001.
    17. Within your area of control, will you pledge to develop and 
implement a system that allocates discretionary spending in an open 
manner through a set of fair and objective established criteria? If 
yes, please explain what steps you intend to take and a time frame for 
their implementation. If not, please explain why.
    From the information that I have been provided and easy access to 
public information that the public has to public agencies and 
government, I think the process for discretionary spending is very 
transparent and available to both the internal (Congress) and external 
(the public) audiences of the agency. Having stated this, I will work 
within the structure of the Commission to act in a manner that is 
ethically and fiscally prudent with respect to discretionary spending.

    The Chairman. Thank you very much.
    Governor Brennan?

    STATEMENT OF HON. JOSEPH E. BRENNAN, NOMINATED TO BE A 
           COMMISSIONER, FEDERAL MARITIME COMMISSION

    Governor Brennan: Thank you very much, Mr. Chairman. It's a 
pleasure to appear before you as a nominee for the Federal 
Maritime Commission. I have served on this Commission since 
1999, and I welcome the opportunity to continue in a second 
term. Today, I have some very brief comments.
    The Commission is an independent agency that regulates 
common carriers in the foreign water-borne commerce of the 
United States. The industry regulated by the Commission is 
important, clearly, to this economy. Some $500 billion worth of 
goods are moved annually in containers going in and out of this 
country.
    The Commission has numerous functions. For example, the 
Commission has the authority to take counteraction when the 
laws or policies of a foreign government unfairly and adversely 
U.S. shipping. Recently, the Commission has evaluated certain 
maritime practices in China, such as access to inland points. 
Last December, the Bush Administration signed a new bilateral 
maritime agreement with China, and this agreement may end these 
unfair practices in China. Although the Commission is an 
independent agency, I believe it should give strong 
consideration when dealing with restrictive maritime practice 
of other nations to the views of the Executive Branch which 
guides U.S. foreign policy.
    The Commission also investigates possible statutory 
violations, such as mis-descriptions of cargo in operation 
without a bond, license, or tariff. It ensures that passenger 
vessel operators have adequate funds to compensate passengers 
in the event of nonperformance or injury. Furthermore, the 
Commission protects against carrier agreements that might take 
undue advantage of the antitrust exemption given to ocean 
carriers.
    There are also, before the Commission, several exemption 
petitions filed by non-vessel operating common carriers. The 
petitions ask for an exemption from tariff publication or the 
ability to enter into confidential contracts, just as vessel 
operating carriers do. I believe the Commission recognizes the 
important role that NVOs play in the industry, and the 
significance of the changes sought by these exemption 
petitions. The Commission is thoroughly reviewing the petitions 
and some 500 comments in the record, and is examining all of 
its options under the law.
    In closing, I would like to note that while the two 
nominees today for the Federal Maritime Commission are a 
Democrat, and my friend, Paul Anderson, a Republican, the 
Commission acts as a truly nonpartisan body, especially when 
compared to the time I spent in the state legislature and in 
the Congress. In fact, being on the Commission is most like the 
4 years I spent as attorney general of Maine, where you just, 
sort of, call them down the middle.
    I want to thank you very much for considering my 
nomination. I'd be delighted to try to respond to any 
questions.
    [The prepared statement and biographical information of 
Governor Brennan follow:]

      Prepared Statement of Hon. Joseph E. Brennan, Commissioner, 
                      Federal Maritime Commission
    Mr. Chairman and members of the Committee, it is a pleasure to 
appear before you as a nominee for the Federal Maritime Commission. I 
have served on the Commission since 1999 and would welcome the 
opportunity to continue for a second term. Today I have some brief 
comments on the overall role of the Commission.
    The Federal Maritime Commission is an independent agency that 
regulates common carriers in the foreign waterborne commerce of the 
U.S. This industry regulated by the Commission is important to the 
United States economy. Some $500 billion worth of goods move annually 
in containers shipped to and from U.S. ports.
    The Commission has numerous functions. For example, the Commission 
has the authority to take counteraction when the laws of a foreign 
government unfairly and adversely affect U.S. shipping. Recently the 
Commission has evaluated certain maritime practices in China, such as 
access to inland points. Last December the administration signed a new 
bilateral maritime agreement with China, and this agreement may end the 
alleged unfair practices in China. Although the Commission is an 
independent agency, I believe it should give strong consideration, when 
dealing with restrictive maritime practice of other nations, to the 
views of the executive branch, which guides U.S. foreign policy.
    The Commission also investigates possible statutory violations, 
such as misdescriptions of cargo and operation without a bond, license, 
or tariff. It ensures that passenger-vessel operators have adequate 
funds to compensate passengers in the event of nonperformance or 
injury. Furthermore, the Commission protects against carrier agreements 
that might take undue advantage of the antitrust exemption given to 
ocean carriers.
    There are also before the Commission several exemption petitions 
filed by non-vessel-operating common carriers. The petitions ask for an 
exemption from tariff publication or the ability to enter into 
confidential contracts, just as vessel-operating carriers do. I believe 
the Commission recognizes the important role that NVOs play in the 
industry and the significance of the changes sought by these exemption 
petitions. The Commission is thoroughly reviewing the petitions and the 
some 500 comments in the record and is examining all of its options 
under the law.
    In closing, I would like to note that, while the two nominees today 
for the Federal Maritime Commission are a Democrat and a Republican, 
the Commission acts as a truly non-partisan body, especially when 
compared to the time I spent in the state legislature and in the 
Congress. In fact, being on the Commission is most like the four years 
I served as attorney general in Maine, where you just call them down 
the middle. Thank you for considering my nomination. I would be happy 
to answer any questions.
                                 ______
                                 
                      a. biographical information
    1. Name: (Include any former names or nicknames used.) Joseph 
Edward Brennan (Joe).
    2. Position to which nominated: Commissioner of the Federal 
Maritime Commission.
    3. Date of nomination: March 12, 2004.
    4. Address: (List current place of residence and office addresses.)

        Residence: Information not released to the public.
        Office: Federal Maritime Commission, 800 North Capitol Street, 
        N.W., Suite 1032, Washington, DC 20573.

    5. Date and place of birth: 11/2/34; Portland, Maine.
    6. Marital status: (Include maiden name of wife or husband's name.)
    Married to Constance LaPointe Brennan.
    7. Names and ages of children: (Include stepchildren and children 
from previous marriages.)
    Joseph E. Brennan, Age 34; Tara E. Brennan, Age 32.
    8. Education:(List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.)

        Cheverus High School, Diploma, 1948-1952

        Boston College, B.S., 1952-53, 1955-1958

        University of Maine School of Law, J.D., 1960-63

    9. Employment record:(List all jobs held since college, including 
the title or description of job, name of employer, location of work, 
and dates of employment.)

        United States Army, 1953-55

        Teacher, Oxford High School, Oxford, Maine, 1959

        Sales representative, P. Lorrilard Co. Portland, Maine, 1959-60

        Operator of beach concession, self-employed, 1961-62

        Library aide, Univ. of Maine School of Law library, 1960-63

        Solo legal practice, Portland, Maine, 1963-73

        State representative, Maine House of Representatives, 1965-71

        County attorney, Cumberland County, Maine, 1971-73

        State senator, Maine State Senate, 1973-74

        State attorney general, State of Maine, 1974-78

        Governor of Maine, 1979-86

        Member of Congress, U.S. House of Representatives, 1987-91

        Of counsel attorney, Verner Liipfert, Washington, D.C., 1991-94

        Commissioner, Federal Maritime Commission, 1999 to present

    10. Government experience: (List any advisory, consultative, 
honorary or other part-time service or positions with federal, state, 
or local governments, other than those listed above.)

        State representative, Maine House of Representatives, 1965-71

        County attorney, Cumberland County, Maine, 1971-73

        State senator, Maine State Senate, 1973-74

        State attorney general, State of Maine, 1974-78

        Governor of Maine, 1979-86

        Member of Congress, U.S. House of Representatives, 1987-91

    11. Business relationships:(List all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.) None.
    12. Memberships:(List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.)

        Maine Bar Association American Legion Amvets

        Irish-American Society

        Cathedral of the Immaculate Conception Parish

    13. Political affiliations and activities:

    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    I have held no office in a political party. I have been a candidate 
and elected to all offices listed for Question 10. I have also been a 
candidate for the U.S. Senate.

    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years.
    I have been a member of the Democratic Party and have supported 
candidates of my . party for 40 years, but I have held no office in the 
Party.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of$500 or more for the past 10 years.
    None of $500 or more.
    14. Honors and awards: (List all scholarships, fellowships, 
honorary degrees, honorary society memberships, military medals and any 
other special recognitions for outstanding service or achievements.)
    I have received honorary degrees or awards from the following 
institutions:

        Bowdoin College

        University of Maine

        St. Joseph's College

        University of New England

        Thomas College

        Boston College Alumni Award

        Military medal--National Defense Medal and Good Conduct. U.S. 
        Army, 1953-55

    15. Published writings: (List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.)
    During a number of campaigns for public office, various op-ed 
pieces of mine were published, none dealing with the Federal Maritime 
Commission.
    16. Speeches: Provide the Committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of on topics relevant to the position for which you have been 
nominated.
    I have attached two copies of the three speeches that I have given 
on the topic of the Federal Maritime Commission:

        (1) Remarks before the National Customs Brokers and Forwarders 
        Association of America, Inc., Tucson, Arizona, March 14, 2000.

        (2) Remarks before conference of Lloyd's List Events on 
        Mediterranean Sea Transport and Logistics, Marseille, France, 
        November 12, 2002.

        (3) Remarks in briefings of International Management and 
        Development Institute, Copenhagen, Denmark, April 24, 2003, and 
        Oslo, Norway, April 25, 2003.

    17. Selection:

    (a) Do you know why you were selected for the position to which you 
have been nominated by the President?
    I was interested in continuing to serve on the Commission, and I 
believe that the President was advised that I could serve effectively.

    (b) What in your background or employment experience do you believe 
affirmatively qualifies you for this particular appointment?
    I have served as a commissioner of the Federal Maritime Commission 
since November 17, 1999. Before that time, I served four years in the 
U.S. House of Representatives on the Committee for Merchant Marine and 
Fisheries, which had certain oversight responsibilities over the 
maritime industry. I have also have substantial public policy 
experience as a district attorney, attorney general, and governor of 
Maine.
                   b. future employment relationships
    1. Will you sever all connections with your present employers, 
business firms, business associations, or business organizations if you 
are confirmed by the Senate? Yes.
    2. Do you have any plans, commitments, or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, please explain. No.
    3. Do you have any plans, commitments, or agreements after 
completing government service to resume employment, affiliation, or 
practice with your previous employer, business firm, association, or 
organization? No.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? No.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable?
    I intend to serve the full term.
                   c. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. None.
    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated. None.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated. None.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    From 1991-94, I was with the law firm of Verner Liipfert Bernhard 
McPherson Hand of Washington, D.C. During that period, I occasionally 
met with members of Congress on issues such as a space station, 
possible asbestos legislation, and consumer issues. To the best of my 
knowledge, none of these meetings dealt with the responsibilities of 
the Federal Maritime Commission.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.)
    There are none.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position? Yes.
                            d. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain. No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation, or ordinance, 
other than for a minor traffic offense? If so, please explain.
    I have never been convicted of a crime. I have never been charged 
with a crime.
    Approximately 50 years ago, as a teenager, I was detained by the 
police. There were no charges filed, no court action, and no conviction 
record. This may have taken place before my 18th birthday.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    Yes. (1) Spickler v. Brennan. Alleged that I illegally attached 
real estate. Dismissed upon summary judgment motion; found to be 
without merit. (2) Brennan v. Brennan. Divorce proceedings; resolved 
amicably. Sept. 22, 1976. Both of above suits were brought in 
Cumberland County Superior Court, Portland, Maine.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain. No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination.
    I am not aware of any unfavorable information. I believe that my 
background as listed in answer to Questions A.9 and A.17 may speak to 
favorable information.
                     e. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees?
    Yes, to the best of my ability.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures?
    Yes, to the best of my ability.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Please explain how if confirmed, you will review regulations 
issued by your department/agency, and work closely with Congress, to 
ensure that such regulations comply with the spirit of the laws passed 
by Congress.
    I will work with the agency's executive director and all staff to 
assess the effectiveness of the agency's regulations in terms of both 
the letter and the spirit of the law. I will also encourage the 
agency's continued efforts to inform Congress of the agency's 
regulatory functions by means of reports and congressional testimony.
    5. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                  f. general qualifications and views
    1. How does your previous professional experiences and education 
qualify you for the position for which you have been nominated?
    I served four years in the U.S. House of Representatives as a 
member of the Subcommittee on Merchant Marine and Fisheries. I also 
have substantial experience in public policy as a state legislator, 
state attorney general, governor, and member of Congress.
    2. Why do you wish to serve in the position for which you have been 
nominated?
    I have had a long and very active interest in public policy. I 
believe that I can use my experience in Congress and other high 
government positions, as well as my experience in the practice of law, 
to make a positive contribution to carrying out the mission of the 
Federal Maritime Commission.
    3. What goals have you established for your first two years in this 
position, if confirmed?
    My basic goal would be to carry out the mandate of the Commission 
as set out by Congress. In broad terms, this involves insuring a fair, 
efficient, and competitive system of oceanborne transportation in the 
foreign commerce of the United States.
    4. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills?
    I am not aware of any.
    5. Please discuss your philosophical views on the role of 
government. Include a discussion of when you believe the government 
should involve itself in the private sector, when society's problems 
should be left to the private sector, and what standards should be used 
to determine when a government program is no longer necessary.
    I believe that government should not be involved in matters that 
freely acting individuals can best take care of themselves. I also 
recognize that government does have a responsibility to help those in 
need, such as the elderly, the disabled, and children. Government 
recognizes this responsibility today with Social Security, Medicare, 
and programs that help children of low-income families.
    I think government has a role in assuring a safe workplace for its 
citizens, and I believe it is meeting that responsibility.
    I think that government involvement can go too far. For example, in 
my home state of Maine, the state used to operate liquor stores. I 
believe that the private sector is capable of selling liquor under 
appropriate regulation that protects against sales to minors or visibly 
intoxicated people.
    I think that government can help business by guaranteeing loans to 
business. This has been done in Maine to help create economic 
development and jobs.
    Before we enact legislation or adopt a regulation, the question 
must first be asked, ``Is this law or regulation necessary?'' Then a 
second question should be, ``Will the burden imposed by the proposed 
law or regulation outweigh the good that might be done?'' The test must 
be one of balance. This same standard--whether the burden imposed 
outweighs the good intended--should also be used to weigh whether or 
not an existing law or regulation should be repealed.
    In short, government should become involved in the private sector 
when the private sector is not itself protecting the public interest, 
public health, and public safety, and we must always be cognizant of 
the balance between the burden imposed and the good intended.
    6. Describe the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated.
    The Commission insures reasonable commercial practices by shippers, 
common carriers, transportation intermediaries, and marine terminal 
operators in the foreign oceanborne commerce of the U.S. The FMC is 
working to prevent anticompetitive practices and certain other 
commercial conduct prohibited by the Shipping Act of 1984 and other 
statutes administered by the agency. Because the law gives ocean common 
carriers a limited immunity from the antitrust laws, the Commission 
must monitor conference agreements and discussion agreements entered 
into by ocean common carriers. If an ocean carrier agreement is likely, 
by a reduction in competition, to produce an unreasonable reduction in 
transportation service or an unreasonable increase in transportation 
cost, the Commission may seek to prevent the agreement from taking 
effect. The Commission also licenses ocean transportation 
intermediaries and requires that certain passenger vessel operators 
prove adequate financial ability to pay judgments for personal injury 
or death of passengers or to repay fares in the event of 
nonperformance.
    7. What do you believe to be the top three challenges facing the 
department/agency and why?
    I believe the main challenges for the Commission are the petitions 
filed by ocean transportation intermediaries seeking exemptions from 
various provisions of the Shipping Act of 1984, the rulemaking on 
changing the level of financial security for the passenger vessel 
security program, and the rulemaking that would change the agency's 
rules as to the filing of carrier agreements. These are all key areas 
of the Commission's work.
    8. In reference to question number six, what factors in your 
opinion have kept the department/agency from achieving its missions 
over the past several years?
    I believe the Commission has been able to achieve its mission in 
recent years. The Commission has, for example, carefully scrutinized 
possible unfair shipping practices in the People's Republic of China, 
as well as laws and regulations relating to Japanese ports. Both 
matters are the subject of pending rulemakings at the agency. The 
Commission continues to review information reports filed by Japanese 
and U.S.-flag carriers on the effects of Japanese port practices and 
changes to Japanese laws and regulations. The Commission has also been 
effective in monitoring U.S. ocean shipping to uncover any unreasonable 
or otherwise prohibited practices under the Shipping Act of 1984. In 
the past Fiscal Year, the Commission collected approximately $3 million 
in fines and penalties.
    9. Who are the stakeholders in the work of this department/agency?
    The main stakeholders are vessel-operating carriers, non-vessel-
operating common carriers, freight forwarders, shippers, marine 
terminal operators, and U.S. consumers generally.
    10. What is the proper relationship between the position to which 
you have been nominated, and the stakeholders identified in question 
number nine?
    The Federal Maritime Commission has a quasi-judicial role with 
regard to complaints before the Commission and a quasi-legislative 
function regarding the promulgation of regulations. Commissioners make 
decisions based on Federal law, and those decisions affect the daily 
operations of industry participants.
    11. The Chief Financial Officers Act requires all government 
departments and agencies to develop sound financial management 
practices.
    (a) What do you believe are your responsibilities, if confirmed, to 
ensure that your department/agency has proper management and accounting 
controls?
    I would not have a direct role in this area, because the Chairman 
of the Federal Maritime Commission is responsible for the financial 
management of the agency. I would support his or her efforts to use the 
financial resources of the agency most efficiently.
    (b) What experience do you have in managing a large organization?
    1 have managed organizations of considerable size and complexity as 
the county attorney for Cumberland County in Maine (1971-73), attorney 
general of Maine (1974-78), and governor of Maine (1979-86).
    12. The Government Performance and Results Act requires all 
government departments and agencies to identify measurable performance 
goals and to report to Congress on their success in achieving these 
goals.
    (a) What benefits, if any, do you see in identifying performance 
goals and reporting on progress in achieving those goals?
    While the Commission's functions are determined by statute, the 
identification of performance goals, as well as reports to Congress on 
the success in achieving those goals, can help the agency and Congress 
to assess the agency's overall performance. Such goals and reporting 
may lead to a more efficient regulatory process, increased compliance 
with the law, fair and efficient enforcement, better use of technology, 
and more efficient management of the agency.

    (b) What steps should Congress consider taking when a department/
agency fails to achieve its performance goals? Should these steps 
include the elimination, privatization, downsizing, or consolidation of 
departments and/or programs?
    The latter steps are available to Congress as possible remedies for 
failed performance by a department or agency. Elimination, downsizing, 
etc. may be warranted in some circumstances, while in others a lack of 
funding or personnel may be the cause of failed agency performance. I 
believe that Congress should take action that addresses the problem at 
issue, dealing with each case individually.

    (c) What performance goals do you believe should be applicable to 
your personal performance, if confirmed?
    I believe that, broadly speaking, my performance goals are to 
administer relevant Federal laws and regulations impartially and, where 
appropriate, to improve the fair and efficient administration of the 
law and public policy.
    13. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you?
    I believe that it is essential to hire and to promote the best 
people one can find. I think it is critical to listen to staff and to 
support them, but also to remember that it is ultimately my 
responsibility as a commissioner to carry out my independent judgment. 
I believe it is important to publicly recognize quality work by staff 
and likewise to address promptly any work that is not of the quality 
that the people of the United States have a right to expect from their 
public servants. To the best of my knowledge, no employee complaint has 
been brought against me during my some 30 years in high-level, 
supervisory positions.
    14. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with committees of 
Congress? If yes, please explain.
    I served four years in the U.S. Congress, where I was privileged to 
work with numerous members, many of whom still serve in Congress.
    15. Please explain what you believe to be the proper relationship 
between yourself, if confirmed, and the Inspector General of your 
department/agency.
    As a commissioner, I am available to assist the Office of the 
Inspector General in its monitoring of the efficiency, effectiveness, 
and any abuse in the programs of the Commission. Fair consideration 
must be given to any recommendations presented by the IG for the 
management and operations of the agency.
    16. In the areas under the department/agency's jurisdiction to 
which you have been nominated, what legislative action(s) should 
Congress consider as priorities? Please state your personal views.
    The level of financial security for nonperformance by a passenger 
vessel is a regulatory matter, but the amount of casualty coverage is 
set by statute. Congress may wish to consider increasing the level of 
coverage for casualty (death or injury during a cruise) or allowing the 
Commission to establish an adequate level by rule. The statute 
currently sets casualty coverage for cruise lines at $20,000 (46 U.S.C. 
App. 817d). This level of coverage may be inadequate to compensate 
passengers who suffer death or injury on a cruise.
    17. Within your area of control, will you pledge to develop and 
implement a system that allocates discretionary spending in an open 
manner through a set of fair and objective established criteria? If 
yes, please explain what steps you intend to take and a time frame for 
their implementation. If not, please explain why.
    I believe that such matters are outside of my area of control. The 
chairman of the Federal Maritime Commission is charged with the fair 
and objective allocation of discretionary spending, and I can assist 
him or her in that function as needed.

    The Chairman. Thank you, Governor.
    Mr. McGregor?

STATEMENT OF JACK E. McGREGOR, NOMINATED TO BE A MEMBER OF THE 
                ADVISORY BOARD, SAINT LAWRENCE 
                 SEAWAY DEVELOPMENT CORPORATION

    Mr. McGregor. Chairman McCain, Senator Hollings, and 
Members of the Committee, it's an honor to be here before you. 
Thank you for the opportunity to meet with you as you consider 
my nomination by President Bush to the Advisory Board of the 
Saint Lawrence Seaway Development Corporation.
    My background includes four different corporate leadership 
positions, nine years of public service, extensive experience 
with regulatory and administrative processes, familiarity with 
some transportation issues, and active strategic planning 
participation on several boards of substantial institutions and 
companies, all over a professional career encompassing 41 
years.
    If confirmed, my goals will be to work with fellow board 
members, the Seaway Development Corporation's administrator, 
and Members of Congress to help ensure the long-term safety, 
security, reliability, competitiveness, and enhancement of 
trade development of the Saint Lawrence Seaway.
    The seaway is nearly 50 years old, and has experienced 
diminishing traffic in recent years. It is my hope that, with 
fellow board members and the agency's leadership, we can help 
develop a roadmap for the waterway's next 50 years.
    I'll be pleased to respond to any questions you and your 
colleagues may have, Mr. Chairman.
    [The prepared statement and biographical information of Mr. 
McGregor follow:]

  Prepared Statement of Jack E. McGregor, Nominee for Advisory Board, 
             Saint Lawrence Seaway Development Corporation
    Chairman McCain, Senator Hollings, and members of the Committee, it 
is an honor to be here before you. Thank you for the opportunity to 
meet with you as you consider my nomination by President Bush to the 
Advisory Board of the Saint Lawrence Seaway Development Corporation.
    My background includes four different corporate leadership 
positions, nine years of public service, extensive experience with 
regulatory and administrative processes, a familiarity with some 
transportation issues, and active strategic-planning participation on 
several Boards of substantial institutions and companies, all over a 
professional career encompassing 41 years.
    If confirmed, my goals will be to work with fellow Board members, 
the Seaway Development Corporation's Administrator, and members of 
Congress to help ensure the long-term safety, security, reliability, 
competitiveness, and enhancement of trade development of the Saint 
Lawrence Seaway.
    The Seaway is nearly 50 years old, and has experienced diminishing 
traffic in recent years. It is my hope that with fellow Board members 
and the agency's leadership, we can help develop a roadmap for the 
waterway's next 50 years.
    I will be pleased to answer any questions you and your colleagues 
may have, Mr. Chairman.
                                 ______
                                 
                      a. biographical information
    1. Name: (Include any former names or nicknames used.) Jack Edwin 
McGregor.
    2. Position to which nominated: Advisory Board Member, St. Lawrence 
Seaway Development Corporation.
    3. Date of nomination: November 25, 2003.
    4. Address: (List current place of residence and office addresses.)

        Residence: Information not released to the public.
        Office: 1115 Broad Street, Bridgeport, CT 06604

    5. Date and place of birth: September 22, 1934; Kittanning; PA.
    6. Marital status: Married, Mary-Jane Foster.
    7. Names and ages of children: (Include maiden name of wife or 
husband's name.)

        Nancy D. McGregor, 45; Douglas H. McGregor, 44; Elisabeth M. 
        Ives, 43; Heather M. Worthington, 41.
        Stepchildren: DeVer F. Warner, 19; Margaret R. Warner, 17.

    8. Education: (List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.)

        Wilkinsburg High School, 1949-52, Academic, June 1952

        Yale University, 1952-56, B.S., June 1956

        University of Pittsburgh School of Law, 1959-62, LL.B., June 
        1962

    9. Employment Record: (List all jobs held since college, including 
the title or description of job, name of employer, location of work, 
and dates of employment.)

        1956-59--Second and then First Lieutenant, U.S. Marine Corps.; 
        Quantico VA, Camp LeJeune NC, U.S. Navy 6th Fleet (Atlantic and 
        Mediterranean), Arlington VA

        1959-61--Captain, U.S. Marine Corps Reserve

        1959-62--Pitt Law Library Staff Assistant (part-time while in 
        law school)

        1960--Rockwell Manufacturing Co., Pittsburgh, PA--summer 
        research intern

        1961--Alcoa, Pittsburgh, PA--summer research intern

        1962-70--State Senator, Commonwealth of Pennsylvania, 
        Harrisburg, PA

        1962-68--Associate, law firm of Reed Smith, Pittsburgh, PA

        1966-70--President, Pittsburgh Penguins, Pittsburgh, PA

        1970-71--Associate, Reed Smith, Washington, D.C.

        1971--Assistant Legal Adviser, U.S. Department of State

        1972--General Counsel, U.S. Pay Board, U.S.. Office of Economic 
        Stabilization

        1972-74--General Counsel and then Vice President and General 
        Counsel, Potomac Electric Power Company, Washington, D.C.

        1974-79--Vice President and General Counsel and then Executive 
        Vice President and Chief Operating Officer, Carey Energy Corp. 
        and New England Petroleum Corp., New York, NY

        1979-85--President, Hampton-Douglas Corp., International Water 
        Resources, Ltd., and Caribbean Basin Corp., all in Bedford, NY 
        and New York, NY

        1985-95--Executive Vice President, then President and Chief 
        Operating Officer, then President and C.E.O. of Aquarion 
        Company (formerly The Hydraulic Company), Bridgeport, CT

        1995 to present--Of Counsel, law firm of Cohen and Wolf, P.C., 
        Bridgeport, Connecticut

    10. Government experience: (List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.)

        Borough of Forest Hills, PA, Election Board Member, 1960-62

        Pennsylvania Arts Commission, 1966-70

        Director, N.Y.C. Off-Track Betting Corp., 1978-81

        Member, State of Connecticut's Team Bridgeport, 1995-96

        see Paragraph 9 above, 1956-59 and 1962-72

    11. Business relationships: (List all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.)

        Governor, National Hockey League

        President and Director, Pittsburgh Penguins Hockey Club

        Trustee, Barnum Museum

        Trustee, Greater Bridgeport YMCA

        Trustee, Mystic Aquarium

        Director, N.Y.C. Off-Track Betting Corp.

        President and Director, National Association of Water Companies

        Trustee, Seven Springs, Inc.

        Trustee, Point Park College

        Trustee, Fairfield University

        Trustee, University of Bridgeport

        Trustee, Yale-New Haven Hospital

        Trustee, Western Pennsylvania School for the Deaf

        General Counsel and later Vice President, Potomac Electric 
        Power Company

        General Counsel and later Executive Vice President and Chief 
        Operating Officer, Carey Energy Corp. and New England Petroleum 
        Corp.

        President, Hampton-Douglas Corp.

        President, International Water Resources, Ltd.

        President, Caribbean Basin Corp.

        Chairman and Director, Bridgeport Regional Business Council

        Director, The Bank Mart

        Director, People's Bank

        Director, Bay State Gas Company

        Director, Physicians Health Services, Inc.

        President and COO, later CEO, Bridgeport Hydraulic Company

        Executive Vice President, later Chief Operating Officer, then 
        President and CEO, Director, The Hydraulic Company, later 
        Aquarion Company

        Director, Aquarion Water Company; Director, CDG Technology, 
        Inc.

        Director, Connecticut Committee of Regional Planning 
        Association; Director, Atlantic League of Professional Baseball 
        Clubs, Inc.

        Managing Member, Bridgeport Bluefish Professional Baseball 
        Club, LLC

        Managing Member, Bridgeport Waterfront Investors, LLC

        Managing Member, Freeborn Investors LLC

        Managing Member, Westchester Baseball LLC

    12. Memberships: (List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.)

        Connecticut Bar Association

        District of Columbia Bar Association

        Greater Bridgeport Bar Association

        Allegheny County Bar Association

        Pennsylvania Bar Association

        American Bar Association; Delta Kappa Epsilon
        Aspetuck Fish and Game Club

        Skull and Bones; Mory's Association

        Congregational Church of Easton

        St. Timothy's Episcopal Church of Fairfield

        Edgewood Presbyterian Church

        Chevy Chase Presbyterian Church

        Greenfield Hill Congregational Church

        Bedford Presbyterian Church

        Marine Corps League

        Order of the Coif

        Country Club of Fairfield

        Chevy Chase Club

        Brooklawn Country Club

        Connecticut Golf Club

        Bedford Golf and Tennis Club

        Columbia Country Club

        Edgewood Country Club

        Racquet & Tennis Club

        Yale Club of NYC

        Yale Club of Western Pennsylvania

        Edgewood Community Club

        F Street Club

    13. Political affiliations and activities:

    (a) Offices held--Pennsylvania State Senator, 1962-70; Member, 
Forest Hills Election Board, 1960-62

    (b) Memberships and offices held in political parties or election 
committees in last 10 years--Member, Republican Party; Vice Chairman, 
Congressman Christopher Shays Finance Committee; Member, Re-Elect 
Governor Rowland Finance Committee; Co-Chairman, Governor-Elect Rowland 
Transition Committee; Member, Re-Elect Lt. Governor Rell Finance 
Committee; Member, Torres Finance Committee; Member, Connecticut 
Republicans Finance Committee

    (c) Political contributions aggregating $500 or more from 1994 to 
date:

        Americans for Common Sense Gov't PAC (Shays) $5,000

        Aquarion PAC (Aquarion Water Co.) $2,740

        Big Tent PAC (Specter) $500

        BridgePac (Bridgeport GOP) $3,000

        Committee for Responsible Gov't PAC (Whitman) $1,000

        NAWC PAC (Nat'l Ass'n of Water Cos.) $1,400

        Amicone for Mayor $2,500 (Jt.Ckg.); $2,500

        Bernhard for State Rep. $500

        Blumenthal for A.G. $500 (Jt.Ckg.); $250

        Boyle for Probate Court $500

        Burnham for Senate $900

        Bush-Cheney Recount Fund $1,000

        Bush for President $3,000

        Caruso for Probate Court $1,100

        CT Republican Federal Campaign Committee $2,600

        CT Republicans $20,150

        Curwen for State Rep. $500

        Dole for President $1,000

        Easton Republicans $525

        Friends of Giuliani $1,000

        Ganim for Mayor $1,000 (Jt.Ckg.); $2,400

        Guman for Mayor $500 (Jt.Ckg.); $250

        Hammers for State Senate $500

        Harkins for State Rep. $525

        Hastert for Congress $500

        Hatch for President $1,000

        Hatch for Senate $2,500

        Jeffords for Senate $2,000

        Johnson for Congress $500

        Kemp for Vice President $500

        Larson for Congress $600 (Jt.Ckg.); $100

        Lazio for Senate $750

        Lieberman for President $1,000

        Maloney for Congress $750 (Jt.Ckg.); $400

        Martensen for City Council $1,000

        McKinney for State Senate $1,250

        Metsopoulus for 1st Selectman $1,050

        Mulrow for Comptroller $2,000 (Jt.Ckg.); $1,500

        National Republican Senatorial Committee $6,350

        Newton for State Rep. $250 (Jt.Ckg.); $250

        Nielsen for Congress $4,250

        Norton for Congress $1,000

        O'Connor for Congress $500

        Pataki for Governor $1,000 (Jt.Ckg.); $1,000

        Penn for State Senate $750 (Jt.Ckg.); $1,700

        Rell for Lt. Governor $450 (Jt.Ckg.); $2,825

        Republican Governors Association $1,000

        Republican National Committee $2,430

        Republican Senatorial Inner Circle $1,500

        Restiano for Mayor $2,000 (Jt.Ckg.); $500

        Rowland for Governor $1,000 (Jt.Ckg.); $7,350

        Scarpetti for State Senate $500

        Schiavone for Mayor $500

        Shays for Congress $1,500 (Jt.Ckg.); $7,300

        Simmons for Congress $900

        Spano for County Exec.$750 (Jt.Ckg.)

        Specter for Senate $2,000

        Stone for State Rep. $525

        Torres for Mayor $2,250

    14. Honors and awards: (List all scholarships, fellowships, 
honorary degrees, honorary society memberships, military medals and any 
other special recognitions for outstanding service or achievements.)

        Honorary Doctor of Laws, Quinnipiac University

        Entrepreneur of the Year, Greater Bridgeport Junior Chamber of 
        Commerce

        Good Scout Award, Eastern Fairfield County, Boy Scouts of 
        America

        University of Pittsburgh Medallion of Distinction

        Member, President Reagan's Business Task Force to Grenada

        Businessman of the Year, Allegheny County;

        Order of the Coif

        Outstanding State Legislator (Rutgers Univ.). Scholarships 
        included Regular NROTC and Yale Club of Pittsburgh, to Yale, 
        and full scholarship from University of Pittsburgh School of 
        Law

    15. Published Writings: (List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.)

        Note--Broadcast Licensee's Past Conduct as a Determinant of the 
        Public Interest, 23 University of Pittsburgh Law Review 157-171

        Book Note--Andrew Johnson, President on Trial, 23 University of 
        Pittsburgh Law Review 256-57

        Recent Decision: Taxation--Bond Premium Amortization Deduction, 
        22 University of Pittsburgh Law Review 639-43

        Article--Problems of U.S. Participation in the European Common 
        Market, Co-Author, U.S. Participation and the Constitution, 23 
        University of Pittsburgh Law Review 637-58.
    During the course of forty-one professional years, I have written 
occasional letters to the editor of local newspapers responding to 
assorted issues.
    16. Speeches: Provide the Committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of on topics relevant to the position for which you have been 
nominated.
    None on topics relevant to the position for which I have been 
nominated.
    17. Selection:

    (a) Do you know why you were selected for the position to which you 
have been nominated by the President?
    My understanding is that I was selected for this position because 
of my prior experience of nine years of public service, my familiarity 
with transportation issues relating to petroleum products, my extensive 
experiences with regulatory and administrative processes, and my 
participation on 27 different Boards of substantial institutions and 
companies over a professional career encompassing 41 years.

    (b) What in your background or employment experience do you believe 
affirmatively qualifies you for this particular appointment?
    In my 8 years service as a Pennsylvania State Senator and chairman 
of the Senate's Federal Relations Committee, I was actively involved in 
Great Lake States Compact initiatives. In my 4 years with the National 
Hockey League, I interfaced with several Canadian industry and 
government leaders. In my 3 years in the electric utility industry and 
10 years in the drinking water industry, I was actively engaged in many 
administrative and regulatory proceedings. In my one year with the 
Federal Government, I was actively engaged in administrative rule 
making proceedings. In my 5 years in the oil industry and then 7 years 
of active involvement in oil-related projects, I was regularly exposed 
to maritime transportation matters. My participation on 27 different 
Boards as a director or trustee of substantial institutions and 
companies over a professional career encompassing 41 years also 
affirmatively qualifies me for this position. My exposure to and 
experience with environmentally sensitive economic projects in 3 
different northeastern states adds a timely dimension to my 
qualifications. Finally, my experience in supervising military and law 
enforcement personnel is another added dimension of my relevant 
experiences.
                   b. future employment relationships
    1. Will you sever all connections with your present employers, 
business firms, business associations, or business organizations if you 
are confirmed by the Senate?
    It has been my understanding that I need not sever my of Counsel 
relationship with my law firm nor my Managing Member relationships with 
my two investment/development firms should I be confirmed for this 
Advisory Board position. Should the Senate be of a different view, I 
would have to reconsider my availability for this position.
    2. Do you have any plans, commitments, or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain.
    I have no commitments or agreements to pursue outside employment 
during my service with the government, but I hope to do so, as set 
forth in B(1) above.
    3. Do you have any plans, commitments, or agreements after 
completing government service to resume employment, affiliation, or 
practice with your previous employers, business firms, associations, or 
organizations?
    After completing this particular government service, I hope to 
continue my professional relationships as noted in B(1) above but have 
no commitments nor agreements to do so.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? No.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable?
    If confirmed, I expect to serve at the pleasure of the President.
                   c. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers.
    I have no financial arrangements nor deferred compensation 
agreements with business associates, clients or customers other than 
(a) 50 percent equity in the investment and development firm of 
Freeborn Investors, LLC; (b) 29 percent equity in the sports 
development firm of Westchester Baseball, LLC; (c) 20 percent of law 
firm fees received from clients generated by me; and (d) pensions from 
three previous employers, set forth in my financial disclosures in 
Section G(1) and (8) below. My spouse holds an identical percentage in 
(a) and (b).
    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    I have no investments, obligations, liabilities, or other 
relationships that could involve current or potential conflicts of 
interest.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    I have had no such business relationship, dealing, or financial 
transaction for myself, a client, or as agent, in the past 10 years.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    In 1994-95, I served as Chairman of the Bridgeport Regional 
Business Council, which attempts to influence public policy regarding 
regional economic development matters. Until 1995, I was active in the 
National Association of Water Companies (NAWC) and served as its 
President in 1994; NAWC attempts to influence the administration and 
execution of law and public policy relating to the investor-owned 
drinking water industry. I've engaged in no other lobbying activities 
in the past 10 years.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.)
    (Not Applicable)
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position? Yes.
                            d. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain. No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation, or ordinance, 
other than for a minor traffic offense? If so, please explain. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    Yes. See below.

    (a) In my capacity as General Counsel of the U.S. Pay Board in 
1971-72, I participated in the rule-making proceedings of that 
administrative agency. In my capacity as Vice President and General 
Counsel of Potomac Electric Power Company in 1971-74, I was involved in 
several administrative proceedings with the Public Service Commissions 
in Maryland, Virginia, and the District of Columbia, and in some civil 
litigation. In my capacity as Vice President and General Counsel, then 
Executive Vice President and Chief Operating Officer, of Carey Energy 
Corp. and New England Petroleum Corp. in 1974-79, I was involved in 
some administrative proceedings with the New York Public Service 
Commission and several civil litigation matters, which included parties 
such as Libyan National Oil Company, National Iranian Oil Company, Con 
Edison of N.Y., and Long Island Lighting Company.

    (b) In my capacity of director at People's Bank and The Bank Mart, 
I was one of a class of defendants in some nuisance litigation and, in 
the case of Bank Mart, was one of 15 former directors of a savings bank 
sued by the FDIC for alleged negligence. The bank failed 3 or so years 
after I left its Board to go on the People's Bank Board. The complaint, 
brought in 1995, regarded Board approval of certain real estate 
development loans in the 1980s over a 7-year period, 3 of which I had 
served on. the Board but not on its Loan Review Committee. FDIC, as 
Receiver for The Bank Mart v. Barbara A. Bodine as Executrix of the 
Estate of Richard P. Bodine, et al., U.S. District Court, District of 
Connecticut Docket No. 3:95 CV563AHN, was settled in 1998.

    (c) While serving as Executive Vice President of The Hydraulic 
Company (THC), beginning in 1985, and President of its Bridgeport 
Hydraulic Company (BHC) water utility subsidiary, commencing 1986, the 
company initiated administrative proceedings before the Connecticut 
Department of Public Utility Control (DPUC) to increase water service 
rates as follows:

        Effective Date of Rate Cases for BHC:

                9/16/86

                6/1/89

                1/1/91

                8/1/93

    Additionally, BHC's Stamford Water Company (SWC) subsidiary 
initiated similar proceedings before the DPUC to increase water service 
rates as follows:

        Effective Date of Rate Cases for SWC:

                7/29/85

                12/30/86

                8/28/91

    Also, while serving as Executive Vice President of THC, and 
President of its BHC water utility subsidiary, the DPUC in December 
1986 concluded an investigation of BHC's meter testing and meter test 
reporting practices by entering into a settlement agreement with the 
Company. Under the settlement, BHC submitted a management control plan 
regarding the meter testing function and agreed to donate $15,000 to a 
local charity.
    In October 1987, while serving as Executive Vice President and a 
Director of THC and President of its BHC water company subsidiary, the 
DPUC ordered seven utilities including BHC and SWC to show cause why 
the rates should not be reduced to pass on to customers benefits to 
lower Federal taxes resulting from the Tax Reform Act of 1986. Under 
the terms of a negotiated settlement, BHC and SWC agreed to decrease 
their water rates by 1.02 percent and 6.3 percent, respectively.
    In 1988, while serving as the President and a Director of THC and 
Chairman and CEO of the company's Timco lumber processing subsidiary, 
the New Hampshire Department of Environmental Services issued an 
administrative order for excessive carbon monoxide emissions from 
Timco's co-generation facility. In January 1989 Timco submitted to the 
DES a preliminary plan to bring the plant into compliance with 
applicable regulations.
    In 1989, YMC, Inc., a subsidiary of SRK, Inc., disclosed to the EPA 
certain facts concerning testing conducted and reported in 1986 and in 
1987 in a manner that violated a laboratory contract with the EPA. 
After cooperating fully with the EPA's investigation, YWC subsequently 
entered a guilty plea and was fined and agreed to pay the expenses of 
DOJ and to temporarily withdraw from the contract laboratory program 
until YWC was acquired by The Hydraulic Company, while I was serving as 
President and CEO and a Director of THC, which occurred on December 7, 
1990.
    While serving as President and CEO and a Director of THC, on 
February 16, 1990 the company's Timco subsidiary received a notice of 
violation in testing requirements from the USEPA relating to its co 
generation facility's air emissions. Timco renovated the facility to 
comply with DES emission standards. A settlement relating to Timco's 
emissions was signed in 1991 by the USEPA, the DES and Timco, and Timco 
paid a $4,000 fine to settle the matter.

        1992 No legal proceedings

        1993 No legal proceedings

        1994 No legal proceedings

        1995 No legal proceedings

    Note: On October 1, 1995, I became Chairman of the Board of 
Aquarion Company, successor to THC, and under a management succession 
plan relinquished my responsibilities as President and CEO. I served as 
Chairman until October 1996, whereupon I continued to serve as a 
Director of Aquarion and its BHC water company subsidiary. Since 1999, 
I have served on the Board of Aquarion Water Company, its successor.
    On October 1, 1996, while serving as a Director of BHC, its 
Ridgefield Water Company, which was subsequently merged into the 
company's BHC subsidiary, entered into a consent agreement with the 
State of Connecticut DEP relating to certain water supply sources 
located in the town of Ridgefield. The consent agreement requires BHC 
to meet various milestones on certain dates in order to St. Lawrence 
Seaway Deve1opment Corporation Advisory Board bring the Ridgefield 
water supply system into compliance with DEP water diversion 
regulations.
    While serving as a Director of Aquarion on March 26, 1997, the 
company sold its IEA subsidiary to American Environmental Network. On 
February 26, 1997, an employee of IEA filed suit in New Jersey Superior 
Court, Docket No. L 130-997, alleging her employment had been 
terminated because of pregnancy. On April 27, 1997, Aquarion was named 
a defendant. There was no finding of liability against Aquarion, and 
due to AEN's bankruptcy, the suit did not proceed.
    1998 No legal proceedings
    While serving as a Director of Aquarion Company, in a complaint 
filed in the Connecticut Superior Court in 1999 against the Company's 
Main Street South subsidiary, plaintiffs alleged damages from a leaking 
underground storage tank located on property owned by the Company. The 
matter was resolved through a settlement agreement reached among the 
parties in 2003.
    While serving as a Director of Aquarion Water Company, in a 
complaint filed in the Connecticut Superior Court, Bridgeport, dated 
June 20, 2000, and revised on September 20, 2000, three plaintiffs 
commenced action against Aquarion alleging the Company overcharged for 
water service by permitting an oversized water meter to remain 
installed at a property site for 10 years. In October 1998, after being 
informed of the problem Aquarion installed a smaller meter. The matter 
was resolved through a settlement agreement in October 2002.
    While serving as a Director of Aquarion Water Company, on or about 
January 31, 2002, the Company was served with a complaint by an 
employee that had been filed with the Connecticut Commission of Human 
Rights & Opportunities alleging discrimination on the basis of race and 
sex when she was suspended pending further investigation of job 
performance. Subsequently the employee was terminated. While Aquarion 
denied all of the material allegations, the matter was resolved through 
a confidential settlement agreement and all claims against the Company 
were dismissed.
    While serving as a Director of Aquarion Water Company, in 2003, a 
plaintiff filed a series of lawsuits arising from the condemnation of 
an easement by the Connecticut Department of Transportation (DOT) and 
the subsequent installation of a fire hydrant on the easement area by 
Aquarion. The action against Aquarion, the DOT, and the City of 
Stamford was filed in a complaint dated January 31, 2003. In this case, 
the DOT took by eminent domain a 5-foot wide easement along the front 
yard of the plaintiff in a project implementing various improvements to 
the street. During the course of the project, Aquarion relocated an 
existing fire hydrant from the existing sidewalk on the front of the 
property into the newly acquired easement area on the street side of 
plaintiff's picket fence. The hydrant was moved approximately 4 feet 
from its prior location. Underlying plaintiff's claims against Aquarion 
is his contention that the placement of a fire hydrant on the easement 
area was unlawful and constituted a trespass. Aquarion denies all 
material allegations and the matter is still pending.
    (d) Additional civil litigation: Jack E. McGregor v, Carol D. 
McGregor; Bridgeport Superior Court Docket .No. FA-01-02818825, marital 
dissolution matter, final divorce decree entered March 6, 1992; William 
M. Robinson, Trustee v. Hein, Bridgeport Superior Court Docket No. CV-
92-02998935--I was witness and primary beneficiary in this breach-of 
contract action, settled in February 2003; served papers on January 30, 
2004 regarding a Petition before the Supreme Court of the State of New 
York, County of Westchester, for a Judgment to annul a Special 
ordinance adopted by Yonkers City Council in October 2003 permitting 
construction of a professional baseball park, because of some alleged 
flaws in the environmental review process. Index No. 04-1386--the suit 
names as defendants the Mayor, City Council, Yonkers Industrial 
Development Agency, other City officials, and Westchester Baseball, 
LLC--nominee is a Managing Member of the last named defendant.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination. None.
                     e. relationship with committee
    1. Will you ensure that your board/commission complies with 
deadlines for information set by congressional committees?
    To the best of my ability.
    2. Will you ensure that your board/commission does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures?
    To the best of my ability.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                  f. general qualifications and views
    1. How do your previous professional experiences and education 
qualify you for the position for which you have been nominated?
    In my 8 years service as a Pennsylvania State Senator and Chairman 
of the Senate's Federal Relations Committee, I was actively involved in 
Great Lake States Compact initiatives. In my 4 years with the National 
Hockey League, I interfaced with several Canadian industry and 
government leaders. In my 3 years in the electric utility industry and 
10 years in the drinking water industry, I was actively engaged in many 
administrative and regulatory proceedings. In my one year with the 
Federal Government, I was actively engaged in administrative rule 
making proceedings. In my 5 years in the oil industry and then 7 years 
in oil-related projects, I was regularly exposed to maritime 
transportation matters. My participation on 27 different Boards as a 
director or trustee of substantial institutions and companies over a 
professional career encompassing 41 years also affirmatively qualifies 
me for this position. My exposure to and experience with 
environmentally sensitive economic projects in 3 different northeastern 
states adds a timely dimension to my qualifications. Finally, my 
experience in supervising military and law enforcement personnel is 
another added dimension of my relevant experiences.
    My bachelor of science undergraduate degree, my law degree, my 
military service, my 9 years of public service, and in depth, multi-
faceted careers in the private sector provide me with the ability to 
work with the senior leadership of the SLSDC. The SLSDC, as a wholly-
owned government corporation, operates much like a private sector 
company. I intend to use my experiences to help the agency meet its 
strategic, performance, and operational goals.
    2. Why do you wish to serve in the position for which you have been 
nominated?
    Because of the opportunity to serve my country and my interest in 
the subject matters the position encompasses.
    3. What goals have you established for your first two years in this 
position, if confirmed?
    My goals are to work with the SLSDC Administrator to ensure the 
long-term reliability and competitiveness of the St. Lawrence Seaway. 
The waterway is nearly 50 years old and has experienced diminishing 
traffic results in recent years. I intend to work with my fellow 
Advisory Board members and the agency leadership to help develop a 
roadmap for the waterway's next 50 years.
    4. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills?
    I need to develop a better understanding of the complexities 
inherent in commercial navigation on the St. Lawrence Seaway System. I 
understand the waterway is unique and different from any other waterway 
in the United States. For example, the waterway is shared with Canada, 
only attracts a limited and specialized vessel fleet, does not move 
containers, and is not utilized by U.S. flag vessels. Through 
interaction with agency staff, my fellow Board members, and the key 
stakeholders in the Great Lakes Seaway System region, I will develop 
the knowledge.
    5. Please discuss your philosophical views on the role of 
government. Include a discussion of when you believe the government 
should involve itself in the private sector, when society's problems 
should be left to the private sector, and what standards should be used 
to determine when a government program is no longer necessary.
    The principal role of government should be the preservation of 
individual and societal liberties, the enhancement of individual and 
societal security, the education of its citizens, a sound monetary 
policy, modest regulatory oversight of an otherwise free, market-driven 
economy, and reasonable regulation of land use, of the environment, of 
transportation, and of food and health minimum standards. Government 
should not engage in ventures that can more effectively and efficiently 
be undertaken by the private sector. Standards that should be used to 
determine when a government program is no longer necessary include 
whether the program is appropriate for the targeted benefit, whether 
the private sector could manage and invest in the program more 
efficiently, whether public support for the program is adequate to 
justify its cost, and whether the public benefit at least equates to 
the public expenditures.
    6. Describe the current mission, major programs, and major 
operational objectives of the board/commission to which you have been 
nominated.
    The SLSDC, a wholly-owned government corporation and an operating 
administration of the U.S. Department of Transportation, is responsible 
for the operations and maintenance of the U.S. portion of the St 
Lawrence Seaway between Montreal and Lake Erie. This responsibility 
includes managing vessel traffic control in areas of the St. Lawrence 
River and Lake Ontario as well as maintaining and operating the two 
U.S. Seaway locks located in Massena, New York. In addition, the SLSDC 
performs trade development functions designed to enhance Great Lakes 
St. Lawrence Seaway System utilization.
    Maritime commerce on the Seaway System, which is a critical 
transportation link to and from the agricultural and industrial 
heartland of North America, annually generates more than 150,000 U.S. 
jobs, $4.3 billion in personal income, $3.4 billion in transportation-
related business revenue, and $1.3 billion in federal, state, and local 
taxes.
    The SLSDC coordinates its activities with its Canadian counterpart, 
the St. Lawrence Seaway Management Corporation (SLSMC), particularly 
with respect to navigational rules and regulations, overall day-to-day 
operations, traffic management, navigation aids, safety, environmental 
programs, operating dates, and trade development programs. The unique 
binational nature of the Seaway System requires 24-hour, year-round 
coordination between the two Seaway entities. SLSDC annual performance 
and strategic plans include goals and objectives for safety, 
reliability, trade development, and management accountability.
    7. What do you believe to be the top three challenges facing the 
board/commission and why?
    Three of the top challenges facing the SLSDC and its board are (1) 
working with the Congress to ensure sufficient operations and 
maintenance funding for the agency, including enhanced security 
precautions in the post 9/11 era; (2) working with the U.S. Army Corps 
of Engineers and the Canadian Seaway entity on the completion of the 
on-going Great Lakes St. Lawrence Seaway Study; and (3) working with 
industry to recapture grain, steel, and iron ore trade levels that have 
been eroding over the past decade.
    8. In reference to question number six, what factors in your 
opinion, have kept the board/commission from achieving its missions 
over the past several years?
    Although I'm not familiar with the present Board's interaction with 
agency staff, members of Congress, and key stakeholders, the SLSDC's 
Advisory Board members should be fully engaged with all three groups to 
help the agency attain more effective funding and new trade for the 
binational waterway.
    9. Who are the stakeholders in the work of this board/commission?
    The key stakeholders for the St. Lawrence Seaway include: (1) U.S. 
and Canadian commercial navigation interests, including ports, 
terminals, carriers, importers, exporters, and labor; (2) foreign 
customers, primarily in Europe, South America, and North Africa; (3) 
members of Congress and other state and local leaders in the eight-
state Great Lakes region; and (4) those law enforcement and homeland 
security personnel in the region pertinent to GLSL Seaway security.
    10. What is the proper relationship between the position to which 
you have been nominated, and the stakeholders identified in question 
number nine?
    One of the key roles of the SLSDC Advisory Board is to assist the 
Administrator in working to establish new business contacts that could 
result in future commercial business for the waterway. The agency does 
not directly negotiate contracts, but does serve to facilitate trade 
between all stakeholders. In my role as a member of the Advisory Board, 
I intend to increase the agency's contacts database.
    11. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you?
    I have generally followed a supervisory model of initial mentoring, 
then fairly full delegation, coupled with an oversight style of devil's 
advocacy. No employee complaints have been brought against me in my 41 
years of professional life.
    12. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with committees of 
Congress? If yes, please explain.
    I have not had a working relationship with Congress, although I 
have supervised the work of lobbyists who in turn had a working 
relationship with congressional committees.
    13. In the areas under the board/commission jurisdiction to which 
you have been nominated, what legislative action(s) should Congress 
consider as priorities? Please state your personal views.
    As mentioned in the answer to question number 7, the Congress 
should focus some attention on ensuring the long-term viability of the 
Seaway System. Over the past decade, the SLSDC has received minimal 
funding increases that barely offset its mandatory pay and benefit 
increases, leaving the agency with little to no funding for key capital 
maintenance projects. A careful review of possible need for security 
enhancement funding should also be undertaken. The waterway is nearing 
its 50th year of operation and should have a long-term capital plan 
that the Congress is committed to funding. In addition, the Congress, 
through its work with the U.S. Army Corps of Engineers, needs to 
carefully consider any navigational improvements recommended by the 
Corps in its on-going study.
    14. Please discuss your views on the appropriate relationship 
between a voting member of an independent board or commission and the 
wishes of a particular president.
    A voting member of an independent board should be sensitive to the 
wishes of a president, should be willing to rethink his own views 
should they be at odds with those of his appointing power, but should 
vote his conscience (and be prepared to relinquish his position) should 
he not be able to reconcile his vies with those of the President.

    The Chairman. Thank you very much.
    Ms. Hersman, there has been an allegation in the press that 
there's now not enough aviation expertise on the NTSB. Have you 
heard about that?
    Ms. Hersman. Yes, sir, I have.
    The Chairman. And your response?
    Ms. Hersman. Well, I am concerned, because I've spent a lot 
of time on multiple modes of transportation, including 
aviation, since I've been here, worked on safety issues, such 
as the H-60 issue, security issues. After 9/11, I became much 
more involved in aviation. But since November 2001, the board 
has only launched from headquarters on one major aviation 
incident, and that was Charlotte. During that same time, 
they've launched on numerous surface transportation incidents--
the tanker truck explosion in Baltimore, Staten Island Ferry, 
and the Baltimore Water Taxi. So I think it's important to be 
well-rounded on all of these modes, and understand safety.
    The work of the investigation is really done by the 
professionals of the board. There's 400 staff there, and I will 
rely on them, I'm sure, on all investigations, to give me 
excellent advice. I hope that I can bring an expertise to the 
board on surface transportation issues, particularly railroad 
issues, that they have not had for some time. And I will 
continue to do my best to get up to speed on all issues, as I 
have when I've worked for this Committee.
    Thank you.
    The Chairman. Thank you.
    Mr. Kassinger, what's your view of climate change?
    Mr. Kassinger. I share the President's view that it's----
    The Chairman. Pardon me?
    Mr. Kassinger. Senator, I share the President's view that 
it's a matter of serious concern, and it's something that we 
ought to devote, as we are, substantial resources to 
understanding and addressing. The government currently spends 
upwards of $5 billion on a combination of research into 
climate-change causes and related scientific issues and 
technologies to address the contributors to climate change, 
including emissions of carbon dioxide and other contributors to 
the emissions into the atmosphere.
    I think that the Commerce Department, as you know, has led 
the Climate Change Research Group. That effort is about to be 
manifested in an incredibly detailed, comprehensive program 
that gained high praise from the National Science Foundation, 
and the National Research Council, recently. It would be the 
first time in history that the Government's efforts in the 
climate change area will have been consolidated and focused not 
only on producing excellent science, but directing that science 
to matters that are important to decisionmakers in the 
Congress, as well as in the executive branch.
    As you also--just one other point, sir--I think that one of 
the most important programs we have in the Commerce 
Department--again, reflecting our concern about the importance 
of this issue--is the Global Observation System that Admiral 
Lautenbacher has conceived and is implementing through NOAA at 
the end of this coming month, in April. We'll be leaders in 
Tokyo, at the World Conference that will launch this--on a 
global basis, this Climate Change Observation program that will 
develop a great deal of additional information that will help 
us address the issues.
    The Chairman. Do you know when the--what year the first 
report will be made to Congress?
    Mr. Kassinger. From the Climate Change Research Program? 
The reports, in my recollection, will be rolling out, I think, 
the first one, as early as next year, but I'll get back to you 
on that.
    The Chairman. Maybe we're not talking about the same 
proposal, Mr. Kassinger. We have received no reports from the 
Administration, and the proposal that we read that was in the 
nice, glossy, pink binder--the first report is the year 2012. 
Well, it's obvious the position of the Administration on this 
issue has been very disappointing. We've not seen any concrete 
action. So far, we've heard of a lot of research and a lot of 
study.
    The National Academy of Sciences overwhelmingly believes 
that, one, climate change is real and is a growing threat. And 
the view of--overwhelming view of the scientific community and 
the world on this is that this Administration is doing little 
to nothing about it. I hope that--I probably can't change the 
position of the Commerce Department or the Administration, but 
we're going to pay a very heavy price for the inattention to 
this issue on the part of the Administration.
    You just mentioned Admiral Lautenbacher. I believe it was 
before this Committee, he said, ``Well, all you need to do is 
go to sleep for''--30 years, it was? Yes, ``go to sleep for 30 
years,'' anybody who's interested in climate change.
    It's hurting us in the near term because of the damage 
that's being done to the Earth's atmosphere and the Earth, and 
it's hurting us internationally, because the view of Europeans 
and the world community concerning our lack of seriously 
addressing this issue. So I hope that maybe you'll come up with 
a little better information and a little bit better strategy 
than what we've seen so far. I've been in this issue for a 
long, long time. You're not doing enough.
    Mr. McGregor and Mr. Brennan--excuse me--Mr. Anderson and 
Governor Brennan, what do you think of the Jones Act?
    Mr. Anderson. Mr. Chairman, I believe very strongly in the 
Jones Act. I spent 9 years with a company that was exclusively 
a Jones Act operating company, carrying liquid petroleum 
products, chemical products, tug and barge operations in the 
United States. I think it's a very important part of our 
country's efforts to maintain a domestic fleet and shipbuilding 
base.
    The Chairman. Do you think there should be exceptions to 
the Jones Act, Mr. Anderson?
    Mr. Anderson. With respect to what, Mr. Chairman?
    The Chairman. Any exceptions.
    Mr. Anderson. Well, there are some exceptions to the Jones 
Act. I'm familiar with a couple that I actually participated 
in. One was a Wrecked Vessel Act project which joined two 
wrecked vessels, and we needed an exemption to the Jones Act. 
Another one was for some vessels that----
    The Chairman. How about for cruise ships?
    Mr. Anderson. I think it would depend on the circumstances, 
Mr. Chairman.
    The Chairman. Governor Brennan?
    Governor Brennan: I'd say, first, we deal strictly with the 
foreign water-borne commerce, so we don't deal with the Jones 
Act, but I did deal with it, to a certain extent, when I served 
in the House. And, in many senses, the issue was treated as 
sort of the sacred cow. I didn't see it changing a great deal. 
So that's about where I am at it.
    The Chairman. What are the major challenges that you see, 
Governor Brennan, particularly in light of this threat of 
terrorism that's associated with our ports and our maritime 
activity?
    Governor Brennan: I think it is a very serious threat, and 
the Commission has worked with naval intelligence, worked with 
the various subsets of Homeland Security, including the Coast 
Guard and Customs, but we don't have a lot of troops on the 
ground. We have about five people actually on the ground making 
observations in five major ports. But we do have a lot of 
commercial data, a lot of information, and we see ourselves in 
a really important supportive role to try to help the agencies 
that actually do the policing.
    The Chairman. Mr. Anderson?
    Mr. Anderson. Yes, sir. Mr. Chairman, I believe that it is 
a very important for our country to have port security and 
maritime security. And as my colleague, Commissioner Brennan, 
mentioned, we--as an agency, don't play a front-line role. We 
are a support agency. We have quite a bit of commercial 
information, where we licence and bond ocean transportation 
intermediaries. We have had meetings, as late as yesterday, 
with TSA, Customs, and some other security agencies to work out 
ways with which we can share the information that we have in an 
effort to support our security efforts of the country.
    The Chairman. Thank you. Congratulations to all of you, and 
we will move your nominations as quickly as possible so that 
you can get to work, or back to work.
    Thank you very much. This hearing is adjourned.
    [Whereupon, at 3:20 p.m., the hearing was adjourned.]

                            A P P E N D I X

          Prepared Statement of Hon. John D. Rockefeller IV, 
                    U.S. Senator from West Virginia
    Mr. Chairman, Senator Hollings and to my colleagues, as we hold 
many nomination hearings in this Committee, and we say many things 
about the nominees, usually in praise of them, but at times questioning 
them. This nomination is a personal one for many of us, as we have all 
watched Debbie work tirelessly on behalf of us and our constituents.
    Before I discuss all of the reasons that Debbie is absolutely the 
right person for this position, I want to proudly state she is a West 
Virginian. Both of her parents were raised in Roane County, West 
Virginia. In addition, she has many proud relatives in Spencer and 
Charleston, West Virginia. I know that the people of West Virginia 
share my pride in all of Debbie's accomplishments.
    Before coming to the Senate Commerce Committee, Debbie worked for 
then Congressman Wise of West Virginia in many capacities, including 
chief of staff. Governor Wise called me to support her nomination, and 
we wholeheartedly agreed that there was no better person for the job. 
Debbie has spent a career working for the people of West Virginia, and 
I know the entire country will benefit from her presence on the 
National Transportation Safety Board.
    Each of us has had to call on the National Transportation Safety 
Board, or watched on CNN, the work that they do in sifting through a 
disaster site and in dealing with family members following an aviation 
tragedy. We rely on their independence to provide Congress and the 
transportation regulatory agencies recommendations to improve safety. 
It is a critical role that they play, and one divorced from politics 
and partisanship. The National Transportation Safety Board deals with 
situations where tragedies affect many people and that makes it all the 
more important that we select someone with both the technical knowledge 
to contribute to the board's work and the human compassion needed in 
the context of these tragedies. Debbie melds these two important 
requirements in a particularly special manner.
    Each Board Member is an independent source of knowledge and 
information. While the Board votes on matters, and we hope that all 
agree on the safety recommendations, each is charged with independently 
making a decision based on the facts and analysis of its expert staff. 
A small agency, with some 429 employees, its expertise and knowledge is 
recognized around the world.
    Debbie, who has worked on this Committee for five years, has worked 
with all of us on transportation safety and regulatory issues, using 
her expertise and talents to push for improvements. Her primary focus 
has been surface transportation, but I know that she has spent a 
considerable amount of time on aviation safety issues, and helped with 
aviation security matters following 9/11. I know she worked on the 
highway bill while a House staff member, and that knowledge will help 
her in her new position.
    Her talents, wit, charm and expertise will be sorely missed. I wish 
you the best of luck in your new position, and while none of us hope to 
see you about a tragedy in our states, we know that whatever the 
situation, the NTSB will be in good hands with Debbie there.
                                 ______
                                 
              Prepared Statement of Hon. E. Clay Shaw, Jr.
    Mr. Chairman, Senator Hollings, Members of the Committee:

    I'm proud to be here this afternoon with my Florida colleagues in 
support for the nomination of Mr. Alan Paul Anderson for the Federal 
Maritime Commission.
    This is a special opportunity for me, for not only is Paul Anderson 
a constituent, but he's a friend. Paul is a resident of Florida's 22nd 
congressional district where he has lived and worked for many years.
    Paul's commitment to South Florida is evident in the number of 
organizations and affiliations he associates himself. Whether it's as a 
trustee for Broward Community College, the Broward Alliance or the 
Broward Education Foundation, Paul serves his community and state well.
    Today, you consider his name for the Federal Maritime Commission. 
Up until his work with JM Family Enterprises Inc., where he served as 
vice president of government relations, Paul was employed for 8 years 
with Hvide Marine, Inc. based at Port Everglades, Florida. There Paul 
served as manager of marketing, assistant to the president and director 
of public affairs.
    Hvide Marine was a U.S. flag diversified marine transportation 
company with tanker, offshore supply vessel, tug and barge and tug boat 
operations in the U.S. and international markets. In his capacity, Paul 
represented Hvide to the national maritime trade associations assisting 
the industry in facing the many public policy challenges.
    With a distinguished background in business and the marine 
industry, I believe Paul Anderson will be a tremendous asset to the 
Federal Maritime Commission.
    I'm honored to be here today and speak on behalf of my friend, Paul 
Anderson.
    Thank you, Mr. Chairman.
                                 ______
                                 
                         Commercial Vehicle Safety Alliance
                                     Washington, DC, March 29, 2004

Senator John McCain,
Chairman,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Mr. Chairman:

    On behalf of the Commercial Vehicle Safety Alliance, I am writing 
to recommend the Committee approve the nomination of Deborah A. Hersman 
to serve as a member of the National Transportation Board.
    CVSA is an association of truck and bus safety enforcement 
officials and industry representatives in Canada, Mexico and the United 
States. We have worked with Ms. Hersman in her capacity as the 
Democratic Senior Professional Staff Member for the Surface 
Transportation and Merchant Marine Subcommittee of the Senate Commerce, 
Science, and Transportation Committee on a number of important 
commercial vehicle safety legislative issues.
    We believe she is well qualified to fill the position for the NTSB 
member term expiring at the end of this year. In our experience working 
with her on the Motor Carrier Safety Improvement Act of 1999, Mexican 
border safety issues, and the process currently underway to reauthorize 
the Transportation Equity Act for the 21st Century, we have found her 
to be knowledgeable on transportation matters and willing to listen to 
all sides of an issue. She works hard to seek consensus and bipartisan 
solutions that enhance public safety and prevent the recurrence of 
transportation related accidents. These qualifications will help to 
ensure a cooperative working relationship between the NTSB, the 
Administration, the Congress private industry and the publ1c.
    Again, in the interest of transportation safety we hope you and the 
Committee approve Ms. Hersman's nomination to serve as a member of the 
National Transportation Safety Board.
            Sincere1y,
                                       Stephen F. Campbell,
                                                Executive Director.

                                  [all]
                                  
                                  
                                  

                  This page intentionally left blank.

      
</pre></body></html>
